<html>
<title> - REVIEW OF THE PROPOSED NATIONAL AERONAUTICS AND SPACE ADMINISTRATION HUMAN SPACEFLIGHT PLAN</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                    REVIEW OF THE PROPOSED NATIONAL
                  AERONAUTICS AND SPACE ADMINISTRATION
                         HUMAN SPACEFLIGHT PLAN

=======================================================================

                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 26, 2010

                               __________

                           Serial No. 111-96

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
57-174                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6007100f200315131408050c104e030f0d4e">[email&#160;protected]</a>  

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        MICHAEL T. McCAUL, Texas
JIM MATHESON, Utah                   MARIO DIAZ-BALART, Florida
LINCOLN DAVIS, Tennessee             BRIAN P. BILBRAY, California
BEN CHANDLER, Kentucky               ADRIAN SMITH, Nebraska
RUSS CARNAHAN, Missouri              PAUL C. BROUN, Georgia
BARON P. HILL, Indiana               PETE OLSON, Texas
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
JOHN GARAMENDI, California
VACANCY


                            C O N T E N T S

                              May 26, 2010

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........    27
    Written Statement............................................    29

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    39
    Written Statement............................................    41

Prepared Statement by Representative Gabrielle Giffords, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    53

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    54

                                Panel I:

Mr. Charles F. Bolden, Jr., Administrator, National Aeronautics 
  and Space Administration
    Oral Statement...............................................    42
    Written Statement............................................    45
    Biography....................................................    52

Discussion
  Feasibility of New Budget......................................    55
  Funding a Crew Rescue Vehicle..................................    56
  Glenn Research Center..........................................    58
  Maintaining the International Space Station....................    59
  The Search for Extra-Terrestrial Life..........................    60
  Fixing Constellation...........................................    61
  Solid Rocket Industry and Workforce............................    62
  Savings From Ares Cancellation.................................    62
  Cost of a Crew Rescue Vehicle..................................    63
  Continuing Work on Constellation...............................    64
  Presidential Visit to the Johnson Space Center.................    66
  NASA's Primary Mission.........................................    67
  Space Communications Networks Service Contract.................    68
  Space Tourism..................................................    68
  Modifying Constellation........................................    69
  Termination Liability..........................................    70
  Abdicating Leadership in Space.................................    71
  Safety Regulations for Commercial Spaceflight..................    71
  Promoting STEM Fields Through NASA.............................    73
  Asteroid Mission...............................................    74
  Timeline for Human Rated Commercial Launch Vehicles............    75
  Constellation Variations.......................................    76
  Potential Commercial Crew Providers............................    76
  Infrastructure Costs...........................................    76
  Extending the Shuttle Program..................................    77
  Maintaining Space Workforce....................................    78
  Safety Record of Commercial Providers..........................    79
  Timeline for Commercial Access to LEO..........................    79
  Ceding U.S. Preeminence........................................    81
  Constellation Program Director Reassignment....................    81
  Benefits of New Budget.........................................    82
  Termination Liability..........................................    82
  Cost Estimates for Ares Program................................    84

                               Panel II:

Mr. Neil Armstrong, Commander, Apollo 11
    Oral Statement...............................................    85
    Written Statement............................................    87

Captain Eugene A. Cernan, USN (Ret.), Commander, Apollo 17
    Oral Statement...............................................    89
    Written Statement............................................    92

Mr. A. Thomas Young, Lockheed Martin (Ret.)
    Oral Statement...............................................    96
    Written Statement............................................    98

Discussion
  Durability of Private Sector Approach..........................   100
  Return to the Moon.............................................   102
  Constellation Lite.............................................   102
  Space Shuttle Extension........................................   103
  NASA Priorities................................................   104
  NASA Technical Capacity........................................   105
  Value of Return to Moon........................................   108
  Workforce Morale...............................................   109
  Viability of the President's Plan..............................   111
  Impact of the Augustine Report.................................   111
  Maintaining American Leadership in Space.......................   112
  Investing in Engine Development................................   113
  More on Maintaining American Leadership in Space...............   114
  Impact on National Security....................................   115
  Astronaut Safety Concerns......................................   116
  Technical Share of the Constellation Program...................   118


 REVIEW OF THE PROPOSED NATIONAL AERONAUTICS AND SPACE ADMINISTRATION 
                         HUMAN SPACEFLIGHT PLAN

                              ----------                              


                        WEDNESDAY, MAY 26, 2010

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.
                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                    Review of the Proposed National

                  Aeronautics and Space Administration

                         Human Spaceflight Plan

                              may 26, 2010
                            10 a.m.-12 p.m.

                   2318 rayburn house office building

I. Purpose

    On May 26, 2010 at 10:00 a.m. the Committee on Science and 
Technology will hold a hearing on the proposed National Aeronautics and 
Space Administration (NASA) Human Spaceflight Plan. The purpose of the 
hearing is to continue the examination of the proposed NASA human 
spaceflight plan and to review issues related to the budget, cost, 
schedule and potential impacts of the plan.
    The hearing will 1) examine the administration's proposed goals, 
strategies and plans for NASA's human spaceflight and exploration 
programs, including the revisions announced by the president on April 
15, 2010; 2) the assumptions, basis, feasibility and sustainability of 
those plans within the FY 2011 budget plan and outyear funding plan; 3) 
the key challenges and risks involved in implementing the proposed 
change of course for NASA; and 4) what outstanding questions and issues 
need to be addressed, and what information is needed as Congress 
considers the proposed future direction for NASA's human spaceflight 
and exploration programs.

II. Scheduled Witnesses

Panel I:

Mr. Charles F. Bolden, Jr.
Administrator
National Aeronautics and Space Administration

Panel II:

Mr. Neil A. Armstrong
Commander, Apollo 11

Captain Eugene A. Cernan,
USN (ret.) Commander, Apollo 17

Mr. A. Thomas Young
Lockheed Martin (ret.)

    Dr. John P. Holdren, Director of the Office of Science and 
Technology Policy, was invited to testify by the Committee but was 
unavailable due to another commitment.

III. Background and Issues

Background
    Congress has been presented with the administration's proposal to 
make drastic changes to the United States human spaceflight and 
exploration program that has been authorized and funded by successive 
Congresses since 2005. Key components of the new plan presented by the 
president in February and later modified in the president's April 15th 
speech at the Kennedy Space Center include the following:

        <bullet>  The International Space Station (ISS) will be 
        extended at least through 2020;

        <bullet>  An ISS crew rescue vehicle (potentially but not 
        necessarily based on the Orion crew exploration vehicle design) 
        will be developed and flying ``within the next few years'';

        <bullet>  There will be a human mission to an asteroid by 2025;

        <bullet>  Astronauts will orbit Mars by the mid-2030s;

        <bullet>  By 2015, NASA will have either finalized the design 
        of a Heavy Lift Vehicle (HLV) and be ready to start building 
        [per the president's April 15th speech], have done some design 
        work on an HLV concept [per the OSTP Director's public 
        statements], or have ``defined'' a Heavy Lift architecture [per 
        NASA statements to staff]; NASA will also have either developed 
        or started development of a new liquid hydrocarbon engine and 
        have carried out fundamental research on heavy lift propulsion, 
        and will have done all of the above for $3.1 billion over the 
        five-year period;

        <bullet>  NASA will support/fund the development of multiple 
        [3-4, according to NASA] commercial crew transport services by 
        2016 at a total cost to NASA of $6 billion; and

        <bullet>  NASA will invest $7.8 billion in Flagship Technology 
        Demonstrations, $3 billion in Robotic Precursor mission, and 
        $4.9 billion on Space Technology over the next few years.

    Mr. Norman Augustine, who chaired last year's Review of U.S. Human 
Spaceflight Plans Committee, has testified that the administration's 
proposed plan is closest to his panel's Option 5B--one of the 
``flexible path'' options. According to the Augustine committee report, 
Option 5B ``employs an EELV-heritage commercial heavy-lift launcher and 
assumes a different (and significantly reduced) role for NASA . . . 
[and] would also entail substantial reductions in the NASA workforce 
and closure of facilities to obtain the expected cost reductions.''
    In announcing its proposals, the administration indicated that a 
new human spaceflight plan was needed because the exploration program 
of record was ``unexecutable'' under the projected budgets.
    In the four months since the administration's proposed plan was 
announced, a number of significant issues have been raised that still 
have not been satisfactorily addressed by administration witnesses. A 
number of those issues are discussed in the following section.

Issues

1.  No credible basis has been provided to date to support the claim 
that NASA can successfully execute the proposed plan within the FY 2011 
and assumed outyear budget profile.

    One of the most significant findings of last year's Augustine 
committee was that ``Human exploration beyond low Earth orbit is not 
viable under the FY 2010 budget guideline.'' Following the same 
methodology used by the Aerospace Corporation, staff of the Science and 
Technology Committee analyzed the FY 2011 budget request using the same 
budget categories used in the Aerospace analysis for the Augustine 
committee, namely, Shuttle, International Space Station (ISS), 
Exploration, Kennedy Space Center (KSC) modernization, and exploration-
related technology. The staff analysis determined that the funding 
available for human spaceflight/exploration technology in the proposed 
FY 2011 budget plan is essentially the same as was available in the 
``not viable'' FY 2010 budget guidance over the years FY 2010-2015. In 
addition, if one compares the FY 2011 budget plan and outyear funding 
profile with that of the Augustine committee's ``Less Constrained'' 
budget, it turns out the budget for the administration's proposed plan 
through 2025 [the date of the asteroid mission] is $47 billion lower 
than the amount the Augustine committee determined would be needed to 
make any of its exploration options viable over that same period. 
Figure 1 below illustrates the mismatch between the Augustine 
committee's budget and both the ``not viable'' FY 2010 budget guidance 
and the proposed FY 2011 budget plan. [A spreadsheet comparing the 
various budgets is included in Appendix A].

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The addition of an ISS crew rescue development program without a 
corresponding increase in the NASA budget would appear to further 
weaken the credibility of any assertion that the proposed plan is 
executable. In staff briefings, NASA personnel indicated that a 
preliminary estimate of the cost of developing a crew rescue vehicle is 
on the order of $5-7 billion. Since the administration has stated the 
goal of flying the crew rescue vehicle ``within the next few years,'' 
it is reasonable to assume that several years of operations would also 
have to be budgeted for within the FY 2011-FY 2015 budget. Given the 
likely need to procure and fly two vehicles per year to the ISS, each 
on an Evolved Expendable Launch Vehicle (EELV), the annual operating 
cost could be estimated at $1+ billion. Thus, the total cost over the 
five year period of the crew rescue vehicle development/operations 
program could approach $10 billion. That is equivalent to a $1-2 
billion per year unfunded lien on the NASA budget. To put that 
shortfall into context, if one zeroed the FY 2011 funding for the 
Exploration Technology Demonstrations program, the Robotic Precursor 
program, and the KSC 21st Century Space Launch Complex initiative, it 
would only cover $1.2 billion of the potential shortfall. To cover a $2 
billion shortfall, one would also have to eliminate the increased 
funding for Earth Science, Aeronautics, and Space Technology. To date, 
NASA has not identified the planned offsets for the cost of the crew 
rescue vehicle.

2.  Lack of credible analysis or data and ensuing uncertainties 
contribute to increased risk of higher costs and longer delays than 
estimated and increased risk of unavailability of services.

    One of the central elements of the administration's plan is a 
proposal to rely on as-yet-to-be-developed ``commercial crew'' 
transport services to low Earth orbit and the ISS.
    The administration's plan assumes that it will support the 
development and demonstration of up to 3-4 commercial crew systems at a 
cost of $6 billion over the five-year period FY 2011-2015. [That 
funding is in addition to funding for launch infrastructure to 
facilitate commercial launches that is proposed as part of the ``21st 
Century Space Launch Complex'' initiative.] However, the basis of the 
$6 billion estimate has not been provided to Congress, despite repeated 
requests. In addition, the administration has been unable to provide 
the percentage of private sector cost sharing assumed in its $6 billion 
budget estimate. There are several grounds for questioning the 
credibility of the administration's estimate. The Aerospace 
Corporation, in its response to questions submitted by Space and 
Aeronautics Subcommittee Chairwoman Giffords, provided its independent 
analysis of the range of potential costs to develop a single crewed 
capsule/launch abort system of varying degrees of complexity/crew-
carrying capacity. A chart provided by Aerospace that summarizes the 
analysis is included in Appendix A. For the presently envisioned 2-4 
passenger commercial crew vehicles, the Aerospace analysis would 
suggest that the burden of proof needs to be put on the administration 
to demonstrate why the cost to the government has not been 
underestimated by at least a factor of two or more, even accounting for 
benefits to be accrued by following as yet unspecified ``commercial 
practices'' while still ensuring safety standards are met. The $6 
billion estimate is further called into question by NASA's preliminary 
estimate of the cost to develop a single ``simple'' crew rescue 
vehicle, with the crew rescue vehicle development cost estimate being 
essentially the same as what the administration estimates could fund 
the development of up to 3-4 different commercial crew transport 
vehicles with launch abort systems.
    In its report, the Augustine committee concluded that: ``While 
there are many potential benefits of commercial services that transport 
crew to low Earth orbit, there are simply too many risks at the present 
time not to have a viable fallback option for risk mitigation.'' 
However, the administration's proposed plan does not include any 
government backup option. In the absence of a government alternative, 
NASA would presumably have no choice but to cover any increased cost if 
it is to preserve its access to the low Earth orbit. Administrator 
Bolden, in testimony before Congress said ``I have to look at the 
possibility that the commercial sector may have difficulty, and we will 
do everything in my power to facilitate their success.''
    In the absence of a significant non-NASA, truly commercial market, 
NASA would have to assume responsibility for ensuring the continued 
viability of at least two commercial companies [unless the government 
is willing to accept the existence of a commercial monopoly determining 
its crewed access to space]. However the existence of any significant 
non-NASA market has not been independently validated. Given that, it is 
instructive to note that at a recent Federal Aviation Administration 
Commercial Space Transportation Advisory Committee meeting, 
Administrator Bolden noted that destinations other than the ISS would 
be needed for the commercial providers in order to keep ISS commercial 
crew costs down, and that NASA might have to invest in creating them: 
`` `We need a destination in low Earth orbit to which we can go', 
Bolden said `So that means that NASA and the commercial enterprises 
need to partner, maybe with DoD, maybe with the intelligence community. 
I don't know who. But we need to partner with a lot of people to 
develop a second orbital network of structures or something that act as 
a destination for people who want to make this commercial industry 
viable.' '' [Aerospace Daily, 5/20/10]. In addition, in an 
aviationweek.com article dated May 21, 2010, it was stated that 
``company reps agreed that even with a second destination . . . it will 
be hard to sustain a commercial market with the two annual ISS flights 
envisioned. `A market like that is probably not enough to sustain 
competition,' says George Sowers, vice president for business 
development at ULA [United Launch Alliance]. It could sustain two 
providers, if NASA's willing to pay extra to have two. It's kind of 
like EELV all over again.' ''
    Thus, if one accepts the administration's assumption that 
commercial crew providers can be ready to provide operational crew 
transfer services to the ISS in 2016--a schedule estimate that has not 
been independently validated and was made without even first having 
determined what acquisition approach will be followed--all the would-be 
commercial providers can assume in terms of a NASA market is that they 
may split a total of 10 trips to the ISS before the end of the planned 
extension of the ISS in 2020. It is reasonable to assume that in the 
absence of other markets, those providers will expect NASA to assume 
the great majority of the risk and cost--whatever that cost might turn 
out to be.

3.  Lack of detail and continued changes call into question the 
stability and sustainability of the proposed plan

    A series of changes to the proposed plan raises questions about the 
stability of the plan and whether further changes will be forthcoming. 
The budget justification was provided to Congress one month after the 
FY 2011 budget release; few details were provided to support the 
magnitude of the changes being proposed.
    On April 15, 2010, the president announced changes to the plan-a 
major one being the addition of a crew rescue vehicle to the human 
spaceflight portfolio-and one that represents a significant new 
requirement being levied on the FY 2011 NASA budget guideline. There 
were no details on what the change would entail, how it would be 
funded, and what the impact to other programs would be. In that same 
speech, the president announced that he was committed to ``finalizing a 
[heavy lift] rocket design no later than 2015 and then begin to build 
it.'' Yet, in subsequent discussions with NASA, Committee staff were 
told that primary emphasis was on the development of an engine for the 
first stage of a heavy launch vehicle and just the ``definition of a 
heavy lift architecture'' by 2015. Finally, the president added an 
explicit goal of carrying out the first human mission to a near-Earth 
asteroid by 2025.
    With respect to the crew rescue vehicle program, Administrator 
Bolden said in his prepared statement for the April 22, 2010 hearing by 
Senate Appropriations Subcommittee on Commerce, Justice, Science, and 
Related Agencies: ``Accommodating this effort within NASA's budget will 
change the amounts requested for the programs described below 
[technology development and demonstrations; heavy-lift and propulsion 
research and development; robotic exploration precursor]. An update to 
the NASA FY 2011 budget justification will be provided as soon as 
possible, but in the next few weeks.''
    On May 12, 2010, Administrator Bolden testified at a Senate 
Commerce, Science, and Transportation hearing that ``NASA expects to 
submit a revised FY 2011 budget request to Congress in the near future 
that will identify funding requirements for the restructured Orion crew 
capsule''.
    Given the number and significance of the changes being made to the 
initial proposed plan, the lack of details on the scope of programs and 
how they might change to support the addition of a crew rescue vehicle, 
the variations in the administration's description of how heavy lift 
development will proceed, and the lack of an updated budget request 
that reflects the changes, it may be difficult for Congress to have 
confidence in the stability of the plan that it is being asked to 
support.

4.  Proposed long-term exploration strategy lacks clarity and 
consistency

    The Constellation Program was designed and congressionally-
authorized with a stepping-stone approach in mind ``to ensure that 
activities in its lunar exploration program shall be designed and 
implemented in a manner that gives strong consideration to how those 
activities might also help meet the requirements offuture activities 
beyond the Moon'' and a range of future destinations ``to expand human 
and robotic presence into the solar system, including the exploration 
and utilization of the Moon, near Earth asteroids, Lagrangian points, 
and eventually Mars and its moons.'' [P.L. 110-422]
    However, in presenting his proposed new plan on April 15th, the 
president stated that with respect to the Moon, ``the simple fact is, 
we have been there before. There is a lot more of space to explore . . 
..'' He announced that the U.S. would send humans to an asteroid by 
2025, followed by a human mission to orbit Mars by the mid 2030s.
    Subsequent to that announcement, NASA continues to include the Moon 
as a destination but with no timetable, indicating a lunar landing 
would not occur until some time after the asteroid mission. 
Administrator Bolden's May 12 prepared statement for the Senate 
Commerce Committee noted that ``under the new plan, we will . . . build 
a technological foundation for sustainable, beyond-LEO exploration, 
with more capable expeditions in lunar space, and human missions to 
near-Earth asteroids, the Moon, Lagrangian points, and, ultimately, 
Mars.'' In addition, Administrator Bolden's prepared statement for the 
May 12 Senate hearing noted that the Exploration Robotic Precursors 
program would involve ``a lunar lander by 2015'' and the Enabling 
Technology Development and Demonstration program would involve 
activities ``that will lead to ground and flight demonstrations in 
lunar volatiles.'' It is not clear whether the Moon is or is not a 
significant part of the exploration strategy, and if so, what the 
purpose of lunar exploration would be under the president's plan. If 
the Moon is not a near-term part of the exploration strategy, it is not 
apparent why programs to send landers to the Moon and demonstrations in 
lunar volatiles would be needed within the next five years.
    Without a consistent outline of the logical progression for deep 
space exploration beyond low-Earth orbit authorized in law, how the 
knowledge from each mission would build on one another, and when a 
heavy-lift vehicle and crew capsule would be available to support deep 
space exploration, it is difficult for Congress to have a clear 
understanding of the plan it is being asked to support.

Implications for Congressional Consideration of the FY 2011 NASA Budget 
        Request
    Given the drastic changes being proposed by the administration, 
including cancellation of the current Constellation Program, the burden 
of proof has to rest with the administration to first demonstrate that 
its proposed plan is executable. That burden of proof includes 
providing compelling evidence that:

        1)  The proposed plan is executable within projected budgets;

        2)  The elements of the plan are sufficiently well defined and 
        analyzed such that the risks of higher than estimated costs and 
        schedule delays are minimized;

        3)  The plan is well thought-out and stable and has taken 
        account of potential impacts on other sectors; and

        4)  The proposed long-term exploration strategy is clear and 
        consistent.

    If that burden of proof is met, Congress will still need to 
determine whether or not the measures proposed are in the best interest 
of the Nation and of the nation's human spaceflight program. However, 
if the administration is unable to provide Congress with the confidence 
that its proposed plan is executable, Congress will then need to take 
steps to develop an alternative that is executable.
    Appendix A of this hearing charter contains additional background 
on the questions and decisions for Congress that are raised by the 
administration's proposed plan.

Appendix A

                Background: The Questions and Decisions

               for Congress on Human Spaceflight and the

                         Proposed New Strategy

1.  What Are the Priorities of the Goals and Objectives of the New 
Strategy That Congress is Being Asked to Support?

    Various statements in the FY 2011 budget request and speeches by 
NASA and other officials state a range of goals and objectives making 
it difficult to discern the priorities of the goals being proposed for 
the U.S. human spaceflight program.

        <bullet>  The NASA Administrator's message in the NASA FY 2011 
        budget request stated ``As we invest in the most cutting-edge 
        research and technology to enable human exploration beyond 
        Earth, we will also work to cultivate an expanded space 
        exploration industry through a commercial crew program that 
        seeks to spur competition and innovation in American industry, 
        ultimately resulting in commercial human spaceflight services. 
        Once established, these services will not only allow astronauts 
        to travel to the International Space Station, they will 
        ultimately open space travel to many more people across the 
        globe.''

        <bullet>  In his April 15, 2010 remarks at Kennedy Space 
        Center, the president stated: ``Our goal is the capacity for 
        people to work and learn, operate and live safely beyond the 
        Earth for extended periods of time, ultimately in ways that are 
        more sustainable and even indefinite.'' He also said: ``Early 
        in the next decade, a set of crewed flights will test and prove 
        the systems required for exploration beyond low-Earth orbit. 
        And by 2025, we expect new spacecraft designed for long 
        journeys to allow us to begin the first-ever crewed missions 
        beyond the moon into deep space. We'll start by sending 
        astronauts to an asteroid for the first time in history.''

    While various goals are being presented as part of the 
administration's proposed human spaceflight program, the realities of 
fiscal constraints within the U.S. government budget require that 
Congress understands the priorities for those goals. If the 
administration's goal is to send humans beyond low-Earth orbit, 
including to a near-Earth asteroid, as a starting point, by 2025, then 
a set of decisions must be made to support that goal. If the goal is to 
stimulate a space tourism and exploration industry, then certain 
questions must be asked and decisions must be made about the 
government's role in enabling the development of a new industry, and 
the advantages and disadvantages to the government and the taxpayer 
must be considered.

2.  Should the Constellation Program be Canceled?

    The Constellation Program consists of the Ares I crew launch 
vehicle and Orion crew exploration vehicle, the Ares V heavy-lift 
launch vehicle, associated ground systems and lunar systems. 
Constellation is the architecture established to deliver Americans to 
the ISS and later to the Moon and other destinations in the solar 
system following the retirement of the Space Shuttle. The FY 2009 
budget request for NASA stated that Constellation's Orion vehicle was 
also intended to serve as a back-up for commercial services being 
fostered to service the ISS: ``It [Orion] will be capable offerrying up 
to six astronauts (plus additional cargo) to and from the International 
Space Station if commercial transport services are unavailable.'' 
Constellation was authorized in both the NASA Authorization Act of 2005 
[P.L. 109-155] and the NASA Authorization Act of 2008 [P.L. 110-422].
    NASA provided the Committee the following status information for 
the Constellation Program, as of May 2010:

``The following are some of the Orion Project's key achievements:

        <bullet>  The Orion PDR [Preliminary Design Review] was 
        conducted during the summer of 2009, and completed in August 
        2009. The PDR was an extensive review of Orion's detailed 
        subsystems and integrated systems designs to date. The PDR 
        board unanimously recommended proceeding with detailed designs 
        toward Critical Design Review (CDR) in February 2011.

        <bullet>  In 2009, NASA conducted preliminary capsule recovery 
        tests at both the Navy's Carderock facility in Maryland and in 
        the ocean near Kennedy Space Center (KSC) in Florida. Using a 
        mockup of the Orion capsule, these Post-landing Orion Recover 
        Tests involved search and rescue teams simulating stabilization 
        and recovery of the Orion capsule in a variety of sea state 
        conditions. Results were intended to lead to design features 
        for both the spacecraft and recovery equipment, as well as 
        contributing to development of the final recovery procedures.

        <bullet>  Fabrication of the Orion Ground Test Article crew 
        module is progressing at the Michoud Assembly Facility in 
        Louisiana. Completion is estimated for the fall of 2010, 
        followed by completion of the service module and launch abort 
        system ground test article, currently scheduled for 2011. NASA 
        is using a friction stir welding technique on this ground test 
        article, and is hoping to demonstrate the longest continuous 
        friction stir weld ever attempted.

        <bullet>  NASA performed its first developmental flight test of 
        the Orion Launch Abort System (LAS) at the White Sands Missile 
        Range, New Mexico. The Pad Abort-1 test, successfully conducted 
        May 6, 2010, was the first integrated firing of all three 
        motors in a real flight environment. Orion's Launch Abort 
        System (LAS) includes three newly designed solid rocket motors: 
        1) abort motor, 2) jettison motor, and 3) attitude control 
        motor. Each motor contributes substantially to the state of the 
        art in solid rocket propulsion technology. All of these motors 
        have been successfully demonstrated in full-scale static 
        firings on the ground individually.

        <bullet>  Orion project successfully conducted a Software PDR.

        <bullet>  The Orion project successfully completed a formal 
        Integrated Baseline Review to assess the adequacy of the 
        integrated project baseline (cost, schedule, risk, and 
        technical) following the system PDR.

The following are some of the Ares I Project's key achievements.

        <bullet>  Having completed its PDR in 2008, the Ares I Project 
        is now working toward its CDR, which is scheduled for September 
        2011.

        <bullet>  In September 2009, NASA and ATK conducted the first 
        successful test of the Ares I's five-segment development motor 
        in Promontory, Utah. Beyond validating the basic performance 
        characteristics of the stage, the test has enhanced modeling 
        and understanding of key attributes that have historically been 
        very difficult to predict analytically such as erosive burning, 
        thrust oscillations and thrust tail off. The next static test, 
        DM-2, is currently scheduled for September 2010.

        <bullet>  In October 2009, the Ares I-X test flight took place 
        at Kennedy Space Center in Florida. Data from more than 700 on-
        board sensors showed that the vehicle was effectively 
        controlled and stable in flight. Thrust oscillation frequencies 
        and magnitude data from the Ares I-X flight also were 
        consistent with measurements from recent Shuttle flights that 
        were instrumented, leading us to conclude that the oscillation 
        vibration on the Ares I would be within the bounds that the 
        Ares I is currently being designed to. In the end, this test 
        flight provided tremendous insight into the aerodynamic, 
        acoustic, structural, vibration and thermal forces that Ares I 
        would be expected to experience.

        <bullet>  J-2X Test Hardware Status: Having passed its CDR in 
        2008, development and verification testing at the component and 
        subsystem level continues. Current planning includes a fully 
        assembled engine, minus the full nozzle extension, to be 
        available the end of calendar year 2010, followed by receipt of 
        an additional developmental engine in 2011. Static fire testing 
        for engines is currently slated to begin in the February-March 
        2011 time frame.

The following are some of the recent infrastructure achievements for 
the Constellation Program:

        <bullet>  The Operations and Checkout building at KSC was 
        completed in January 2009, marking activation of High Bay 
        Facility. When outfitted, the O&C will support final assembly 
        of the Orion spacecraft.

        <bullet>  The final 600-foot Lightning Protection Tower at 
        KSC's Pad B was completed in February 2009. This was where the 
        Ares I-X test flight launched from in October 2009.

        <bullet>  Workers at KSC topped out the tenth and final segment 
        of the new mobile launcher (ML) after it was lifted by crane 
        and lowered onto the ninth segment in January 2010. When 
        completed, the tower will be 345 feet tall and have multiple 
        platforms for personnel access. Its base was made lighter than 
        Space Shuttle mobile launcher platforms so the crawler-
        transporter can pick up the heavier load of the tower and a 
        taller rocket.

        <bullet>  A-3 Test Stand at Stennis Space Center in 
        Mississippi. Construction of the long duration altitude test 
        stand for the J-2X engine is nearly 75 percent complete. When 
        completed in 2013, the A-3 facility will provide a unique 
        critical capability to simulate environments at greater than 
        100,000 ft altitude necessary to demonstrate altitude starting 
        and perform full-duration hot-fire testing.

        <bullet>  Space Environmental Test Facility (SET) at Glenn 
        Research Center's Plum Brook Station in Ohio: Construction 
        started in 2007 and is about 75 percent complete. SET is 
        planned for conducting qualification testing of the fully 
        integrated Orion spacecraft, including vibration, acoustics, 
        and EMI testing.

        <bullet>  Fabrication of the Orion Crew Module mockup for 
        Neutral Buoyancy Laboratory testing and training events. These 
        events are targeted at both the in-space EVA aspects on the 
        outside of the vehicle as well as for internal cabin mobility 
        within a simulated space gravity environment.

        <bullet>  Fabrication of a partial gravity testing and training 
        facility (Advanced Reduced Gravity Off-Load System). This 
        facility allows for simulations of a non-Earth surface gravity 
        environment (lunar, Mars, etc) for both shirt-sleeve and 
        spacesuit testing and training.

    As of May 2010, NASA reported that it had spent a total of $10.3 
billion on Constellation.
    In addition, the Constellation Program has contributed a number of 
new technology developments and innovations. A partial list was 
provided by Mr. Douglas Cook, NASA Associate Administrator for the 
Exploration Systems Mission Directorate, at a March 24, 2010 hearing of 
the Space and Aeronautics Subcommittee on ``Proposed Changes to NASA's 
Exploration Programs: What's Known, What's Not, and What are the Issues 
for Congress?'':

        <bullet>  ``Automated rendezvous and docking is one that we are 
        working on the Orion. In the upper stage we are making further 
        progress on the technology offriction stir welding. We are 
        working on composite structures. We have made some advances in 
        lightning protection on space vehicles, advanced batteries. We 
        are using solar arrays on the spacecraft. We are making 
        advances in guidance, navigation, and control and other avionic 
        software that will be possible. We have actually . . . advanced 
        development work out at Ames . . . in . . . advanced thermal 
        protection systems for spacecraft. We are working on closed 
        life support, and we . . . are actually charting some new 
        territory in modeling of the environments and characteristics 
        of the spacecraft during launch and entry through new modeling 
        techniques and software.''

    The FY 2011 budget proposes to cancel Constellation and includes 
$1.9 billion in FY 2011 and $600 million in FY 2012 to fund:

        <bullet>  Termination and liability for existing contracts 
        (including severance pay);

        <bullet>  Closeout costs of content and property disposition;

        <bullet>  Costs to render safe facilities no longer in use, 
        mothballed, or targeted for demolition;

        <bullet>  Potential environmental remediation of agency direct 
        and support contractor facilities no longer in use; and

        <bullet>  Coverage for transitional civil servants as new 
        programs are being initiated.

    The April 15, 2010 speech by the president proposed restructuring 
the Orion crew capsule that was an element of the Constellation Program 
to focus on providing crew escape capability for the International 
Space Station by means of an ``Orion Lite''. A Fact Sheet issued by the 
Office of Science and Technology Policy described the rationale for the 
scaled-down Orion as ``providing stand-by emergency escape capabilities 
for astronauts on the Space Station. We will be able to launch this 
vehicle within the next few years, creating an American crew escape 
capability that will increase the safety of our crews on the Space 
Station, reduce our dependence on foreign providers, and simplify 
requirements for other commercial crew providers.'' According to the 
revised plan, this effort will also ``help establish a technological 
foundation for future exploration spacecraft needed for human missions 
beyond low Earth orbit.'' Last week, NASA officials informed Committee 
staff that NASA is in discussions with OMB and OSTP on several options 
for pursuing a crew rescue vehicle. Those options include 1) 
restructuring Orion to be developed as a crew rescue vehicle, and 2) 
initiating a competition that would be open to new concepts for a crew 
rescue vehicle. A decision to pursue the latter option would 
necessitate canceling the Orion contract and incurring contract 
termination costs, while also starting a new contract competition and 
development program.

Congressional Direction on Limitations on the Use of FY 2010 
        Appropriations
    In the Statement of Managers accompanying the FY 2010 Consolidated 
Appropriations Act, ``The conferees note that the Constellation program 
is the program for which funds have been authorized and appropriated 
over the last four years, and upon which the pending budget request is 
based. Accordingly, it is premature for the conferees to advocate or 
initiate significant changes to the current program absent a bona fide 
proposal from the Administration and subsequent assessment, 
consideration and enactment by Congress.'' The Statement of Managers 
also states that ``Funds are not provided herein to initiate any new 
program, project or activity, not otherwise contemplated within the 
budget request and approved by Congress, consistent with section 505 of 
this Act, unless otherwise approved by the Congress in a subsequent 
appropriations Act. Funds are also not provided herein to cancel, 
terminate or significantly modify contracts related to the spacecraft 
architecture of the current program, unless such changes or 
modifications have been considered in subsequent appropriations Acts.'' 
Similar language was included in the Act itself. According to NASA, the 
Constellation Program is currently proceeding per the enacted FY 2010 
appropriation.
    According to NASA, all work that is currently under contract for 
Constellation will continue. The Administrator has instructed the 
Constellation Program to refrain from initiating new work not currently 
under contract, and also to refrain from expanding the scope of any 
work that currently is under contract. As of March 11, 2010, NASA had 
canceled five planned procurements, including planned studies: the 
Exploration Ground Launch Services (EGLS) solicitation at the Kennedy 
Space Center (KSC); the Vehicle Assembly Building High Bay modification 
solicitation at KSC; the Water Basin construction solicitation at the 
Langley Research Center; the Altair Conceptual Design Contracts 
solicitation at the Johnson Space Center; and the Ares V heavy-lift 
design trades solicitation at the Marshall Space Flight Center.
    In testimony to the Committee on Science and Technology on February 
25, 2010, Administrator Bolden stated that: ``in . . . a letter that I 
sent recently to 27 members of the House who questioned what we were 
doing with the Constellation Program . . . I told them . . . we were in 
compliance with the direction of the 2010 Appropriations Act and that I 
have directed no cancellations or terminations and that we intended to 
comply with the law.''
    Members of Congress have continued to express concern over NASA's 
actions regarding the legislative direction in the FY 2010 
Appropriations for NASA. In a May 10, 2010 letter to the Director of 
the Office of Management and Budget, Senator Barbara Mikulski, chair of 
the Senate Commerce, Justice, Science and Related Agencies 
Appropriations Subcommittee that funds NASA wrote:

        <bullet>  ``I am advised that NASA has undertaken a series of 
        steps to direct industry to retain certain funds made available 
        in fiscal year 2010 to cover prospective termination costs so 
        as not to potentially violate the terms of the Antideficiency 
        Act (31 U.S.C. 1341). I am deeply troubled by this approach as 
        it effectively seeks to terminate Constellation activities in 
        apparent violation of the terms of the Omnibus provision.''

        <bullet>  In addition, Senator Mikulski wrote: ``I urge you, in 
        conjunction with the Vice President and the President's Chief 
        of Staff to immediately devise a path forward to avoid 
        cancelling contracts in fiscal year 2010 and to avoid invoking 
        termination liability set asides from existing contract dollars 
        and activities on the Constellation Program.''

        <bullet>  ``I further urgently request that you review NASA's 
        budgeting practices regarding termination liability to 
        articulate a clear and appropriate standard to deal fairly with 
        industry, provide a schedule to implement this standard and 
        identify the fiscal reserves required to effectively comply 
        with this standard.''

    Senator Richard Shelby, ranking member of the Commerce, Justice, 
Science and Related Agencies Appropriations Subcommittee, took the step 
of co-signing a provision to H.R. 4899, the Supplemental Appropriations 
Act, 2010:

        <bullet>  ``Provided further, That notwithstanding any other 
        provision of law or regulation, funds made available for 
        Constellation in fiscal year 2010 for `National Aeronautics and 
        Space Administration Exploration' and from previous 
        appropriations for `National Aeronautics and Space 
        Administration Exploration' shall be available to fund 
        continued performance of Constellation contracts, and 
        performance of such Constellation contracts may not be 
        terminated for convenience by the National Aeronautics and 
        Space Administration in fiscal year 2010.''

    At issue is the appearance that NASA's actions on Constellation 
contracts may not be following directions in law and the implications 
that those actions have for progress on the Constellation Program--the 
current program of record that has been authorized by Congress and for 
which Congress has appropriated FY 2010 funds for implementation.

Justification and Analytical Basis for Cancellation

        <bullet>  In a September 15, 2009 hearing on the results of the 
        Review of U.S. Human Space Flight Plans Committee, Chairman 
        Gordon asked of the Review's Chair, Mr. Norman Augustine, ``we 
        do have a program that has been authorized we have spent 
        billions of dollars on . . . . So are you prepared to say that 
        one or all of the other options are substantially better than 
        Constellation and worth having a major turn now?''

                  Mr. Augustine responded ``I think it would be our 
                view just what you said, that there should be a 
                compelling reason to change an existing program, and we 
                believe that the existing program, given adequate 
                funds, is executable and would carry out its 
                objectives.''

        <bullet>  In the Committee's February 25, 2010 hearing on 
        NASA's Fiscal Year 2011 Budget Request, Chairman Gordon noted: 
        ``the justification from moving from Constellation to a 
        different approach is expense, and so if we-if it is not going 
        to be less expensive, then there has to be a better explanation 
        [of] . . . why this move.''

        <bullet>  Since the FY 2011 budget release, additional details 
        on the justification for the proposal to cancel rather than 
        modify or restructure the Constellation program have not been 
        provided. In addition, the actual cost to terminate the program 
        is still not known.

        <bullet>  To understand the factual analysis that informed the 
        Augustine committee, Subcommittee on Space and Aeronautics 
        Chairwoman, Gabrielle Giffords sent a series of questions to 
        the Aerospace Corporation, which was tasked to support the 
        Augustine committee in its review. Regarding a full assessment 
        of Constellation cost and schedule, Aerospace stated 
        ``Aerospace did not perform a traditional parametric or grass-
        roots Independent Cost Estimate (ICE) for the Constellation 
        Program or its major elements . . . . Aerospace was tasked to 
        perform a high-level schedule assessment of Constellation.''

Issues Related to the Proposal to Include a Crew Rescue Vehicle
    In addition, in light of the change on April 15th that now includes 
a crew rescue vehicle (which could involve restructuring the Orion 
vehicle), the Congress will need to understand a number of issues 
including: what that vehicle will be, the acquisition approach that 
NASA will follow (restructuring the Orion contract or pursuing a new 
vehicle competition and development program), how NASA plans to address 
the cost and schedule for the rescue vehicle, the impacts of those 
costs on other NASA programs, and the plan and timeline for moving 
forward with a deep space crew exploration capsule.

Issues Related to Proposal to Include a Crew Rescue Vehicle

        <bullet>  What are the details of a crew rescue vehicle, 
        including how many crew it will accommodate and how will the 
        program be modified to meet the proposed timeline of ``the next 
        few years''?

        <bullet>  What, if any, supporting infrastructure is needed for 
        a crew rescue vehicle and what will it cost?

        <bullet>  What are the timeline and plans for deciding on and 
        developing a crew capsule to explore destinations beyond low-
        Earth orbit and what costs are assumed for that development?

        <bullet>  What are the implications of the decision on a crew 
        rescue vehicle on the civil servant and contractor workforce, 
        as well as on the space industrial base?

        <bullet>  If the addition of a NASA funded crew rescue vehicle 
        has reduced the capabilities that commercial crew systems will 
        have to provide, will the $6 billion commercial crew budget be 
        reduced accordingly? If not, why not?

    To date, NASA has not provided this information to Congress.

        <bullet>  In his prepared statement for the April 22, 2010 
        Senate Appropriations Subcommittee on Commerce, Justice, 
        Science, and Related Agencies, NASA Administrator Bolden said: 
        ``Accommodating this effort within NASA's budget will change 
        the amounts requested for the programs described below 
        [technology development and demonstration; heavy-lift and 
        propulsion research and development; robotic exploration 
        precursor]. An update to the NASA budget justification will be 
        provided as soon as possible, but in the next few weeks.''

        <bullet>  On May 12, 2010, Administrator Bolden testified at a 
        Senate Commerce, Science, and Transportation hearing that 
        ``NASA expects to submit a revised FY 2011 budget request to 
        Congress in the near future that will identify funding 
        requirements for the restructured Orion crew capsule.'' In 
        addition, Mr. Bolden stated during the hearing that the Orion 
        variant will launch on an Evolved Expendable Launch Vehicle 
        (EELV), however there are no details on what the EELV would 
        cost, whether design changes would be required, when the 
        vehicle could be available and how it would be funded within 
        the FY 2011 budget plan for NASA.

        <bullet>  Prior to the April 15, 2010 announcement about Orion, 
        Administrator Bolden was quoted in a March 30, 2010 article in 
        Aviation Week and Space Technology as expressing his interest 
        in a ``common crew capsule'' during a Senate Appropriations 
        Hearing held on March 23, 2010. ``For his part, Bolden says he 
        favors development of a `common crew module' that could fly on 
        several different commercial launch vehicles.'' According to 
        the article Mr. Bolden also stated: ``I would like to help the 
        commercial entities design a single crew module, because it's 
        good for us to train,'' he says. ``You don't have to train 
        crews for multiple crew modules, and that can be used 
        interchangeably on any launch vehicle.'' It is not clear 
        whether NASA has discussed this option with potential 
        commercial crew providers, whether they have any interest in 
        such an approach, and whether it is consistent with a 
        ``commercial'' approach to crew transfer.

3.  Is the Proposed ISS Extension Program Funded and Organized to 
Accommodate the Extension?


    The NASA Authorization Act of 2008 [P.L. 110-422] states that ``The 
Administrator shall take all necessary steps to ensure that the 
International Space Station remains a viable and productive facility 
capable of potential United States utilization through at least 2020.''
    The NASA FY 2011 budget request includes the proposal to extend use 
of the ISS beyond 2016, likely through 2020 or beyond, in order to 
utilize the orbiting facility as a basic research facility and a test 
bed for exploration technology development and demonstrations. NASA is 
requesting $2.78 billion in its proposed FY 2011 budget to support 
these efforts and to initiate activities to increase ISS functionality. 
Under the revised April 15th plan there are no changes to extension of 
the ISS, however the revised plan restructures Orion to ``provide 
stand-by emergency escape capabilities for the Space Station.'' There 
are several issues on the research and contingency plans to support 
enhanced utilization and an extension of the ISS that have yet to be 
defined.

Issues That Need to Be Addressed on ISS Extension

        <bullet>  The proposed FY 2011 budget plan does not make clear 
        how much of the increase will be used to support enhanced ISS 
        utilization. Although the budget proposes $50 million a year 
        for ISS research as part of the budget for ISS operations, 
        there are no details on what the budget would support. NASA has 
        indicated to Committee staff that the content of the ISS 
        research budget has not yet been defined.

        <bullet>  In addition, the budget request does not identify the 
        proposed budget for microgravity research as mandated in 
        Section 204 of the NASA Authorization Act of 2005 [P.L. 109-
        155]: ``Beginning with fiscal year 2006, the Administrator 
        shall allocate at least 15 percent of the funds budgeted for 
        ISS research to ground-based, free flyer, and ISS life and 
        microgravity science research that is not directly related to 
        supporting the human exploration program.'' Congress will need 
        to understand the extent to which the budget request will 
        support congressionally-mandated research and enhanced 
        utilization of the ISS.

        <bullet>  Multiple users and stakeholders are discussed with 
        respect to ISS utilization, including universities and basic 
        researchers, NASA mission programs, commercial and private 
        entities as well as other Federal agencies that are partners in 
        the ISS National Laboratory. In his prepared statement to the 
        Senate Committee on Commerce, Science, and Transportation in a 
        hearing on U.S. Human Spaceflight held on May 12, 2010, 
        Administrator Bolden stated that ``NASA will initiate an 
        independent organization, as recommended by the Augustine 
        Committee and the National Research Council that will support 
        the space station research community.'' Congress will need 
        further details to understand how the priorities for 
        utilization resources will be established among these users and 
        stakeholders, the roles and responsibilities of this proposed 
        independent organization and how it will be selected and 
        funded.

        <bullet>  The NASA Authorization Act of 2008 directed NASA to 
        develop a contingency plan for cargo transportation to and from 
        the ISS should the commercial cargo services be delayed, 
        unavailable for extended periods, or experience a failure. 
        NASA's ``Logistics Contingency Plan for the International Space 
        Station'' transmitted to the Committee in response to the 2008 
        Authorization direction does not provide a clear contingency 
        plan. The report stated that: ``Cargo vehicles require 2-3 
        years of lead time for production and processing, and 
        international partner vehicles have a production schedule based 
        on current predicted needs. There is no plan to have additional 
        vehicles in production to cover for delays in commercial cargo 
        services. However, actual cargo manifesting can be adjusted 
        closer to the planned flight dates. Therefore, the primary 
        contingency plan is to closely monitor on-orbit systems and 
        cargo demands and adjust as needed. This may include not having 
        to fly spares as soon as currently predicted, or reducing 
        utilization to meet an emerging need.''

    While the proposed FY 2011 budget plan includes an extension of the 
ISS to 2020, Congress continues to lack several details and plans that 
are needed to ensure that the infrastructure, plans, and resources 
would be in place to support the ISS extension and utilization.

4.  Should Congress Support the Proposal to Develop and then Rely on 
Commercial Cargo and Crew Capability as the Nation's Access to Low 
Earth Orbit?

    The proposed plan in the FY 2011 budget does not include a U.S. 
government capability to launch American astronauts and to deliver 
cargo to the ISS. NASA plans to rely on commercially provided cargo 
transportation services for ISS resupply starting in the 2011 timeframe 
using its Commercial Resupply Services (CRS) contract. NASA is 
currently funding two partners in the Commercial Orbital Transportation 
Services (COTS) Program to develop and demonstrate commercial cargo 
delivery capability to the ISS--Space Exploration Technologies 
Corporation and Orbital Sciences Corporation.
    When the Space Shuttle is retired, NASA anticipates that crew 
access to the ISS will be provided by acquiring seats on Russian Soyuz 
spacecraft until the 2016 timeframe.
    Under the president's proposal, the agency plans to cease using 
Soyuz spacecraft at that time and anticipates using commercially-
provided crew transport services instead. Funding in FY 2011 for ISS 
cargo/crew is about $857 million; a total of $5.77 billion is projected 
for the period of FY 2011 through FY 2015. The FY 2011 budget requests 
an additional $312 million--a 62% increase in the cost of the COTS 
program--to expedite ISS cargo development and to help ensure mission 
success. According to NASA's budget justification, ``The Commercial 
Crew Program will provide $6 billion over the next five years to 
support the development of commercial crew transportation providers to 
whom NASA could competitively award a crew transportation services 
contract . . .'' The revised April 15th plan makes no changes to the 
plan to rely on the use of commercial services to deliver cargo and 
crew to and from the ISS, although in adding a crew rescue vehicle, the 
revised April 15th plan eliminates the crew rescue requirement for 
potential commercial crew providers.

Does Congress Have the Analytical Basis to Support a Decision on 
        Commercial Crew?
    In her opening statement for the March 24, 2010 Subcommittee on 
Space and Aeronautics hearing on NASA's human spaceflight programs, 
Chairwoman Giffords summarized the status of a series of issues 
examined at a series of Committee and subcommittee hearings held:

``The clock is ticking. It is now almost two months since the 
Administration's FY 2011 budget request for NASA was submitted to 
Congress, and there are still too many unanswered questions surrounding 
it.''

``In place of good explanations and solid rationales for such sweeping 
and frankly puzzling changes, we have been given a combination of 
unpersuasive arguments and `we're working on the details' responses.

For instance, the commercial crew proposal is lacking all of the basic 
information that a would-be investor would demand before committing 
funds to a project. For example:

        <bullet>  What's the proposed cost to the government to develop 
        these systems?

        <bullet>  How much, if any, of the development cost will be 
        shared by the companies?

        <bullet>  How much will it cost NASA to buy these services?

        <bullet>  What else will NASA have to provide to make--and 
        keep--the companies' operations viable?

        <bullet>  When can we credibly expect these services to be 
        operationally available and will they meet our expectation of 
        what is safe enough?

        <bullet>  What recourse will NASA have if the companies fail to 
        meet safety standards, cost, schedule and performance?

        <bullet>  Finally, is there any significant non-NASA market for 
        these services; is it a viable one; and is it one we should use 
        scarce tax dollars to promote?''

    It is now two months after the March hearing, the Committee still 
lacks critical details and information about the plan.

        <bullet>  It is unclear what the government is buying for the 
        proposed $6 billion to foster the development of commercial 
        crew capability--a capsule, a launch vehicle, or both? The FY 
        2011 budget request states that ``Unlike the COTS program, 
        which exclusively funded entirely new and integrated systems 
        (launch vehicles plus capsules), this program will also be open 
        to a broad range of commercial proposals including, but not 
        limited to: human-rating existing launch vehicles, developing 
        spacecraft for delivering crew to the ISS that can be launched 
        on multiple launch vehicles, or developing new high-reliability 
        rocket systems.''

        <bullet>  NASA has provided no information as to whether the $6 
        billion requested is the government's total share needed to 
        complete the proposed commercial crew demonstrations or whether 
        additional government support would be required for developing 
        commercial crew capability. This information is purportedly to 
        be informed by responses to a Request for Information, which 
        was released on May 21, 2010.

                  However, this issue takes on greater significance in 
                light of comments reported in a recent issue of Space 
                News by the director of business development for United 
                Launch Alliance (ULA), one of the potential commercial 
                crew transport providers. The April 5, 2010 article 
                says that ``As NASA devises its strategy for fostering 
                development of a commercial successor to the space 
                shuttle, the Nation's primary rocket builder is 
                cautioning the agency not to count on industry for a 
                substantial upfront investment in an endeavor rife with 
                uncertainty.''

        <bullet>  In response to Chairwoman Giffords' request noted 
        earlier, the Aerospace Corporation stated that it was given the 
        cost to assume in its affordability analyses for developing 
        multiple commercial crew systems; it did not independently 
        develop that cost.

        <bullet>  Details on the basis for the budget estimate of $6 
        billion for developing commercial crew capability are still 
        needed.

                  The Augustine committee report estimated the DDT&E 
                cost to NASA would be $3 billion and would involve two 
                commercial competitors and a government-provided 
                rocket. The Aerospace Corporation's responses to 
                Chairwoman Giffords stated that: ``Aerospace did not 
                independently develop the basis for the $3B initial 
                estimate. The Committee did not ask Aerospace to 
                independently verb the $3 billion figure. In fact, no 
                verification could be performed given the Committee's 
                statement that this dollar amount was simply NASA's 
                portion of the total cost.'' The Aerospace responses 
                also noted that ``The Committee's final estimate of the 
                cost of the program to NASA was approximately $5 
                billion. It was assumed that additional private 
                investment funding would be required to complete the 
                DDT&E.''

                  NASA officials told Committee staff that NASA plans 
                to use the $6 billion to support developing commercial 
                crew capability in 3-4 companies.

                  The Aerospace Corporation's responses to Chairwoman 
                Giffords further indicate the approximate cost estimate 
                proposed by the Augustine committee is consistent with 
                the historical cost of developing a single crew 
                transportation system to carry 1-2 crew (Figure A.1). 
                However, Aerospace's analysis suggests that for a crew 
                of 4, development costs for a crew capsule and a launch 
                abort system could be substantially higher. When adding 
                a launch vehicle, the costs could increase even more. 
                Aerospace notes that ``Gemini is the closest historical 
                program to the commercial crew capsule. While we have 
                chosen to plot development cost vs. crew size, the 
                complexity of the system is a function of human-rating 
                requirements, destination and capability.''

                  Indeed, the data plotted in the Aerospace responses 
                give serious grounds for concern that the Augustine 
                committee's assumed cost estimate may understate the 
                actual costs of developing commercial crew by at least 
                a factor of two or more, especially when the additional 
                cost of providing a ``suitable version of an existing 
                booster,'' e.g., human-rating an EELV, is added--
                something that Aerospace has independently estimated 
                could cost up to an additional $11 billion, depending 
                on the capsule/launch abort system chosen, if ground 
                infrastructure costs are included. It goes without 
                saying that given NASA's constrained budget, the impact 
                of any such cost growth in the proposed commercial crew 
                program would have to be absorbed by NASA's other 
                programs.

                  Given the lack of independent analysis provided to 
                Congress to justify the $6 billion estimate and the 
                Aerospace Corporation's own analysis of potential 
                commercial crew development costs, the credibility of 
                NASA's proposal remains to be demonstrated.
                <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                

        <bullet>  In addition to the development cost, NASA has 
        provided no independently derived estimates of the potential 
        cost of procuring crew transportation services. According to 
        the Aerospace Corporation, ``The Committee provided the 
        commercial crew transportation assumptions that assumed a price 
        of $200M FY 09 per flight at a rate of 2 flights per year. 
        Using a historical cost growth factor for operational systems, 
        Aerospace increased the cost per flight to $250M FY09. The 
        Committee did not define the crew capacity of the commercial 
        crew vehicle. Based on the 2 Gemini-class crew module discussed 
        above . . . . the cost per seat would be on the order of $125M 
        FY09 but would vary with crew size.''

        <bullet>  The timeline for the availability of commercial crew 
        is also in question. The Aerospace Corporation did not 
        independently develop or verify the 2016 estimate for the 
        availability of the commercial crew capability. In fact, 
        Aerospace was told to assume a date of 2016 for when a 
        commercial capability would become available. Aerospace said 
        that ``The Committee provided the schedule estimate for the 
        commercial crew scenario as an input assumption, which was then 
        used for the subsequent affordability analyses.'' Aerospace 
        also said that it ``has not performed any analysis or 
        assessment of the length of time it would take to develop, 
        demonstrate, and contract for an operational commercial crew 
        transport service.''

        <bullet>  Information on when the government will need to 
        contract for crew services to meet an anticipated commercial 
        crew timeframe and the cost of crew services is needed to 
        evaluate the government's complete plan and cost for getting 
        American astronauts to the ISS on commercial vehicles.

                  Aerospace raised questions related to the 
                acquisition steps the government would need to follow 
                to develop and procure commercial crew transport 
                services--steps which Aerospace stated ``typically take 
                on the order of many months,'' but the Augustine 
                committee did not request any analysis of the impact of 
                those steps on the cost or schedule for commercial 
                crew--and there is no indication that the impact of 
                those steps was considered when the Administration's 
                plan was formulated. Indeed, Aerospace said in response 
                to one of Chairwoman Giffords' questions that ``This is 
                a critical question. While we raised these questions in 
                the development of our work for the Committee, we were 
                not tasked to develop this analysis. Subsequent to the 
                release of the Committee Report, we have met with the 
                NASA Administrator and key staff to discuss these 
                issues. To our knowledge, NASA is currently evaluating 
                these steps. Based on Aerospace's prior experiences on 
                a wide range of government acquisition activities, the 
                acquisition-related steps are numerous, and include 
                such steps as described in the Question 4 above. These 
                steps typically take on the order of many months.''

        <bullet>  Details on how development of a crew rescue vehicle 
        for the ISS would ``simplify requirements for other commercial 
        crew providers'' need to be understood in terms of, for 
        example, any changes in the potential cost and schedule 
        estimate for developing commercial crew capability. For 
        example, will the simplification involve a consequent reduction 
        in the $6 billion allocated for developing commercial crew 
        capability?

        <bullet>  Details on which sector--government or commercial--
        would fund the needed supporting infrastructure, including 
        mission control, have not been provided.

                  In addition, details about programs that would 
                support the commercial crew capability and a commercial 
                space market are also needed. For example, the proposed 
                FY 2011 budget also requests $428.6 million in FY 2011 
                and $1.9 billion over five years for a 21st Century 
                Space Launch Complex, in part to attract new customers, 
                including potential commercial crew companies, to the 
                Florida space range. NASA has not provided the 
                requirements for the proposed complex, a detailed plan 
                for the initiative, or a rationale for the funding 
                requested. In addition, the administration has not 
                provided a break-out of how the money would be spent. 
                The requirements for the proposed Complex will be 
                derived from a Request for Information that NASA plans 
                to issue in the near term, according to NASA officials 
                who briefed Committee staff on the status of planning 
                for the Complex. Although NASA officials indicate that 
                detailed planning for the proposed Complex would 
                involve interaction with the U.S. Air Force, which 
                operates the Cape Canaveral Air Station, the Air Force 
                is currently in the process of analyzing its launch 
                enterprise strategy for which it has requested $51 
                million in FY 2011 for launch modernization at Cape 
                Canaveral and Vandenberg--a funding level that is 
                almost an order-of-magnitude less than is being 
                proposed just for the Cape in NASA's FY 2011 budget 
                request. Without details on the requirements for the 
                Space Launch Complex, a detailed plan, a rationale for 
                the level of funds requested and further information on 
                how the money would be spent, it will be difficult for 
                Congress to evaluate the credibility or urgency of the 
                21st Century Space Launch Complex initiative.

    Another policy issue to be addressed in considering the proposal to 
turn U.S. astronaut transportation over to the private sector is the 
extent of the government's role in supporting and sustaining a 
``commercial'' market.
    In his opening statement at the Committee's February 25, 2010 
hearing on NASA's Fiscal Year Budget Request, Chairman Gordon posed the 
following questions:

        <bullet>  ``Do you have concrete evidence that you can provide 
        us that shows that there will be sufficient non-NASA commercial 
        crew transport markets to keep these companies viable, or is 
        NASA going to be on the hook to do whatever it takes to keep 
        them in business since NASA will have no other means of getting 
        into orbit?'' ``That is, will NASA's actions make these 
        companies ``too important to fail'' despite the lack of any 
        significant existing markets for their proposed services--with 
        all of the implications for the American taxpayer inherent in 
        that phrase?''

                  In response, Administrator Bolden stated: that 
                ``unfortunately, it is not--we at NASA have not done 
                any market surveys nor have . . . I offered to do that 
                or asked to do it, so I am depending upon surveys and 
                information that has come from the industry 
                themselves.''

    According to an unofficial transcript of a hearing that reviewed 
NASA's human spaceflight plans held by the Senate Committee on 
Commerce, Science, and Transportation on May 12, 2010, NASA 
Administrator Bolden stated:

        <bullet>  ``I have always said, I will do everything in my 
        power to facilitate the success of the commercial entities in 
        access to low-Earth orbit. I have to have that.'' He also said, 
        ``You know, I have to look at the possibility that the 
        commercial sector may have difficulty, and we will do 
        everything in my power to facilitate their success.''

        <bullet>  Captain Eugene Cernan testified at that same hearing 
        that Mr. Bolden discussed with him his concern about when 
        commercial crew capability might become available, had said 
        that NASA might have to subsidize them, and that ``it may be a 
        bailout like GM and Chrysler; as a matter of fact, it may be 
        the largest bailout in history,'' according to the unofficial 
        transcript of the hearing.

Does Congress Have the Facts and Analysis to Have Confidence in the 
        Safety of Proposed Commercial Crew Services?
    The Subcommittee on Space and Aeronautics examined several issues 
related to safety and human spaceflight in its December 2009 hearing, 
``Ensuring the Safety of Human Space Flight.'' The hearing made clear 
that establishing and enforcing safety standards for the transport of 
crew on commercially provided orbital crew transportation services is 
in many ways uncharted territory. A process has yet to be advanced by 
the government on how the ``airworthiness'' of commercial spaceflight 
vehicles used to transport government passengers will be ``certified.'' 
Several issues need to be addressed in order for Congress to have the 
data and analysis of how safety will be ensured in proposed commercial 
human spaceflight systems.
    In her opening statement at that hearing, Chairwoman Giffords said:

        <bullet>  ``As several of the witnesses at today's hearing will 
        testify, the Constellation program strove to respond to the 
        recommendations of the Columbia Accident Investigation Board in 
        the design of Ares and Orion.

        <bullet>  The result is a system that is calculated to be 
        significantly safer than the Space Shuttle, and 2 to 3 times 
        safer than the alternative approaches considered by NASA.

        <bullet>  Given that, I think the burden of proof has to be put 
        on those who would deviate from Constellation program to 
        demonstrate that their alternative crew transportation systems 
        will be at least as safe, if not safer than the Ares/Orion 
        system.''

    Addressing the latter issue that Chairwoman Giffords raised 
involves several questions and issues:

        <bullet>  What will be required to verify commercial providers' 
        compliance with future government-developed safety standards 
        for human spaceflight?

        <bullet>  Commercial companies are currently developing launch 
        systems that would potentially be used to carry crew. What are 
        the implications of implementing safety standards after a 
        vehicle has been designed and developed?

        <bullet>  What is needed to develop and implement new safety 
        processes, testing and verification procedures?

        <bullet>  What is involved in establishing a new regulatory 
        regime for certification?

        <bullet>  What training and familiarization with non-NASA 
        crewed spacecraft and launch vehicles would astronauts flying 
        on such non-NASA spacecraft and launch vehicles need in order 
        to deal with off-nominal conditions, contingency operations and 
        emergencies?

        <bullet>  What contingencies would be in place should 
        commercial crew providers experience delays, failures, or be 
        unavailable for an extended period of time?

        <bullet>  How will any differences in safety risk among 
        potential crew transportation systems be addressed, even if 
        those systems meet safety standards?

    Mr. John Marshall, a member of the Aerospace Safety Advisory Panel 
who testified at the hearing made a comment in his prepared statement: 
``there is no cookie-cutter approach to safety in space.'' Mr. Marshall 
articulated in his prepared statement several challenges that need to 
be addressed in ensuring the safety of NASA astronauts on commercial 
crew transportation providers to low-Earth orbit:

                  ``Establishing detailed safety requirements that 
                NASA deems essential to safe flight. These must be in a 
                clear and enforceable form that can be placed on 
                contract(s) and tested for compliance.

                   . . . establishing minimum acceptable safety levels 
                to guide system designs and set the baseline for both 
                NASA and their contractors as to what is `safe enough' 
                is critical.

                  Even with clear safety requirements and levels, much 
                of the inherent safety of complex systems like 
                spacecraft depends upon the design choices and 
                decisions where risks are weighed against performance, 
                costs, and of course, schedules. An open and effective 
                system has been developed within NASA to accomplish 
                this. A similar process needs to be institutionalized 
                by any commercial provider as well, whereby all 
                potential hazards are properly vetted by both 
                government and contractors. This will not be easy and 
                may require more than the `hands off' approach 
                envisions by some.

                  Establishing disciplined program and process-related 
                checks and balances so that NASA can verify that the 
                contractor has evidence of compliance with the launch 
                vehicle design requirements in the as-built vehicle and 
                successful completion of the activities necessary to 
                demonstrate mission readiness.''

    In discussions about safety, there have been repeated references to 
NASA's oversight of safety for any commercial crew system. Accordingly, 
in testimony to the Senate Committee on Commerce, Science, and 
Transportation's May 12, 2010 hearing on the future of U.S. human 
spaceflight, Dr. John Holdren, Director of the Office of Science and 
Technology Policy said, ``Safety will remain under the oversight of 
NASA. This gentleman on my left was in charge of safety for the 
Astronaut Corps when he was an astronaut. He knows how important that 
is. While Charlie Bolden is Administrator of NASA, there's going to be 
no shortfall in the oversight of the private sector in delivering 
astronauts to Earth orbit in terms of safety. I just wanted to make 
that one point because it has come up from time to time.'' What 
``oversight'' means in terms of NASA's role and the costs to accomplish 
the oversight have not been discussed and needs to be understood.

5.  Should Congress Support NASA's Advanced Technology Initiatives?

    According to NASA, the agency's Exploration Systems Mission 
Directorate (ESMD) will manage activities aimed at advancing 
technologies needed to expand human exploration opportunities, reduce 
mission costs, and contribute NASA innovation to broader national 
challenges and applications, will be funded in and managed by ESMD. 
ESMD's Exploration Technology and Demonstrations activities are 
proposed to be funded at $652.4 million in FY 2011; a total of $7.82 
billion is projected for the period of FY 2011 through FY 2015 to 
develop and carry out flagship technology projects.
    ESMD will also lead research and development (R&D) activities 
related to space launch propulsion technologies. The agency proposes in 
its budget justification that this propulsion R&D effort include 
development of a U.S. first-stage hydrocarbon engine for potential use 
in future heavy lift (and other) launch systems, as well as basic 
research in areas such as new propellants, advanced propulsion 
materials manufacturing techniques, combustion processes and engine 
health monitoring. The proposed FY 2011 funding level for heavy lift 
and propulsion technology is $559 million; a total of $3.1 billion is 
projected for the period of FY 2011 through FY 2015. The April 15th 
plan included a decision date for a heavy lift vehicle by 2015. The 
issues related to heavy lift are described in a later section of the 
charter.
    In addition, the FY 2011 budget request proposes a program of 
robotic precursor missions to send spacecraft to ``to candidate 
destinations for human exploration such as the Moon, Mars and its 
moons, Lagrange points, and nearby asteroids to scout targets for 
future human activities, and identify hazards and resources that will 
determine the future course of expanding human civilization into 
space.'' The FY 2011 budget plan proposes an investment of $125 million 
in FY 2011 and a total of about $3 billion for FY 2011- 2015 on the 
robotic precursor program. The revised April 15th plan makes no changes 
to the proposed robotic precursor mission program.

Issues Related to Advanced Technology Initiatives

        <bullet>  In his testimony to the Senate Commerce, Science and 
        Transportation Committee hearing on May 12, 2010, Administrator 
        Bolden provided a list of the initial technology development 
        projects that will be pursued as part of the advanced 
        technology programs as well as list of the dates by which those 
        projects will be completed. His prepared statement, however, 
        cautions that the initial plans may change: ``Please note these 
        are preliminary ESMD plans that may need to be modified 
        following finalization of Agency plans regarding the 
        restructuring of the Orion crew capsule.''

        <bullet>  A recently released pre-publication version of a 
        report by the National Academies, Capabilities for the Future. 
        An Assessment of NASA Laboratories for Basic Research stated 
        that ``The fundamental research community at NASA has been 
        severely impacted by the budget reductions that are responsible 
        for this decrease in laboratory capabilities, and as a result 
        NASA's ability to support even NASA's future goals is in 
        serious jeopardy.'' The study found that ``Over 80 percent of 
        NASA facilities are more than 40 years old and need significant 
        maintenance and upgrades to preserve safety and continuity of 
        operations for critical missions.'' The report further stated 
        that ``Deferred maintenance grew from $1.77 billion to $2.46 
        billion from 2004 to 2009, presenting a staggering repair and 
        maintenance bill for the future.'' In addition, ``The equipment 
        and facilities at NASA's fundamental research laboratories are 
        inferior to those . . . at comparable laboratories at DOE, at 
        top-tier universities, and at many corporate research 
        institutions.'' The president's budget request does not appear 
        to contain specific funds to deal with the facilities issues 
        raised in the National Academies report.

        <bullet>  In his prepared statement to the Subcommittee on 
        Space and Aeronautics' hearing held on March 24, 2010, Mr. A. 
        Thomas Young, Lockheed Martin (ret.), stated: ``The technology 
        program identified in the proposed budget lacks definition and 
        focus.''

    Congress needs the details on the basis and justification for the 
funding levels proposed for the technology programs, an understanding 
of the priorities for the programs and how they relate to the overall 
strategy and the implications of the need to fund a crew rescue vehicle 
on the technology initiatives. To date, this information has not been 
provided.

6.  Should Congress Support the Plan to Make a Decision on a Heavy-Lift 
Vehicle by 2015?

    The Constellation Program includes the Ares V cargo launch vehicle 
which, according to the FY 2010 budget request for NASA, ``is designed 
to provide the heavy-lift capability for the Constellation 
architecture. The vehicle consists of a 6-engine core stage, two five-
and-half segment solid rocket boosters, and an Earth departure stage 
(EDS) powered by a restartable J-2X engine. The EDS serves as the 
vehicle's second stage, and is key to injecting the lunar lander and 
EDS stack into the low Earth orbit staging for rendezvous and dock with 
Orion. After the EDS performs the trans-lunar injection burn for the 
lander and Orion, it will be jettisoned.''
    The proposed human spaceflight plan does not include development of 
a heavy-lift vehicle. Instead the plan focuses on research and 
development in heavy-lift capabilities that would inform a decision on 
a launch vehicle. This is a point of departure from the Augustine 
committee report--often referenced as a key input into the proposed new 
plan--which included the importance of a heavy-lift launch vehicle 
among its principal findings. Mr. Augustine noted in testimony to the 
Senate Committee on Science, Transportation, and Commerce on May 12, 
2010 that a key difference between the Augustine committee's Option 5B 
and the administration's plan is that: ``One is that our option went 
ahead with the development of the heavy-lift launch vehicle right away, 
rather than wait up to 5 years.''
    To demonstrate a concrete timetable and commitment for expanding 
human exploration further into space, the president announced in his 
April 15, 2010 remarks that, in addition to investing in heavy-lift 
technologies, NASA would ``finalize a rocket design no later than 2015 
and then begin to build it. That's at least two years earlier than 
previously planned . . . .'' The Office of Science and Technology Fact 
Sheet on the president's April 15th address stated that ``This new 
rocket would eventually lift future deep-space spacecraft to enable 
humans to expand our reach toward Mars and the rest of the Solar 
System. This new rocket would take advantage of the new technology 
investments proposed in the budget--primarily a $3.1 billion investment 
over five years on heavy-lift R&D.'' That Fact Sheet calls out 
``development of a U.S. first-stage hydrocarbon engine for potential 
use in future heavy lift (and other) launch systems.''
    While the date of 2015 has been proposed as a decision point on the 
heavy-lift vehicle, it is not clear what that decision point means.

        <bullet>  In his prepared statement for the May 12, 2010 Senate 
        Commerce, Science and Transportation hearing on U.S. human 
        spaceflight plans, Dr. John Holdren, director of the Office of 
        Science and Technology Policy, stated: ``The President also 
        directed in his speech that NASA be in a position to select a 
        heavy-lift rocket design by no later than 2015 for its future 
        mission beyond Earth's orbit.'' Dr. Holdren's statement went on 
        to say that ``It is currently anticipated that this decision 
        would set the general configuration of the vehicle, as well as 
        target performance levels and other attributes. A more detailed 
        and mature design for this vehicle likely would need to be 
        completed following this initial decision, as part of a 
        subsequent development effort.''

        <bullet>  In his prepared statement for the Senate hearing, Mr. 
        Bolden said, ``the President specifically recognized the need 
        for a heavy lift launch capability to carry humans beyond LEO 
        by requiring a decision a vehicle design no later than 2015. 
        Such a decision would include setting performance goals, 
        identifying lift capability and selecting the general vehicle 
        design--work that will ultimately lay the path for launching a 
        spacecraft for crewed missions into deep space.''

    By 2015, will NASA be in the position of building a vehicle, having 
completed most of the design and development process, or will NASA be 
in the position of just having defined which type of vehicle to design 
and develop? What is the return on the $3.1 billion investment that 
Congress is being asked to support? These potentially different 
decision milestones in 2015 will have significant implications for the 
timeline of developing a heavy-lift vehicle to support exploration 
beyond low-Earth orbit and to achieve the administration's goal of 
human travel to a near-Earth asteroid by 2025.

What Additional Information Does the Congress Need Regarding the 
        Proposed Heavy Lift Launch Vehicle?
    NASA's May 2010 Request for Information on ``Heavy Lift Launch 
System and Propulsion Technology'' requests that industry ``Provide 
information regarding your potential launch or space transportation 
architectures (expendable, reusable, or a hybrid system) that could 
meet multiple customer needs (e.g., NASA, DoD, and Commercial).'' The 
Request for Information raises a number of questions: What is NASA's 
strategy for developing heavy-lift capability? Will DOD co-fund the 
development? Will the system be designed to meet multiple agency 
requirements, and if so, what are the advantages and disadvantages to 
this approach? How does the involvement of other agencies and the 
commercial sector affect the timeline and process for moving forward on 
a heavy-lift architecture?
    In addition, according to NASA's planning timeline, NASA would fund 
development leading to a hydrocarbon engine demonstration that would 
occur in the 2015 timeframe; an operational hydrocarbon engine would be 
available in the early 2020s. NASA has not provided a rationale for 
completing an engine development program in parallel with developing a 
heavy-lift launch architecture that may or may not use that engine. 
Important questions remain regarding how an engine research and 
development program will proceed and when a heavy-lift vehicle would be 
available to support crewed missions beyond low-Earth orbit. NASA has 
explained that prior to sending a crewed mission to an asteroid in 
2025, several crewed precursor flights would be needed including 
cislunar and circumlunar missions. Without supporting details to 
establish when the required spacecraft, heavy lift vehicle and other 
required systems will be in place, the timeline for achieving a human 
mission to an asteroid must remain uncertain.
    Congress needs to understand:

        <bullet>  When will a heavy-lift vehicle need to be ready, 
        including an operational new engine if one is used, in order to 
        support initial circumlunar and cislunar missions in 
        preparation for a crewed mission to an asteroid in 2025? Is 
        NASA's plan viable?

        <bullet>  What are the estimated costs of developing a new 
        engine and how do they compare to the anticipated long-term 
        cost savings for that engine? How does it compare to the cost 
        of pursuing evolvable heavy lift capabilities using the 
        Constellation architecture approach?

        <bullet>  When will a crew exploration vehicle for travel 
        beyond low-Earth orbit need to be ready to support initial 
        circumlunar and cislunar missions proposed to take place prior 
        to 2025? When does a decision on that vehicle and subsequent 
        development need to take place to support that timeline? Is 
        NASA's plan viable?

        <bullet>  Will the success or failure of heavy lift research 
        and development and other advanced technologies, such as in-
        space refueling, dictate where and when human exploration 
        missions can be conducted?

        <bullet>  Will the heavy lift vehicle be a government or 
        commercially provided system?

7.  To What Extent Can the Plan that Congress is Being Asked to Support 
Be Executed Within the Proposed Budget?

    Among its principal conclusions the Augustine Committee found that:

        <bullet>  The current U.S. human spaceflight program is on an 
        ``unsustainable trajectory,''

        <bullet>  ``Human exploration beyond low-Earth orbit is not 
        viable under the FY 2010 budget guideline,'' and

        <bullet>  ``Meaningful human exploration is possible under a 
        less-constrained budget, increasing annual expenditures by 
        approximately $3 billion in real purchasing power above the FY 
        2010 guidance.''

    The goal of a sustainable human spaceflight program is stated as a 
recurring theme of the FY 2011 budget request: ``The Exploration 
Systems Mission Directorate (ESMD) will lead the Nation on a course of 
discovery and innovation that will provide the technologies, 
capabilities and infrastructure required for sustainable, affordable 
human presence in space.'' Following the president's remarks on 
revisions to his proposed human spaceflight strategy, Presidential 
Science Advisor, Dr. John Holdren characterized the president's new 
plan as ``more flexible, more practical, more productive, and more 
affordable, but also more visionary'' than the existing plan.
    According to Mr. Augustine, who spoke at the April 15th Kennedy 
Space Center event, the overall portfolio of the proposed plan is 
``very close to'' the Augustine committee's proposed option 5B. As 
described in the Augustine committee report, option 5B ``employs an 
EELV-heritage commercial heavy-lift launcher and assumes a different 
(and significantly reduced) role for NASA. It has an advantage of 
potentially lower operational costs, but requires significant 
restructuring of NASA . . . . The choice between NASA and EELV heritage 
is driven by potentially lower development and operations cost 
(favoring EELV-heritage systems) is driven by potentially lower 
development and operations cost (favoring the EELV-heritage systems) 
vs. continuity of NASA's system design, development and mission 
assurance knowledge and experience, which would provide higher 
probability of successful and predictable developments (favoring NASA 
systems). EEL V-heritage launch systems, due to their lower payload 
performance, would require significantly greater launch and mission 
complexity to achieve the same total mass in orbit. The EELV option 
would also entail substantial reductions in the NASA workforce and 
closure offacilities necessary to obtain the expected cost 
reductions.''
    It is worth noting that DOD is reported to be developing plans for 
replacing its existing EELVs due to escalating costs of the EELV 
program. Furthermore, in the near term, DOD has expressed concern about 
the impact producing a human-rated EELV might have on the Air Force. In 
a recent interview in Defense News, the Air Force's Deputy 
Undersecretary for Space Programs said:
    ``If some commercial company or companies want to use the EELV for 
human access to the space station, we'd have to look very closely at 
changes to the rockets' design in order to accommodate people. And any 
of those changes we'd have to manage very closely so that they don't 
ripple in to the Air Force design, which has been very successful with 
31 successes out of 31 attempts. My view is, if it works, don't fix 
it.''
    When it analyzed the integrated options described in its report, 
including option 5B, the Augustine committee used two budget scenarios: 
the FY 2010 budget request for human spaceflight, as directed within 
the Augustine committee's charter, and a ``less-constrained planning 
budget'' that increased ``from the FY 2010 budget number to a sum $3 
billion higher in 2014, and then rose at an expected inflation rate of 
2.4 percent thereafter''.
    Table 1, below, shows the year by year budget figures projected for 
the Augustine committee's less constrained scenario, the FY 2010 budget 
request, extended with inflation (as prepared by the Aerospace 
Corporation for the Augustine committee), and the FY 2011 budget 
request, also extended with inflation. The budget figures for the 
Augustine committee's less constrained scenario and the FY 2010 budget 
request include the Space Shuttle, ISS, total Exploration budgets, and 
Exploration infrastructure sustainment at KSC. The FY 2011 budget 
column includes the same elements, the 21st Century Launch Complex and 
half of the Space Technology Program (minus the Innovative Partnership 
Program budget), with the assumption that half of Space Technology 
investments will be devoted to Science. What becomes clear from Table 1 
is the growing gap between what the Augustine committee found was 
necessary for ``meaningful human exploration'' and what is requested 
within the FY 2010 and FY 2011 budgets for NASA's human spaceflight 
programs and exploration technology development as one looks at the 
outyear budget totals. While the overall FY 2011 NASA budget includes a 
$6 billion increase over five years above the FY 2010 budget, Table 1 
shows a significant gap between the Augustine committee's less 
constrained scenario and the FY 2010 and FY 2011 budget projections for 
human spaceflight/ technology programs. Under the administration's FY 
2011 budget request, the new strategy proposed for human spaceflight, 
while similar to the Augustine committee's Option 5B, would be funded 
at a level that falls almost $11 billion below the Augustine 
committee's projected resource need for that content within the first 
five years (from FY 2010-FY 2015) of implementation. That gap grows to 
$27 billion over ten years and by FY 2025, the FY 2011 budget guidance 
falls $47 billion short of what the Augustine committee determined 
would be necessary for a meaningful exploration program.
    As part of its conclusions, the Augustine committee found that 
there was no ``reasonable exploration program (e.g., with different 
heavy-lift vehicles, or a different exploration destination) [that] 
would fit within the FY 2010 budget guidance.'' In addition, in the 
chapter on ``Concluding Observations'' the Augustine committee states 
that ``Perhaps the greatest contributor to risk in the space program, 
both human and financial, is seeking to accomplish extraordinarily 
difficult tasks with resources inconsistent with the demands on those 
tasks.'' Mr. Augustine echoed this guidance in his testimony on May 12, 
2010 to the Senate Committee on Commerce, Science, and Transportation: 
``The most important request I would make to this Committee on behalf 
of my colleagues on the Human Space Flight Committee was that whatever 
program is approved, that its goals match the budget. Otherwise, I 
think we'll all be back here ten years from now having this same 
discussion.'' The comparisons shown in Table 1 do not provide grounds 
for confidence that the proposed FY 11 strategy is sustainable, 
affordable and matched to the resources requested for it.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


8.  What Will Be the Impacts to the Human Spaceflight Workforce and 
Industrial Base Under the Proposed Human Spaceflight Strategy?

    The retirement of the Space Shuttle and the proposed direction for 
NASA will have major implications for the U.S. aerospace workforce and 
space industrial base. In conceiving the Constellation Program, NASA 
integrated measures to facilitate the transition of the Space Shuttle 
workforce to Constellation; the industrial base was also considered. In 
implementing Constellation, NASA had established a bridge so that a 
number of Shuttle and Space Station employees could devote a portion of 
their time to developing experience and skills that are relevant to the 
Constellation Program and that will facilitate their eventual 
transition to Constellation.
    The proposed new direction for NASA's human spaceflight programs 
raises new issues and questions about the critical skills and knowledge 
of human spaceflight operations that will need to be sustained over 
time, the ability to attract new talent to the aerospace workforce and 
the potential state of the U.S. space industrial base. In particular, 
what are the critical workforce skills and industrial capabilities that 
need to be preserved as national assets, and what are the most 
effective ways to preserve those assets? What would any significant 
cutback or change in direction from the current Constellation Program 
mean for the aerospace workforce and space industrial base? These 
issues and questions were examined in a Committee on Science and 
Technology hearing on December 10, 2009 on Decisions on the Future 
Direction and Funding for NASA. What Will They Mean for the U.S. 
Aerospace Workforce and Industrial Base?
    As Subcommittee on Space and Aeronautics Chairwoman Giffords stated 
in her opening remarks:

        <bullet>  ``Make no mistake about it. The decisions we 
        collectively make about the future of our space program will 
        have a lasting impact on our workforce, our industrial base, 
        and our standing in the world.

        <bullet>  As a result, I want our witnesses to give us their 
        views on what we need to consider when making those decisions 
        so that the outcome will inspire our best and brightest to 
        pursue careers in aerospace-careers that will be vital to our 
        future competitiveness, national security, and quality of 
        life.''

    Witnesses at that hearing commented on the link between the NASA 
workforce and industrial base and national security, how long-term 
experience affects the success of human spaceflight and the need for 
continued, engaging participation in inspiring programs to maintain and 
pass on that experience to the next generation.
    Mr. A. Thomas Young, Lockheed Martin (ret.) stated:

        <bullet>  ``. . . spaceflight is not a typical technological 
        activity. Because of the special characteristics of spaceflight 
        . . . a workforce is required that has the culture and 
        capabilities aligned with these characteristics. A workforce 
        with the necessary intellectual strengths and possibly even 
        more important, the experience and longevity to establish the 
        sensitivity as to what is required for spaceflight success. 
        Today in government, universities and industry we have such a 
        workforce. It has evolved over decades of extraordinary 
        successes and tragic failures . . . . It is truly a national 
        treasure. Without a challenging and meaningful space program, 
        this national capability will atrophy.''

    Ms. Marion Blakey, President and Chief Executive Officer of the 
Aerospace Industries Association stated:

        <bullet>  ``NASA is linked to the health of our industrial base 
        . . . . we must also view these jobs as a national resource 
        critical to our nation's technological capability and our 
        national security. Aerospace talent lost to other industries 
        may be unrecoverable; new workers may take years to train. 
        Additionally, if we lose certain facilities that manufacture 
        high-tech technologies, it may take years and additional 
        resources to bring them back.''

        <bullet>  ``this decision [on human spaceflight], has a genuine 
        impact on our national security because you must remember that 
        some of these particularly smaller companies with unique 
        capabilities and technologies . . . in fact also support that 
        fragile national security supply chain.''

    Dr. Richard Aubrecht, Moog Inc. stated:

        <bullet>  ``The people that we had that did the Space Shuttle 
        and did the Apollo program, they are about to retire, and the 
        thing we are looking for the Constellation to be is the 
        transition to the next generation of people and to do the 
        mentoring . . . It goes from person to person. It is not in the 
        drawings.''

    Although the administration has proposed a number of steps to 
address workforce issues, the following section illustrates the 
immature status of some of those proposals and an overall lack of 
clarity to date on how the workforce initiatives will work in an 
integrated fashion.

How Many New Jobs Will the Proposed Human Spaceflight Plan Create?
    The president's revised plan for NASA ``leads to more than 2,500 
additional jobs in Florida's Kennedy Space Center area by 2012'' and 
``Jumpstarts a new commercial space transportation industry to provide 
safe and efficient crew and cargo transportation to the Space Station . 
. . projected to create over 10,000 jobs nationally,'' according to the 
OSTP Fact Sheet.
    In addition, ``the Administration is launching a $40 million, 
multi-agency initiative to help the Space Coast transform its economy 
and prepare its workers for the opportunities of tomorrow,'' according 
to an OSTP Fact Sheet on Florida's Space Workers and the New Approach 
to Human Spaceflight. Accordingly, in his remarks at the Kennedy Space 
Center on April 15th, the president proposed ``a $40 million 
initiative--led by a high-level team from the White House, NASA, and 
other agencies--to develop a plan for regional economic growth and job 
creation.'' He directed the plan to be delivered to him by August 15, 
2010. In his prepared statement for the May 12, 2010 Senate Commerce, 
Science and Transportation Committee hearing on NASA's human 
spaceflight plans, Mr. Bolden stated that ``The $40 million for this 
initiative will be taken from the funds requested for Constellation 
transition in the original FY 2011 Presidential budget request.''
    On May 3, 2010, The White House established a Task Force on Space 
Industry Workforce and Economic Development ``to develop, in 
collaboration with local stakeholders, an interagency action plan to 
facilitate economic development strategies and plans along the Space 
Coast and to provide training and other opportunities for affected 
aerospace workers so they are equipped to contribute to new 
developments in America's space program and related industries. The 
Secretary of Commerce and the Administrator of NASA shall serve as Co-
Chairs of the Task Force.'' The program ``shall be implemented 
consistent with applicable law and subject to the availability of 
appropriations.''
    As part of its functions, the Task Force is directed to ``provide 
leadership and coordination of Federal Government resources to 
facilitate workforce and economic development opportunities for 
aerospace communities and workers affected by new developments in 
America's space exploration program.'' In addition, the Task Force is 
directed to develop a plan that, among other things, ``recommends how 
best to invest $40 million in transition assistance funding to ensure 
robust workforce and economic development in those communities within 
Florida affected by transitions in America's space exploration 
program''. No similar initiatives or funds have been announced for 
other regions affected by the cancellation of Constellation.
    NASA has not provided details on the rationale for the estimated 
jobs to be created, the types of jobs that will be created, and the 
extent to which the new jobs at the Kennedy Space Center will help 
offset the workforce decline that will follow the Space Shuttle 
retirement. An April 13, 2010 New York Times article notes that a 
senior administration official pointed to a study conducted by the 
Tauri Group, a consulting firm, and financed by the Commercial 
Spaceflight Federation, as the source of the estimated 10,000 jobs to 
be created by the commercial space transportation industry. It is not 
clear whether NASA or the administration has independently verified 
this estimate as part of its projected level of jobs to be created 
through commercial crew and cargo programs.
    In addition, the proposed new strategy--specifically the 
cancellation of the Constellation Program--reportedly could have 
significant implications for the health of the solid rocket motor 
industrial base, which also supports ballistic missile programs. At a 
February 25, 2010 Committee on Science and Technology hearing on 
``NASA's Fiscal Year 2011 Budget Request and Issues,'' the Committee 
requested that the Administrator provide details on the extent to which 
NASA consulted the Department of Defense on the FY 2011 budget plan and 
the implications it will have on the industrial base and with whom in 
the Defense Department NASA consulted. NASA has not yet provided those 
details.

Questions and Information Needed to Inform Congress' Decision

        <bullet>  To what extent do the projected commercial-sector 
        jobs preserve the critical U.S. knowledge base of human 
        spaceflight operations?

        <bullet>  What types of jobs would the new positions involve 
        and at what skill levels? To what extent would those 
        commercial-sector jobs help mitigate the projected job losses 
        to be experienced by the retirement of the Space Shuttle and 
        the proposed cancellation of the Constellation program?

        <bullet>  What assumptions, if any, have been made about the 
        geographical locations of the projected new commercial-sector 
        jobs?

        <bullet>  Is the Space Industry and Workforce Economic 
        Development initiative expected to require funding beyond FY 
        2011, and if so how much?

        <bullet>  Which agency(ies) will be in charge of implementing 
        this plan?
    Chairman Gordon. This meeting will come to order, and good 
morning, everyone.
    As our first order of business, I want to remind everyone 
that given the importance of the subject of this hearing, it 
should come as no surprise that we have gotten some interest 
from members outside of this Committee, and it is the intent of 
us to try to accommodate them the best we can in terms of space 
and time. I also want to remind everyone that the non-Committee 
members will only be recognized after all the Committee members 
have an opportunity to be recognized, and if necessary, they 
may have to put their statements in the record. So without 
objection, Mr. Posey, Mr. Bishop and Dr. Griffith will be 
permitted to join us on the dais for this hearing.
    Now I would like to yield to Mr. Rohrabacher for a 
recognition.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    I would like to take this opportunity to point out in our 
audience today we have with us Apollo astronaut Rusty 
Schweickart, and Rusty flew in Apollo 9. Rusty, could you stand 
up and say hello to us? Thank you.
    Rusty flew in Apollo 9, testing critical procedures and 
systems which enabled the future success of Apollo programs. He 
is today chairman of the board of the B-612 Foundation, a 
nonprofit foundation that champions the development and testing 
of spacecraft concepts that are designed to protect the Earth 
from near-Earth objects and asteroid impacts. Thank you very 
much for being with us today.
    And Mr. Chairman, I have a statement by Mr. Schweickart 
that I would like to submit for the record.
    [Information follows prepared statement of Chairman 
Gordon.]
    Chairman Gordon. With no objection, so ordered.
    Mr. Rohrabacher. Thank you very much.
    Chairman Gordon. When the fiscal year 2011 NASA budget 
request was released almost four months ago, it contained major 
changes to the NASA program that had been authorized and funded 
by Congress over the past five years. Among those changes, the 
Administration's request proposed canceling the Constellation-
based exploration program on the grounds that it was 
unexecutable under foreseeable budgets. In contrast, the 
proposed new budget for NASA was described as a budget that 
puts NASA on a sustainable path for space exploration.
    Since that time, this Committee as well as other committees 
of the Congress, have been trying to get the information we 
need to make informed decisions about the Administration's plan 
as we prepare for authorization and appropriations actions. 
When we had Administrator Bolden before us in February, there 
was precious little information and analysis that NASA could 
provide us in support of that budget request. When Chairman 
Giffords had NASA testify in March on the proposed new plan for 
human spaceflight, the outcome was the same: more new questions 
than answers.
    Then on April 15, the president announced revisions to his 
NASA plan, adding a new crew rescue vehicle development 
program, a human mission to the near-Earth asteroid by 2025, 
and a decision by 2015 on the development of a new heavy lift 
launch vehicle, in essence, directing NASA to pursue a program 
very similar to one of the options proposed by the Augustine 
Committee.
    There are legitimate debates that members can have 
concerning the choices made in the President's plan about which 
destinations to pursue, the appropriate role of the commercial 
sector, and what type of technology program makes the most 
sense. Yet those debates ultimately won't matter unless the 
Administration's plan actually is doable under the 
Administration's proposed budget. It does no good to cancel a 
program that the Administration characterizes as unexecutable 
if the program is simply replaced with a new plan that can't be 
executed either.
    That is the issue before us today, and Administrator 
Bolden, to be blunt, the burden of proof is on your shoulders 
to make the case that you have an executable program. So what 
we need to hear from you, and let me cite three specific 
issues. As you know, one of the most significant findings of 
the Augustine Committee was, and I quote, ``Human exploration 
beyond low-Earth orbit is not viable under the FY 2010 budget 
guideline.''
    We have now taken a close look at your proposed human 
spaceflight plan and technology development budget plan, and 
this is what we have found. Your budget for human spaceflight 
and technology provides about the same amount of funding 
through fiscal year 2015 as the not viable fiscal year 2010 
budget guidance. Equally importantly, your budget guidance 
program through 2025, the date of your proposed first human 
mission to an asteroid, is $40 or 50 billion lower than the 
amount the Augustine panel determined would be needed to 
implement any of its exploration options.
    Second, in his April 15th speech, the President directed 
NASA to develop a new crew rescue vehicle for the ISS that 
would be flying within the next few years, but he didn't add 
any money to your budget to do it. And I understand that NASA's 
preliminary estimate indicates that it could cost $5 to $10 
billion to develop such a vehicle, and that the number doesn't 
include the annual cost to launch it and to operate the vehicle 
once it is operational. That is not to argue that we shouldn't 
be developing a spacecraft that can provide the basis for 
exploration beyond low-Earth orbit. One clearly will be needed. 
But it is another troubling indication that the plan that has 
been sent over to Congress has a great many loose ends and 
unexamined assumptions.
    Third, the fiscal year 2011 budget plan assumes that 
multiple commercial crew systems can be developed over the next 
five years for a total cost of $6 billion. However, analysis 
done by the Aerospace Corporation and even NASA's own estimate 
for the development cost of a simple crew rescue vehicle argue 
that the proposed commercial crew development budget is likely 
to be low by a factor of two or more.
    The burden of proof has to be on you and the White House to 
justify the cost estimate, and so far we have not seen any hard 
analysis from the Administration that would give us confidence 
that it can be done for the amount budgeted. Given your 
statement that you will do what is needed to make the 
commercial providers succeed, the consequences of such an 
underestimation could be devastating to the rest of NASA's 
programs.
    We all share the goals of inspiring and innovating and 
exploring. Let me be clear: I have no interest in having to 
have another Augustine Committee in five years. Your task today 
is to convince this Committee that this is truly well thought 
out, responsible budget with an executable plan.
    Before turning to Ranking Member Hall for his opening 
remarks, I want to note for the record that the Committee also 
invited OSTP Director Holdren to testify at this hearing, but 
Dr. Holdren was unavailable due to travel plans.
    In addition, I want to inform members that I plan to insert 
into the record for this hearing several items that were 
submitted to the Committee, including a statement by Dr. Buzz 
Aldrin, a letter from Dr. Russell Schweickart, a letter from 
the Planetary Society, a joint statement by several space 
organizations, and a letter from Governor Bill Richardson of 
New Mexico.
    [The prepared statement of Chairman Gordon follows:]

               Prepared Statement of Chairman Bart Gordon

    Good morning. When the Fiscal Year 2011 NASA budget request was 
released almost four months ago, it contained major changes to the NASA 
program that had been authorized and funded by Congress over the past 
five years. Among those changes, the Administration's request proposed 
canceling the Constellation-based exploration program on the grounds 
that it was ``unexecutable'' under foreseeable budgets.
    In contrast, the proposed new budget for NASA was described as a 
budget that puts NASA on a ``sustainable path'' for space exploration.
    Since that time, this Committee, as well as other Committees of the 
Congress, have been trying to get the information we need to make 
informed decisions about the Administration's plan as we prepare for 
authorization and appropriations actions. When we had Administrator 
Bolden before us in February, there was precious little information and 
analysis that NASA could provide us in support of the budget request, 
and what was provided raised more questions than it answered. When 
Chair Giffords had NASA testify in March on the proposed new plan for 
human space flight, the outcome was the same--more new questions than 
answers.
    Then on April 15th, the president announced revisions to his NASA 
plan, adding a new crew rescue vehicle development program, a human 
mission to a Near Earth asteroid by 2025, and a decision by 2015 on 
development of a new Heavy Lift launch vehicle--in essence, directing 
NASA to pursue a program very similar to one of the options proposed by 
the Augustine Committee.
    There are legitimate debates that Members can have concerning the 
choices made in the president's plan about which destinations to 
pursue, the appropriate role of the commercial sector, and what type of 
technology program makes the most sense. Yet those debates ultimately 
won't matter unless the Administration's plan actually is doable under 
the Administration's proposed budget--that it actually is 
``executable'' and truly puts NASA on a ``sustainable path''. It does 
no good to cancel a program that the Administration characterizes as 
``unexecutable'', if that program is simply replaced with a new plan 
that can't be executed either.
    That's the issue before us today, and Administrator Bolden, to be 
blunt, the burden of proof is on your shoulders to make the case that 
you have an executable program.
    So what do we need to hear from you? Let me cite three specific 
issues:
    As you know, one of the most significant findings of the Augustine 
Committee was that ``Human exploration beyond low Earth orbit is not 
viable under the FY 2010 budget guideline.''
    We've now taken a close look at your proposed human space flight 
and technology development budget plan, and this is what we've found:
    Your budget for human space flight and technology provides about 
the same amount of funding through FY 2015 as the ``not viable'' FY 
2010 budget guidance.
    Equally importantly, your budget guidance through 2025--the date of 
your proposed first human mission to an asteroid--is $40 to 50 billion 
lower than the amount the Augustine panel determined would be needed to 
implement any of its exploration options.
    Second, in his April 15th speech, the president directed NASA to 
develop a new crew rescue vehicle for the ISS that would ``be flying 
within the next few years''--but he didn't add any money to your budget 
to do it.
    I understand that NASA's preliminary estimates indicate that it 
could cost $5 to $7 billion to develop such a vehicle, and that number 
doesn't include the annual cost to launch it and rotate the vehicles 
once it is operational. That's a big unfunded mandate to absorb in your 
budget over the next five years--you'll need to take a billion to two 
billion dollars per year from elsewhere in your budget over the next 
five years to cover it.
    To put the budgetary impact of that into perspective, if you 
eliminated all of the FY 11 funding for the Exploration Technology 
Demonstration program, the Robotic Precursors program, and the KSC 21st 
Century Space Launch initiative, you will have only covered $1.2 
billion of the shortfall. If the annual shortfall over the next five 
years is closer to $2 billion, you would also need to eliminate the FY 
11 increases for Space Technology, Aeronautics, and Earth Science.
    That's not to argue that we shouldn't be developing a spacecraft 
that can provide the basis for exploration beyond low Earth orbit. One 
clearly will be needed. But it's another troubling indication that the 
plan that has been sent over to Congress has a great many loose ends 
and unexamined assumptions that call its credibility into question.
    Third, the FY 2011 budget plan assumes that multiple commercial 
crew systems can be developed over the next five years for a total cost 
of $6 billion. However, analyses done by the Aerospace Corporation and 
even NASA's own estimates for the development cost of a simple crew 
rescue vehicle argue that the proposed commercial crew development 
budget is likely to be low by a factor of two or more.
    The burden of proof has to be on you and the White House to justify 
that cost estimate, and so far we have not seen any hard analysis from 
the Administration that would give us confidence that it can be done 
for the amount budgeted. Given your statements that you will do what is 
needed to make the commercial providers succeed, the consequences of 
such an underestimate could be devastating to the rest of NASA's 
programs.
    We all share the goals of inspiring and innovating and exploring. 
Let me be clear. I have no interest in having to have another Augustine 
committee in five years. Your task today is to convince this Committee 
that this is truly a well-thought out, responsibly budgeted, executable 
plan.
    Before turning to Ranking Member Hall for his opening remarks, I 
want to note for the record that the Committee also invited OSTP 
Director Holdren to testify at this hearing, but Dr. Holdren was 
unavailable due to travel plans.
    In addition, I want to inform Members that I plan to insert into 
the record of this hearing several items that were submitted to the 
Committee, including:

        <bullet>  A statement by Dr. Buzz Aldrin;

        <bullet>  A letter from Dr. Russell Schweickart;

        <bullet>  A letter from the Planetary Society;

        <bullet>  A Joint Statement by several space organizations;

        <bullet>  And a letter from Governor Bill Richardson of NM.

    With that, I now recognize Ranking Member Hall for an opening 
statement.

    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Gordon. With that, I now recognize Ranking Member 
Hall for an opening statement.
    Mr. Hall. Thank you, Mr. Chairman, for holding this hearing 
on a very important topic of NASA's human spaceflight program, 
and I can't help but point out or reiterate that this room 
today holds in addition to Rusty that was just introduced and 
our first witness holds some of the really true heroes of all 
time and we are honored to have you here, and I hope my 
questions and my thrust is without acrimony but with great 
appreciation to each one of you.
    I also want to thank you for assembling such a great panel, 
Mr. Chairman. I certainly welcome Administrator Bolden and I 
hope he can answer some of the many questions we have about the 
President's proposal, and we had the opportunity to talk with 
him yesterday. His time has always been available, and I am 
very appreciative of that.
    I am also pleased to see two space heroes with us today, 
Neil Armstrong and Gene Cernan. These men are legendary 
astronauts and explorers who laid the whole foundation for our 
Nation's space exploration beyond low-Earth orbit, and I am 
honored that they have agreed to share their knowledge and 
their commitment and their passion with us today. I want to 
thank Tom Young for once again agreeing to testify before this 
Committee and sharing his knowledge and years of experience 
working with the government acquisition process.
    It has now been nearly four months since the Administration 
proposed radical changes to NASA's human spaceflight and 
exploration programs. From the very beginning, it was clear 
that NASA's proposal lacked the sufficient detail that Congress 
would need to determine whether it was a credible plan, yet in 
spite of our best efforts to obtain more information from NASA, 
this situation has not improved. Indeed, the President's trip 
to the Kennedy Space Center on April 15th only added to the 
confusion as he laid out more aspirational goals but provided 
no clear idea of how they fit together or how the experts 
expect to ever pay for all these new ventures.
    As such, I still have many basic concerns about our ability 
to access and use the International Space Station after the 
shuttle is retired. I remain concerned about the gap in the 
U.S. access to space, and I want to ensure that we can 
effectively use the enormous research capabilities of the 
International Space Station. In examining the President's plan, 
I still do not see a viable way to minimize the gap and provide 
for very exciting research on the International Space Station. 
The President's most recent decision to send an unmanned 
lifeboat to the space station at a potential cost of $5 billion 
to $7 billion does absolutely nothing to solve this problem and 
largely duplicates existing services provided by the Russians.
    Although we have already spent nearly $10 billion on the 
Constellation system and supported by Democrats and Republicans 
alike on this Committee and in this Congress that has achieved 
significant milestones and is well on its way to provided 
continued U.S. access to space, the Administration's continued 
decisions to cancel Constellation has further stalled 
development and jeopardizes our undisputed leadership in space.
    As I have said many times before, I am concerned with the 
proposed commercial crew direction of the Administration. While 
I have long supported the development of commercial cargo 
operations, I believe it is prudent that we first test cargo 
capabilities before risking the lives of our astronauts on 
newly developed systems. I have not seen credible data to 
suggest that there is a viable market for commercial crew 
carriers, and in the absence of that data, I fear that we might 
be setting ourselves up for failure if and when the markets do 
not materialize. Anyone can claim to be able to take over 
commercial crews, and I have read a good bit of the ideas of 
another space hero and a very dear friend of mine, Buzz Aldrin, 
who supports commercial crew, but I am still looking for 
concrete data that they can finish what they start and will not 
be coming back to the government for additional money if they 
take over.
    Finally, in examining options beyond low-Earth orbit, I am 
unclear when we might see the development of a heavy lift 
system or whether NASA still considers the moon as a logical 
destination. We have been told that a new ``game changing'' 
technology development program will provide capabilities for 
accessing the far reaches of space but we have very few 
specifics on mission goals and direction. I hope Administrator 
Bolden has some of the answers that have been lacking up to 
now.
    In the absence of a defensible, credible plan, I and many 
of our members continue to support the Constellation program as 
currently authorized and appropriated by successive Congresses. 
GAO will continue investigating whether NASA is improperly 
withholding funds and improperly applying the Antideficiency 
Act as a means of slowing Constellation work. I believe that 
Congress has been clear that it supports the unhindered 
continuation of Constellation until it authorizes an 
alternative program.
    Mr. Chairman, I look forward to working with you over the 
next several weeks as the Committee begins to reauthorize NASA, 
and we can no longer wait for NASA to provide justification for 
its radical changes. Time is absolutely running out.
    I want to wish you, Mr. Chairman, the very best and I want 
to thank you and express my gratitude to you for your undying 
efforts to preserve the right thing for us to do, and we all 
look forward to continuing. I look forward to today's 
testimony.
    I yield back my time, sir.
    [The prepared statement of Mr. Hall follows:]

           Prepared Statement of Representative Ralph M. Hall

    Mr. Chairman, thank you for holding this hearing today on the 
important topic of NASA's human space flight program.
    I also want to thank you for assembling such an extraordinary panel 
of witnesses today. I want to welcome NASA Administrator Bolden, and I 
hope that he can answer some of the many questions that we have about 
the President's proposal.
    I am also pleased to see two space heroes with us today, Neil 
Armstrong and Gene Cernan. Both men are legendary astronauts and 
explorers who laid the foundation for our nation's space exploration 
beyond low Earth orbit. I am honored that they have agreed to share 
their knowledge, their commitment, and their passion with us today. I 
also want to thank Tom Young for once again agreeing to testify before 
this committee and share his knowledge and years of experience working 
with the government acquisition process.
    It has now been nearly four months since the administration 
proposed radical changes to NASA's human space flight and exploration 
programs. From the very beginning it was clear that NASA's proposal 
lacked the sufficient detail that Congress would need to determine 
whether it was a credible plan. Yet, in spite of our best efforts to 
obtain more information from NASA this situation has not improved. 
Indeed, the President's trip to the Kennedy Space Center on April 15th 
only added to the confusion as he laid out more aspirational goals, but 
provided no clear idea of how they fit together or how he expects to 
pay for these new ventures.
    As such, I still have many basic concerns about our ability to 
access and use the International Space Station after the Shuttle is 
retired. I remain concerned about the ``gap'' in U.S. access to space, 
and I want to ensure that we can effectively use the enormous research 
capabilities of the International Space Station. In examining the 
President's plan, I still do not see a viable way to minimize the 
``gap'' and provide for exciting research on the ISS.
    The President's most recent decision to send an unmanned 
``lifeboat'' to the Space Station at a potential cost of $5-7 billion 
does nothing to solve this problem and largely duplicates existing 
services provided by the Russians. Although we have already spent 
nearly $10 billion on the Constellation system that has achieved 
significant milestones and is well on its way to providing continued 
U.S. access to space, the Administration's decision to cancel 
Constellation has further stalled development and jeopardized our 
undisputed leadership in space.
    As I have said many times before, I am concerned with the proposed 
commercial crew direction of this Administration. While I have long 
supported the development of commercial cargo operations, I believe 
that it is prudent that we first test cargo capabilities before risking 
the lives
    of our astronauts on newly developed systems. I also have not seen 
credible data to suggest that there is a viable market for commercial 
crew carriers, and in the absence of that data I fear that we might be 
setting ourselves up failure if, or when, the markets do not 
materialize. Anyone can claim to be able to take over commercial crew, 
and I have read the good ideas of another space hero, Buzz Aldrin who 
supports commercial crew, but I am still looking for concrete data that 
they can finish what they start, and will not be coming back to the 
government for additional money if they take over.
    Finally, in examining options beyond low Earth orbit, I am unclear 
when we might see the development of a heavy lift system, or whether 
NASA still considers the Moon as a logical destination. We have been 
told that a new ``game-changing'' technology development program will 
provide capabilities for accessing the far reaches of space, but we 
have very few specifics on mission, goals, and direction. I hope 
Administrator Bolden has some of the answers that have been lacking up 
to now.
    In the absence of a defensible, credible plan, I and many of our 
members continue to support the Constellation program as currently 
authorized and appropriated by successive Congresses. GAO will continue 
investigating whether NASA is improperly withholding funds, and 
improperly applying the Anti-Deficiency Act as a means of slowing 
Constellation work. I believe that Congress has been clear that it 
supports the unhindered continuation of Constellation until it 
authorizes an alternative program.
    Mr. Chairman I look forward to working with you over the next 
several weeks as the Committee begins to reauthorize NASA, and we can 
no longer wait for NASA to provide justifications for its radical 
changes. Time is running out.
    I look forward to today's testimony, and I yield back my time.

    Chairman Gordon. Thank you, Mr. Hall. You are a good 
partner.
    Our first witness is Mr. Charles F. Bolden, Jr., who is the 
Administrator of the National Aeronautics and Space 
Administration, and Gen. Bolden, you have served your country 
with distinction in and out of uniform. We are glad you could 
be with us today, and I know you can breathe a better sigh of 
relief that the shuttle landed safely this morning. 
Congratulations for that. And so you may proceed.

 STATEMENTS OF CHARLES F. BOLDEN, JR., ADMINISTRATOR, NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Bolden. Thank you, Mr. Chairman.
    Mr. Chairman and members of the Committee, I want to thank 
you all for the opportunity to appear here today to discuss 
additional information about the President's fiscal year 2011 
budget request for NASA. Following the President's important 
speech at the NASA Kennedy Space Center in Florida, I also want 
to comment about the outcome of that.
    NASA is grateful for the support and guidance received from 
this Committee through the years and looks forward to working 
with you to implement the President's bold new direction for 
our agency. Given that you have my detailed written statement, 
I will try to keep my remarks brief this morning so that I 
leave time for your questions.
    First, I would like to acknowledge the incredible 
contributions of my two astronaut colleagues on the next panel. 
Both Neil and Gene, the first and last humans to set foot on 
the moon, have dedicated their lives to the challenging and 
often-unforgiving pursuit of space exploration and in doing so 
have improved the quality of life in America and inspired the 
next generation of explorations. They continue to contribute by 
remaining engaged and providing their remarks on today's 
important topic of the future of human space exploration. I 
appreciate their thoughts, and we talk often. It was very 
beneficial to have had the opportunity to discuss their 
concerns and to present them with a thorough brief on our plans 
for America's future in human spaceflight several weeks ago.
    However, reasonable people can disagree and so I must 
respectfully disagree with some of their concerns and their 
opinions. The President's fiscal year 2011 budget request is 
good for NASA because it sets the agency on a sustainable path 
that is tightly linked to our Nation's interests. During his 
visit to the Kennedy Space Center, the President articulated a 
strong commitment to NASA's mission and the future of human 
spaceflight exploration. As we prepare to end the shuttle era, 
and we took an important step this morning when we successfully 
bought Atlantis home safely with her crew, we all should 
acknowledge its critical importance as a very productive step 
along America's path of becoming the preeminent space-faring 
Nation.
    As my predecessor, Mike Griffin, has written in a draft 
tribute to the space shuttle, and I quote, ``It was an enormous 
leap in human progress. The shuttle wasn't perfect, and we will 
make more such leaps as we are trying to do through our budget 
in 2011.'' That is my part, my insert. ``But none of them will 
be perfect either.'' The programs on which we will embark under 
the guidance provided by President Obama in our proposed fiscal 
2011 budget and his speech at the Kennedy Space Center of April 
15th of this year will be our new leaps in human progress and 
they won't be perfect, but we must all understand and be 
incredibly proud that we have an opportunity to create an 
option for our children and grandchildren to live in a new and 
richer era of exploration. If we can agree to accept the 
promise that comes with the President's fiscal year 2011 budget 
proposal, we will be creating the future that we all wanted to 
see in the eras now passed.
    The President has laid out the goals and strategies for 
this new vision which includes a sequence of deep-space 
destinations for human missions progressing step by step 
beginning with crewed flight tests early next decade of 
vehicles capable of supporting exploration beyond low-Earth 
orbit, a human mission to an asteroid by 2025 and a human 
mission to orbit Mars and return safely to Earth by the 2030s.
    With respect to the role of heavy lift in the future human 
spaceflight architecture, the fiscal 2011 budget request 
includes funds for NASA to conduct the important R&D and 
analysis necessary to make an informed decision on a heavy-lift 
vehicle no later than 2015. On May 3rd, we issued a request for 
information seeking general information regarding potential 
launch or space transportation architectures that will be used 
for planning and acquisition strategy development for the 
current heavy-lift planning activities. And on May 19th, we 
issued a draft broad agency announcement that will expand on 
the previous NASA technical assessments, address fiscal 2010 
planned activities and also contribute to our future plans.
    We have also made progress in developing a plan that 
supports the development of commercial crew transportation 
providers. On May 21st, we issued a request for information to 
seek industry feedback to help us plan the overall strategy for 
the development and demonstration of a commercial crew 
transportation capability and to receive comments on NASA's 
commercial human rating plan. The RFIs and BAAs are all 
preliminary planning activities for the President's fiscal year 
2011 proposal regarding future human spaceflight efforts, and 
we appreciate that the Government Accountability Office's 
opinion issued on this past Monday confirming that NASA had not 
violated the exploration appropriations restriction on the use 
of funding to create or initiate new program or project 
activity.
    Regarding our plans for a restructured Orion, the President 
directed that NASA build on the good work already completed on 
the Orion crew capsule and focus the efforts to provide a 
simpler and more efficient design, initially for crew emergency 
escape from the space station, evolving in future years to be 
the advanced spacecraft used in our deep-space missions. This 
approach will preserve a number of critical high-tech-industry 
jobs in key disciplines needed for our future deep-space 
exploration program. We have put together a formulation team 
including headquarters and center personnel to develop a 
baseline approach that meets these requirements balanced with 
the other priorities proposed in the President's fiscal 2011 
budget request. The team will report to me next week on how 
best to meet these requirements.
    And finally, on the subject of workforce transition 
initiatives, the President committed to providing $40 million 
to aid Florida's Space Coast. The men and women who work in the 
Space Coast aerospace industry are some of the most talented 
and highly trained in the Nation. It is critical that their 
skills are tapped as we transform our country and grow the 
country's space exploration efforts. On May 3rd, the President 
established a taskforce to develop in collaboration with local 
stakeholders an interagency action plan to facilitate economic 
development strategies along the Space Coast and to provide 
training and other opportunities for affected aerospace 
workers. The taskforce, which I co-chair with Secretary of 
Commerce Gary Locke, will also explore future workforce and 
economic development activities that could be undertaken for 
affected aerospace communities in other States as appropriate.
    NASA expects to submit a revised 2011 budget request to the 
Congress in the very near future that will identify funding 
requirements for the restructured Orion crew capsule as well as 
funding requirements for workforce transition.
    Mr. Chairman, in conclusion, Americans and people worldwide 
have turned to NASA for inspiration throughout our history. Our 
work gives people an opportunity to imagine what is barely 
possible, and we at NASA get to turn these dreams into real 
achievements for all humankind. This budget gives NASA a 
roadmap to even more historic achievements as it spurs 
innovation, employs Americans in fulfilling jobs and engages 
people around the world as we enter an exciting new era in 
space.
    Thank you very much for your continued support and that of 
this Committee. I look forward to responding to your questions.
    [The prepared statement of Mr. Bolden follows:]

               Prepared Statement of Charles Bolden, Jr.

    Chairman Gordon and Members of the Committee, thank you for the 
opportunity to appear today to discuss additional information about the 
President's FY 2011 budget request for NASA, following the President's 
important speech at the NASA Kennedy Space Center (KSC) in Florida. 
NASA is grateful for the support and guidance received from this 
Committee through the years and looks forward to working with you to 
implement the President's bold new direction for the Agency.
    The President's FY 2011 budget request is good for NASA because it 
sets the Agency on a sustainable path that is tightly linked to our 
Nation's interests. The President recognizes that what is truly needed 
for beyond low-Earth orbit (LEO) exploration are game-changing 
technologies; making the fundamental investments that will provide the 
foundation for the next half-century of American leadership in space 
exploration. In doing so, the President has put forward what I believe 
to be the most authentically visionary policy for human space 
exploration that we have had since President Kennedy challenged NASA to 
send humans to the Moon and return them safely back to Earth. At the 
same time, under the new plan, we will ensure continuous American 
presence in space on the International Space Station (ISS) throughout 
this entire decade and likely beyond, re-establish a robust and 
competitive American launch industry, launch more robotic probes into 
our solar system as precursors for human activity, invest in a new 
heavy lift research and development (R&D) program, and build a 
technological foundation for sustainable, beyond-LEO exploration, with 
more capable expeditions in lunar space, and human missions to near-
Earth asteroids, the Moon, Lagrange points, and, ultimately, Mars. NASA 
will embark on these transformative initiatives by partnering with the 
best in industry, academia and other government agencies, as well as 
with our international partners.
    At the request of the Committee, today I will provide additional 
details about pending revisions to the President's FY 2011 budget 
request for NASA. I will discuss NASA's progress in developing plans 
for the new exploration initiatives included in the FY 2011 budget 
request, including initial planned program assignments for major 
programs by Center. Additionally, my testimony will provide additional 
detail about three significant updates that were announced by the 
President when he visited KSC on April 15, 2010. NASA is working 
expeditiously to provide specific budgetary details to reflect these 
updates and we will share them with this Committee and other 
Congressional stakeholders as soon as we are able.

President Obama Visits KSC

    During his visit to KSC, the President articulated a strong 
commitment to NASA's mission and future U.S. human space exploration. 
The President also outlined an ambitious effort to foster the 
development of ground-breaking technologies; increase the number, 
scope, and pace of manned and unmanned space missions; make human 
spaceflight safer and more efficient; and help create thousands of new 
jobs. The President directed that NASA proceed to develop a crew rescue 
vehicle based on the Orion space-capsule to support emergency crew 
return requirements on the ISS, and providing a technological 
foundation for systems that can later take us beyond Earth's orbit. In 
addition to investing in transformative heavy-lift technologies, the 
President has called on NASA to select a basic rocket design, no later 
than 2015, and then begin to build it. The President also said that 
after decades of neglect, we will increase investment--right away--in 
other groundbreaking technologies that are designed to enable 
astronauts to reach space sooner and more often, to travel farther and 
faster for less cost, and to live and work in space for longer periods 
of time more safely. And, the President laid out the goals and 
strategies in this new vision for NASA. Fundamentally, the exploration 
of space will be a sequence of deep-space destinations for human 
missions matched to growing capabilities, progressing step-by-step, 
beginning with crewed flight tests--perhaps a circumlunar mission--
early next decade of vehicles capable of supporting exploration beyond 
LEO, a human mission to an asteroid by 2025, and a human mission to 
orbit Mars and return safely to Earth by the 2030s. Finally, the 
President committed to providing $40 million for workforce transition 
initiatives to aid Florida's Space Coast, and I have been appointed to 
co-Chair--along with Department of Commerce Secretary, Gary Locke--a 
task force to develop a strategy for assisting the workforce 
transition.
    NASA expects to submit a revised FY 2011 budget request to the 
Congress in the near future that will identify funding requirements for 
the restructured Orion crew capsule as well as funding requirements and 
authorization for workforce transition for Florida and potentially 
other locations.

Restructuring the Orion Crew Capsule

    Per the President's direction, we are going to build on the good 
work already completed on the Orion crew capsule and focus the effort 
to provide a simpler and more efficient design that would provide crew 
emergency escape from the ISS and serve as part of the technical 
foundation for advanced spacecraft to be used in future deep space 
missions. This approach also will preserve a number of critical high-
tech industry jobs in key disciplines needed for our future deep space 
exploration program.
    We have put together a formulation team including Headquarters and 
Center personnel to develop a baseline approach that meets these 
requirements, balanced with the other priorities proposed in the 
President's FY 2011 budget request. This team will report to me next 
week on how best to meet these requirements.
    I have directed the team to align this work so that it complements, 
and does not compete with, our commercial crew development effort. This 
should also reduce the pressure on the commercial crew service 
providers as the restructured Orion module serves to fulfill the 
important safety requirement of emergency escape for astronauts on the 
ISS. I have also directed the formulation team to focus on innovative 
approaches to oversight, and believe that we can significantly reduce 
oversight requirements based on lessons learned in previous focused 
development flight programs. We must accomplish this activity more 
efficiently and effectively to maintain a healthy funding balance 
across our exploration priorities. This will be done without reducing 
our commitment to safety for our NASA crews. The crew rescue mission 
has many fewer requirements than the deep space mission, providing 
design flexibility and reducing the system's lifecycle cost. Finally, 
the team must identify how this activity will align with the 
development efforts proposed in the Flagship Demonstration program as 
well as our other technology efforts so that investments in these 
programs can be leveraged to the greatest extent possible.
    The funding for this restructuring will come from within NASA's 
top-line request released in February. The out year funding 
requirements will be refined as part of the President's FY 2012 budget 
submission.

Heavy-Lift Technologies

    During his visit to KSC, the President specifically recognized the 
need for a heavy lift launch capability to carry humans beyond LEO by 
requiring a decision on a vehicle design no later than 2015. Such a 
decision would include setting performance goals, identifying lift 
capability and selecting the general vehicle design--work that will 
ultimately lay the path for launching a spacecraft for crewed missions 
into deep space.
    The FY 2011 budget request includes funds for NASA to conduct the 
important R&D and analysis necessary to make an informed decision on a 
heavy-lift vehicle no later than 2015. A primary focus of this effort 
will be to conduct research and development on a U.S. first-stage 
hydrocarbon engine for potential use in heavy lift and other launch 
systems, as well as basic research in areas such as new propellants, 
advanced propulsion materials manufacturing techniques, combustion 
processes, propellant storage and control, and engine health 
monitoring. Additionally, NASA will initiate development and testing of 
in-space engines. Areas of focus could include a liquid oxygen/methane 
engine and lower-cost liquid oxygen/liquid hydrogen engines. This work 
will build on NASA's recent R&D experience in this area, and the test 
articles will be viewed as a potential prototype for a subsequent 
operational engine that would be re-startable and capable of high 
acceleration and reliability. These technologies will increase our 
heavy-lift and other space propulsion capabilities and is intended to 
significantly lower costs--with the clear goal of taking us farther and 
faster into space consistent with safety and mission success criteria. 
In support of this initiative, NASA will explore cooperative efforts 
with the Department of Defense and also develop a competitive process 
for allocating a small portion of these funds to universities and other 
non-governmental organizations. This research effort along with many of 
our new technology initiatives will be coordinated with the broader 
Agency technology initiative led by NASA's new Chief Technologist.
    On May 3, 2010, NASA issued a Request for Information (RFI) seeking 
general information regarding potential launch or space transportation 
architectures (expendable, reusable, or a hybrid system) that could be 
utilized by multiple customers (e.g., NASA, commercial and other 
Government agencies). The RFI solicits information regarding propulsion 
system characteristics; technology challenges for propulsion systems; 
as well as innovative methods to manage a heavy-lift development 
program to include effective and affordable business practices. The RFI 
is open to the broad space community, including commercial, other 
Government agencies and academia. Information obtained from the RFI 
will be used for planning and acquisition-strategy development for 
current heavy-lift planning activities, funded in the FY 2010 
Consolidated Appropriations Act (P.L. 111-117). Related to the RFI, on 
May 19, 2010, NASA posted a draft Broad Area Announcement (BAA). This 
draft BAA is soliciting proposals for a Heavy Lift and Propulsion 
Technology Trade study and seeks industry input on technical solutions 
in support of heavy lift system concepts studies. This draft BAA 
requests offerors to expand upon the previous NASA technical 
assessments and a final BAA solicitation will incorporate information 
obtained via the RFI as well as inputs from the upcoming Exploration 
workshop. These concept studies will include architecture assessments 
of a variety of potential heavy lift launch vehicles and in-space 
vehicle architectures employing various propulsion combinations and how 
they can be deployed to meet multiple mission objectives. Please note, 
the BAA is addressing FY 2010 planned activities which may also 
contribute to future plans and activities.

Assistance for the Florida Space Coast

    The men and women who work in the Space Coast's aerospace industry 
are some of the most talented and highly trained in the nation. It is 
critical that their skills are tapped as we transform and grow the 
country's space exploration efforts. The 2004 decision to end the 
Shuttle means that approximately 6,000 jobs need to be transitioned 
into the new space strategy and related industries. Recognizing the 
concerns of our dedicated Shuttle workforce as they conclude this 
remarkable program and look forward to transitioning to new work, the 
President has announced a $40 million initiative to develop a plan for 
regional economic growth and job creation for the Florida Space Coast. 
On May 3, 2010, the President issued a Memorandum directing the 
establishment of the Task Force on Space Industry Workforce and 
Economic Development. The task force is charged with developing, in 
collaboration with local stakeholders, an interagency action plan to 
facilitate economic development strategies and plans along the Space 
Coast and to provide training and other opportunities for affected 
aerospace workers so they are equipped to contribute to new 
developments in America's space program and related industries. They 
will also explore future workforce and economic development activities 
that could be undertaken for affected aerospace communities in other 
States, as appropriate. The Secretary of Commerce and I will serve as 
Co-Chairs. Other team members will include: the Secretary of Defense; 
the Secretary of Labor; the Secretary of Housing and Urban Development; 
the Secretary of Transportation; the Secretary of Education, the Chair 
of the Council of Economic Advisors; the Director of the Office of 
Management and Budget; the Administrator of the Small Business 
Administration; the Director of National Intelligence; the Director of 
the Office of Science and Technology Policy; the Director of the 
National Economic Council; and the heads of other Executive agencies, 
as needed. As directed, the team will report its recommendations to the 
President by August 15. The $40 million for this initiative will be 
taken from the funds requested for Constellation transition in the 
original FY 2011 Presidential budget request.
    This interagency group's recommendations will build on the 
Administration's ongoing efforts in the KSC region. The Department of 
Labor is already planning a pilot program to better assist the region's 
workers, including those highly-skilled workers who work in the 
aerospace industry, through efforts to establish one-stop local 
transition centers for affected workers where they can receive 
coordinated local, state, and Federal workforce assistance tied to 
economic development efforts; and the designation of a single Federal 
point-of-contact for affected areas.
    To further facilitate these efforts, the Department of Commerce's 
Economic Development Administration (EDA) is prepared to support a 
comprehensive economic adjustment strategy for the Kennedy Space Center 
economic region. With funding provided through NASA, the EDA will 
provide both financial and technical assistance to start implementing 
those plans and promote economic development in the region through such 
activities as infrastructure upgrades and improvements, entrepreneurial 
networks, and skill-training facilities and equipment. The exact mix of 
activities will depend on the recommendations and request of local 
entities across the region.
    In addition, on April 30, 2010, the Department of Labor announced a 
$1.2 million grant to assist approximately 200 workers affected by 
layoffs at ATK Launch systems in Corinne, Utah, in connection with the 
transition of the Space Shuttle and Constellation programs.

NASA Prepares to Implement the FY 2011 Budget Request

    Pursuant to the President's proposed new course, NASA has initiated 
planning activities to be able to effectively and efficiently implement 
these new activities in a timely manner upon Congressional enactment of 
the FY 2011 budget. In April, NASA outlined for the Committee the 
Agency's planned major program assignments across the Agency's Centers 
for new or extended activities proposed as part of the President's FY 
2011 budget request. These planned assignments build on the deep 
knowledge and expertise that NASA has built up over five decades, 
recognize the wealth of experience, commitment, and expertise resident 
at the NASA Centers, and expand upon the strengths at each Center.
    I wish to emphasize that establishment of program offices and 
initiation of effort in support of new or extended activities for this 
proposed new work is contingent upon Congressional approval of the 
President's FY 2011 request for these activities. These planned program 
assignments will enable NASA to engage workforce at the Agency's 
Centers in formulation activities for the array of program initiatives 
in Science, Aeronautics, Space Technology, Exploration, and Space 
Operations reflected in the President's FY 2011 request. While we will 
be developing details on the specific numbers of employees at our 
Centers that will be assigned to new program offices and activities, 
these planned assignments are intended to provide the Committee 
additional detail regarding the depth and scope of the President's FY 
2011 proposed budget plan.
    Planned major program assignments for elements contained in the FY 
2011 budget, by Center, follow:

        <bullet>  Johnson Space Center, Texas

                  Exploration/Flagship Technology Demonstrations, 
                Manager

                  Exploration/Commercial Crew Development, Deputy 
                Program Manager

                  Exploration/Commercial Cargo Development, Manager

                  Exploration/Human Research, Manager

                  ISS, Manager

        <bullet>  Kennedy Space Center, Florida

                  Exploration/Commercial Crew Development, Manager

                  Space Operations/21st Century Launch Complex, 
                Manager

                  Exploration/Flagship Technology Demonstrations, 
                Deputy Program Manager

                  Space Shuttle/Completion of Manifest, Manager

        <bullet>  Marshall Space Flight Center, Alabama

                  Exploration/Heavy Lift and Propulsion R&D, Manager

                  Exploration/Robotic Precursor Program, Manager

                  Space Technology/Crosscutting Capability 
                Demonstrations/Technology Demonstration Missions, 
                Manager

                  Space Technology/Centennial Challenges Program, 
                Manager

        <bullet>  Stennis Space Center, Mississippi

                  Exploration/Heavy Lift and Propulsion R&D, First 
                Stage and Upper Stage Rocket Testing

                  Exploration/Commercial Crew Development, Engine 
                Testing for Commercial Vehicles

        <bullet>  Glenn Research Center, Ohio

                  Exploration/Exploration Technology Development and 
                Demonstration, Manager

                  Space Technology/Early Stage Innovation/Research 
                Grants

                  Aeronautics Research/Integrated Systems Research 
                Program and Aviation Safety Program, support

        <bullet>  Langley Research Center, Virginia

                  Space Technology/Game Changing Technology/Game 
                Changing Development, Manager

                  Climate Initiative: SAGE III; CLARREO (managed 
                jointly with Goddard); Venture Class

                  Aeronautics Research/Integrated Systems Research 
                Program and Aviation Safety Program, support

        <bullet>  Dryden Flight Research Center, California

                  Space Technology/Crosscutting Capability 
                Demonstrations/Flight Opportunities, Manager

                  Aeronautics Research/Integrated Systems Research 
                Program and Aviation Safety Program, support

        <bullet>  Ames Research Center, California

                  Exploration/Precursor Robotic Missions/Exploration 
                Scouts, Manager

                  Space Technology/Game Changing Technology/Small 
                Satellite Subsystem Technologies, Manager

                  Space Technology/Crosscutting Capability 
                Demonstrations/Edison Small Satellite Demonstrations, 
                Manager

                  Aeronautics Research/Integrated Systems Research 
                Program and Aviation Safety Program, support

        <bullet>  Goddard Space Flight Center, Maryland

                  Joint Polar Satellite System (restructuring NPOESS), 
                procurement structure modeled after past successful 
                programs

                  Climate Initiative: ICESat-2; CLARREO (managed 
                jointly with Langley); DESDynI (managed jointly with 
                Jet Propulsion Laboratory); Earth Systematic Missions 
                Program.

        <bullet>  Jet Propulsion Laboratory, California

                  Climate Initiative: SMAP; DESDynI (managed jointly 
                with Goddard); GRACE, OCO-2.

    Following the release of the FY 2011 budget request, NASA 
established study teams within the Exploration Systems Mission 
Directorate (ESMD) to ensure we understand the steps (and the 
implications of those steps) that would need to be taken for an orderly 
transition of the Constellation Program and to plan for the 
implementation of the new initiatives in the Exploration program. The 
work undertaken by these teams is a necessary part of that planning. 
Following is a brief summary of the additional details developed for 
each initiative, as ``point of departure'' plans to support FY 201 1 
budget implementation, once the budget is approved. Please note these 
are preliminary ESMD plans that may need to be modified following 
finalization of Agency plans regarding the restructuring of the Orion 
crew capsule.

        <bullet>  Flagship Technology Demonstrations: The next 
        generation of capabilities key to sustainably exploring deep 
        space will be demonstrated through four proposed missions: 
        advanced space propulsion in 2014, in-space propellant and fuel 
        transfer in 2015, light weight/inflatable modules in 2016, and 
        aero-assist in 2017. Autonomous operations and advanced life 
        support capabilities will also be tested on these missions. 
        Detailed definition of each mission's content is currently 
        under way.

        <bullet>  Heavy Lift and Propulsion Technology: Planned 
        technology investments will lead to a demonstration of an in-
        space engine in 2015, development of a First Stage propulsion 
        system by 2020, and maturing other foundational propulsion 
        technologies to support a heavy lift vehicle decision in the 
        2015 timeframe. NASA's efforts will be primarily focused on a 
        LOX/RP first stage and either a LOX/methane or LOX/hydrogen in-
        space engine. Additional research will be dedicated to analysis 
        and trades regarding fuel types, performance requirements, and 
        vehicle architectures.

        <bullet>  Exploration Robotic Precursors: A series of annual 
        exploration robotic precursor missions is being planned, 
        beginning with launch of a Near-Earth-Orbit (NEO) mission in 
        2014, followed by a lunar lander in 2015, and two Mars missions 
        in 2016 and 2018, respectively. In addition, smaller robotic 
        scout missions will be launched every 12-18 months to support 
        reconnaissance, evaluate hazards, and develop systems and 
        operations in support of future human exploration.

        <bullet>  Enabling Technology Development and Demonstration: 
        Enabling technology will advance fundamental technologies in 10 
        portfolio areas that will lead to ground and flight 
        demonstrations in lunar volatiles, high power electric 
        propulsion, autonomous precision landing, human exploration 
        tele-robotics, fission power systems, and other areas. The 
        flight demonstrations will be done as part of flagship 
        demonstrations, robotic precursor missions, or utilizing the 
        ISS, ground tests and analogs.

        <bullet>  Human Research: Through research and technology 
        development, the goal of the Human Research Program is to 
        reduce the highest risks to crew health and performance for 
        space exploration missions. Increased investments will be made 
        in the fields of biomedical technology, space radiation 
        research, and behavioral health research. There are also plans 
        to make increased use of the ISS facilities.

        <bullet>  Commercial Crew: NASA is continuing to define plans 
        to expedite and improve the robustness of ISS crew and cargo 
        delivery. In addition, NASA is developing a plan that supports 
        the development of commercial crew transportation providers to 
        whom NASA could competitively award crew transportation 
        services. Solicitations for Commercial Crew Transportation 
        (CCT) development will provide opportunities for both 
        established and traditional aerospace companies as well as 
        emerging entrepreneurial companies. Related to this activity, 
        on May 21, NASA released a Request for Information to seek 
        industry feedback to help the Agency plan the overall strategy 
        for the development and demonstration of a CCT capability and 
        to receive comments on the Commercial Human-Rating Plan that 
        has been drafted as part of this initiative.

        <bullet>  Constellation Transition: The team is leveraging 
        expertise from across the Agency to develop a rapid and cost 
        effective ramp-down plan that will free the resources required 
        for new programs. As part of the early characterization and 
        integrated planning effort, this team has initiated a broad 
        survey of current workforce, contracts, facilities, property, 
        security, knowledge capture, information technology, and other 
        government agency interface issues to determine what 
        infrastructure and hardware could be used by the new programs 
        and projects. The transition plan will outline three phases as 
        part of an action plan for initial deliverables: Near-term 
        actions, transitioning of Constellation elements, and 
        transition of assets/resources to new Exploration focus areas 
        and other NASA programs, where appropriate.

    NASA is taking prudent steps to plan for the new initiatives 
included in the FY 2011 budget request, including Requests for 
Information (RFI), workshops, and preliminary studies. NASA is eager to 
receive external input from industry, academia, and other partners, and 
is accomplishing this via a series of RFIs and industry workshops 
conducted this spring and into the summer. Doing so will ensure that 
NASA receives important feedback from our space partners before it 
begins to finalize its implementation plans for the new technology 
demonstrations and human spaceflight systems development activities 
that will be supported by the FY 2011 budget, once approved by 
Congress. During CY 2010, NASA plans to issue a series of program 
formulation documents seeking input from the broader space community. 
The following are tentative timeframes for these activities:

        <bullet>  Flagship Technology Demonstrations: RFI issued May 
        17, 2010.

        <bullet>  Heavy Lift and Propulsion Technology: RFI issued May 
        3, 2010; Broad Agency Announcement (BAA) posted on May 19.

        <bullet>  Exploration Robotic Precursor Missions: RFI issued 
        May 21, 2010.

        <bullet>  Enabling Technology Development: RFI issued May 7, 
        2010; BAA in June/July.

        <bullet>  Human Research Program: BAA in July.

        <bullet>  Commercial Crew Transportation: RFI issued May 21, 
        2010.

    The first major public discussions about NASA's FY 2011 planned 
activities are occurring at a two-day Exploration Enterprise Workshop, 
which started yesterday and will conclude today in Galveston, Texas. 
The workshop is bringing together a broad community of stakeholders 
from industry, academia, and the Federal Government to engage in 
discussions related to strategy building, development, and the 
implementation of the new plans for human and robotic exploration in 
space.
    The workshop is focusing on the President's FY 11 budget request 
for NASA Exploration. The Agency has completed the initial phase of 
planning for the new technology and robotic programs and is providing 
insight into progress to date. The objectives of the workshop are to:

        <bullet>  Describe and discuss the activities planned for 
        inclusion in the new programs

        <bullet>  Discuss NASA Center proposed Program assignments

        <bullet>  Solicit feedback, ideas and suggestions from 
        interested parties

        <bullet>  Prepare for the next steps once the new programs are 
        implemented

    In addition, NASA has also established study teams to plan for the 
implementation of the new initiatives related to the ISS Augmentation, 
21st Century Space Complex and Space Technology. Additional information 
on these planning efforts as well as planned RFIs, workshops, and 
preliminary studies are outlined below.

        <bullet>  ISS Augmentation: The ISS program is reviewing 
        functionality enhancements that will make the space station 
        more capable and efficient, including: upgraded environmental 
        systems and communications, techniques for saving space and 
        improving the use of pressurized volume, tools for optimizing 
        flight- and ground-crew time, upgrading and expanding payload 
        operations, enhancing EVA and robotics use on Station, and 
        reducing the complexity of international interfaces.

                  NASA will initiate an independent organization, as 
                recommended by the Augustine Committee and the National 
                Research Council that will support the space station 
                research community.

        <bullet>  21st Century Space Launch Complex: NASA has developed 
        a list of potential project ideas with preliminary estimates to 
        be used as one potential source of solutions to customer needs 
        as they are identified. These initial focus areas will be 
        adjusted as customer needs are better understood: 1) Expanding 
        capabilities to support commercial launch providers; 2) 
        Environmental remediation; 3) Enhancing payload processing 
        capabilities; and, 4) Supporting the modernization of the 
        launch range capabilities.

                  In late May, NASA will release an RFI to get a 
                first-hand understanding of investments that would be 
                most useful in support of launch and related activities 
                in order to help the Agency prioritize near-term 
                projects.

        <bullet>  Space Technology: NASA's Space Technology initiative 
        under the Office of the Chief Technologist (OCT) will develop 
        and demonstrate advanced space systems concepts and 
        technologies enabling new approaches to enhance NASA's current 
        mission set and enable future missions. Planning teams continue 
        to make significant progress: an internal technology governance 
        plan has been approved; an Agency-level technology road mapping 
        activity is planned to begin in July; and, approved technology 
        program plans for Early Stage Innovation, Game Changing 
        Technology, and Crosscutting Capability Demonstrations will be 
        completed by the end of June.

                  NASA will issue a Crosscutting Capability 
                Demonstrations RFI in June 2010. Game Changing 
                Technology Industry Day will occur in late June 2010. 
                Early Stage Innovation NASA Research Announcements 
                (NRA's) are targeted for late June 2010. An RFI 
                soliciting potential topics for the proposed Space 
                Technology Graduate Fellowship program has been 
                released to the NASA Centers and Federal Research 
                Laboratories.

    Finally, NASA has established the Human Exploration Framework Team 
(HEFT) to serve as a crossAgency planning activity. The team is being 
led by the Exploration Systems Mission Directorate and staffed with 
technical leaders from across NASA Centers. The team is focused on 
developing and reviewing the integrated set of requirements and 
technologies required for future human spaceflight missions to many 
destinations, including Mars. As part of its broad integration charter, 
HEFT will develop implementation recommendations on the performance and 
pacing requirements for the technologies needed for future human 
exploration missions using ``design reference missions,'' or DRMs. 
These DRMs will be the basis for validating capabilities and missions 
for 5-, 10-, and 15-year horizons, with milestones including crewed 
missions beyond the Moon into deep space by 2025, sending astronauts to 
an asteroid, and eventually landing on Mars. NASA expects to have 
initial products from the HEFT team this summer.

Extension and Enhanced Use of the International Space Station

    A key element of America's future in space is the ISS that is due 
to be completed this year. As of May 2009, the ISS is able to support a 
six-person permanent crew. The three major science labs aboard ISS were 
completed in 2009 with the delivery of the Exposed Facility of the 
Japanese Kibo module. And last week, Space Shuttle Atlantis delivered 
science experiments and a new Russian laboratory to the ISS, continuing 
the transition from assembly to continuous scientific research through 
the end of the decade. The Russian-built Mini Research Module-1, also 
known as Rassvet (dawn in Russian), will host a variety of 
biotechnology, biological science, fluid physics and educational 
research experiments. Rassvet was attached to the bottom port of the 
ISS's Zarya module on May 18.
    The ISS represents a unique research capability which the United 
States and its partner nations can use to conduct a wide variety of 
research in biology, chemistry, physics and engineering fields that 
will help us better understand how to keep astronauts healthy and 
productive on long-duration space missions. If Congress approves the FY 
2011 budget request, NASA will be able to fully utilize the ISS and 
increase its capabilities through upgrades to both ground support and 
onboard systems. Importantly, this budget extends operations of the 
ISS, likely to 2020 or beyond.
    ISS research is anticipated to have terrestrial applications in 
areas such as biotechnology, bioengineering, medicine and therapeutic 
treatment. The FY 2011 budget request for ISS reflects increased 
funding to support the ISS as a National Laboratory in which this 
latter type of research can be conducted. NASA has two MOUs with other 
U.S. government agencies, and five agreements with non-government 
organizations to conduct research aboard the ISS. NASA intends to 
continue to expand the community of National Laboratory users of the 
ISS.
    ISS can also play a key role in the technology demonstrations and 
engineering research associated with exploration. Propellant storage 
and transfer, life support systems, and inflatable technology can all 
benefit by using the unique research capabilities of ISS. In addition 
to supporting a variety of research and development efforts, the ISS 
will serve as an incubator for the growth of the low-Earth orbit space 
economy.
    As a tool for expanding knowledge of the world around us; advancing 
technology; serving as an impetus for the development of the commercial 
space sector; demonstrating the feasibility of a complex, long-term, 
international effort; providing critical data regarding human long 
duration spaceflight; and, perhaps most importantly, inspiring the next 
generation to pursue careers in science, technology, engineering, and 
mathematics, the ISS is without equal.

Conclusion

    Americans and people worldwide have turned to NASA for inspiration 
throughout our history--our work gives people an opportunity to imagine 
what is barely possible, and we at NASA get to turn those dreams into 
real achievements for all humankind. This budget gives NASA a roadmap 
to even more historic achievements as it spurs innovation, employs 
Americans in fulfilling jobs, and engages people around the world as we 
enter an exciting new era in space. NASA looks forward to working with 
the Committee on implementation of the FY 2011 budget request.
    Chairman Gordon, thank you for your support and that of this 
Committee. I would be pleased to respond to any questions you or the 
other Members of the Committee may have.

                   Biography for Charles Bolden, Jr.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Nominated by President Barack Obama and confirmed by the U.S. 
Senate, retired Marine Corps Maj. Gen. Charles Frank Bolden, Jr., began 
his duties as the twelfth Administrator of the National Aeronautics and 
Space Administration on July 17, 2009. As Administrator, he leads the 
NASA team and manages its resources to advance the agency's missions 
and goals.
    Bolden's confirmation marks the beginning of his second stint with 
the nation's space agency. His 34-year career with the Marine Corps 
included 14 years as a member of NASA's Astronaut Office. After joining 
the office in 1980, he traveled to orbit four times aboard the space 
shuttle between 1986 and 1994, commanding two of the missions. His 
flights included deployment of the Hubble Space Telescope and the first 
joint U.S.-Russian shuttle mission, which featured a cosmonaut as a 
member of his crew. Prior to Bolden's nomination for the NASA 
Administrator's job, he was employed as the Chief Executive Officer of 
JACKandPANTHER LLC, a small business enterprise providing leadership, 
military and aerospace consulting, and motivational speaking.
    A resident of Houston, Bolden was born Aug. 19, 1946, in Columbia, 
S.C. He graduated from C. A. Johnson High School in 1964 and received 
an appointment to the U.S. Naval Academy. Bolden earned a bachelor of 
science degree in electrical science in 1968 and was commissioned as a 
second lieutenant in the Marine Corps. After completing flight training 
in 1970, he became a naval aviator. Bolden flew more than 100 combat 
missions in North and South Vietnam, Laos, and Cambodia, while 
stationed in Namphong, Thailand, from 1972-1973.
    After returning to the U.S., Bolden served in a variety of 
positions in the Marine Corps in California and earned a master of 
science degree in systems management from the University of Southern 
California in 1977. Following graduation, he was assigned to the Naval 
Test Pilot School at Patuxent River, Md., and completed his training in 
1979. While working at the Naval Air Test Center's Systems Engineering 
and Strike Aircraft Test Directorates, he tested a variety of ground 
attack aircraft until his selection as an astronaut candidate in 1980.
    Bolden's NASA astronaut career included technical assignments as 
the Astronaut Office Safety Officer; Technical Assistant to the 
director of Flight Crew Operations; Special Assistant to the Director 
of the Johnson Space Center; Chief of the Safety Division at Johnson 
(overseeing safety efforts for the return to flight after the 1986 
Challenger accident); lead astronaut for vehicle test and checkout at 
the Kennedy Space Center; and Assistant Deputy Administrator at NASA 
Headquarters. After his final space shuttle flight in 1994, he left the 
agency to return to active duty the operating forces in the Marine 
Corps as the Deputy Commandant of Midshipmen at the U.S. Naval Academy.
    Bolden was assigned as the Deputy Commanding General of the 1st 
Marine Expeditionary Force in the Pacific in 1997. During the first 
half of 1998, he served as Commanding General of the 1st Marine 
Expeditionary Force Forward in support of Operation Desert Thunder in 
Kuwait. Bolden was promoted to his final rank of major general in July 
1998 and named Deputy Commander of U.S. Forces in Japan. He later 
served as the Commanding General of the 3rd Marine Aircraft Wing at 
Marine Corps Air Station Miramar in San Diego, Calif., from 2000 until 
2002, before retiring from the Marine Corps in 2003. Bolden's many 
military decorations include the Defense Superior Service Medal and the 
Distinguished Flying Cross. He was inducted into the U.S. Astronaut 
Hall of Fame in May 2006.
    Bolden is married to the former Alexis (Jackie) Walker of Columbia, 
S.C. The couple has two children: Anthony Che, a lieutenant colonel in 
the Marine Corps who is married to the former Penelope McDougal of 
Sydney, Australia, and Kelly Michelle, a medical doctor now serving a 
fellowship in plastic surgery.

    Chairman Gordon. Thank you, Administrator Bolden.
    If there are members who wish to submit additional opening 
statements, your statement will be added to the record at this 
time.
    [The prepared statement of Ms. Giffords follows:]

        Prepared Statement of Representative Gabrielle Giffords

    Today's hearing is one of the most important that this Committee 
will hold this year. We will be deliberating on the future of America's 
human spaceflight program, and in essence we will be deliberating about 
the future of this great country. The stakes are that high.
    As Chair of the Space and Aeronautics Subcommittee, I have been 
working since last year to hold hearings and to conduct oversight to 
illuminate the issues that need to be considered if we are to craft a 
human exploration program that can be successful and worth undertaking.
    There were a number of themes that recurred throughout all of those 
hearings and oversight activities: the need for budgets that are 
adequate for the tasks to be undertaken--you can't do meaningful 
exploration ``on the cheap''; the need to sustain a commitment and not 
keep constantly changing direction or goals; the need to keep safety 
paramount and not assume that it will be maintained without diligent 
effort and hard work; and the need to examine the broader national and 
international context when contemplating any changes to programs.
    I had hoped that the Administration's FY 2011 budget request would 
reflect those themes. Unfortunately, it does not. Not only does the 
Administration's plan not provide a budget plan that would help redress 
the balance between what NASA is asked to do and what it has been 
provided to date, but it has all the hallmarks of an ill-conceived 
mishmash of buzzwords about innovation and inspiration, assumptions 
based on hope rather than data, and an apparent desire to discard all 
of the work carried out by the previous Administration.
    We are now seeing the consequences of that approach. Nearly four 
months after the initial rollout of the budget and after an addendum by 
the president on April 15th, Congress still is unable to get answers to 
basic questions about the proposed plan. Even something as basic as 
asking how the Administration intends to pay for the crew rescue 
vehicle development program that was added to NASA's budget without any 
additional funding is beyond their capacity to answer.
    In that case, I think the reason for their unwillingness to answer 
is clear: the needed funding will have to come out of the ``technology 
and innovation'' initiatives that they touted as hallmarks of their new 
approach. In short, those new investments that were to compensate 
Centers for the loss of their work on Constellation are illusory and 
always were. I will not dwell on the other contradictions and 
shortcomings of the plan in these brief remarks--I believe that the 
distinguished witnesses we have here today will be able to articulate 
them quite clearly on their own.
    What I do want to emphasize is that we are now at the point where 
the lack of a credible plan from the Administration means that Congress 
is going to have consider alternative options that will provide a 
productive path forward for our human space flight program. We may not 
be able to correct for all the past underfunding in a single 
authorization or appropriation bill, nor can we negate the past actions 
that will lead us to a ``gap'' in crewed access to space after the 
Shuttle is retired. Yet we can make a start, and at a minimum, we can 
start by heeding the wisdom contained in the classic dictum: ``first do 
no harm''. I believe that we would do irreparable harm to our nation's 
human space flight program if we were to adopt the Administration's 
proposals. I intend to work to ensure that we take a better path.

    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good Morning. Thank you, Mr. Chairman, for holding today's hearing 
to receive testimony on the National Aeronautics and Space 
Administration (NASA) human spaceflight plan proposed in the 
President's Fiscal Year 2011 budget.
    The President's budget is a general departure from the NASA 
Authorization Act of 2008 passed by Congress and signed into law. It 
proposes major changes to NASA's human spaceflight program, including a 
shift to commercial crew vehicles, a termination of the Constellation 
Program, and the elimination of the moon as the next destination for 
NASA's astronauts. In the past three months, these plans and goals 
rapidly have changed and developed, but I am concerned there has been 
limited communication between Congress and the administration to 
address concerns with the budget and ensure these changes will maintain 
our leadership in human spaceflight for generations to come.
    First, the end of Constellation will result in the loss of tens of 
thousands of jobs at NASA and the companies with whom NASA has 
contracted out work. With the budget's strong investment in commercial 
human spaceflight over government-operated programs, there is a chance 
these jobs could disappear all together. However, according to NASA, 
commercial crew vehicles will create tens of thousands of jobs and 
through new, commercial contracts many of these workers will return to 
their jobs. I would like to hear from our witnesses what impact they 
believe a shift to commercial crew vehicles will have on the aerospace 
workforce.
    Second, on April 15, 2010, the President announced several changes 
to his initial FY 11 budget, including identifying destinations for 
human spaceflight by 2025 and reinstating NASA's investment in the 
design and possible construction of a Heavy Lift Launch Vehicle. 
However, no additional funding was provided for NASA to achieve these 
new goals. In fact, the proposed budget and the outyear projections 
fall short of the Augustine Commission's recommended budget increases 
to achieve meaningful developments in human spaceflight. I am 
interested in hearing how the President's new goals and the underlying 
FY 11 human spaceflight plans may fall within the proposed $19 billion 
budget. If the plans will require additional funding or offsets, what 
steps will NASA take to ensure it stays on schedule and within the 
budget for these new plans.
    Third, the President's budget makes major investments in research 
and development within NASA. I strongly support these efforts to 
develop cutting-edge technology and expand NASA's discoveries beyond 
space to address everyday national challenges. However, a recent report 
from the National Research Council found that NASA's laboratories and 
flight centers were inadequate and could fail to perform the research 
tasks presented by the FY 11 budget. I would like to hear from 
Administrator Bolden what plans are in place or proposed to address 
these inadequacies and ensure NASA can carry out its research mission.
    Finally, Congress and the administration must have an open dialogue 
to hear determine all aspects of NASA's proposed budget. Without these 
clear lines of communication, we cannot make an informed decision about 
the direction NASA should take with the future of human spaceflight.
    Thank you again, Mr. Chairman.

    Chairman Gordon. We will now start our questions, and the 
Chair yields to himself for the first question.
    Administrator Bolden, you have heard the concerns I raised 
in my opening statement, a budget that falls below what the 
Augustine Committee said would be needed for a viable program, 
the addition of an unfunded crew rescue vehicle program that 
will put additional stress on the budget, and the lack of 
someone would call credible cost estimates from the commercial 
crew initiative that could wind up adding even more stress. Any 
one of these would be a warning flag, but we have three here, 
and so make me feel better that this budget will accomplish the 
mission that you have set forth.

                       Feasibility of New Budget

    Mr. Bolden. Mr. Chairman, very simply, what this budget 
does, is it provides funding for research and development, 
rejuvenation of those activities, whether it is on college and 
university campuses or whether in industry itself. It also 
provides us with a way to increase the amount that we 
contribute to technology development that will be absolutely 
necessary if we are going to go beyond low-Earth orbit. What 
makes this budget different and what makes our program, our 
evolving different from the past is that we are going to take 
incremental steps to leave low-Earth orbit. It is absolutely 
necessary that I facilitate the success of commercial entities 
to continue to get me to low-Earth orbit because I need the 
International Space Station over the coming ten years and 
hopefully beyond because that plays an important role in the 
development of the technologies that will be required to get us 
beyond low-Earth orbit. Very simply, the steps are 
International Space Station, moon and asteroids and eventually 
to Mars in the 2030s.
    In terms of technology development, new engine technology, 
new structures technology, composites that give us lighter-
weight vehicles that require less stress to leave the gravity 
well of Earth that will take us to eventually a heavy-lift 
launch vehicle by the 2020s, in-space propulsion development 
that will get us beyond low-Earth orbit. And then finally, the 
Crew Rescue Vehicle development that the President has 
authorized me to do that will lead to the development of a 
deep-space exploration crew module. Crew Rescue Vehicle, while 
maybe not the ideal thing that we would all like, it gives me a 
phase-zero vehicle that I can use as the technological 
foundation for building the crew module that I need to get 
humans beyond low-Earth orbit.
    Chairman Gordon. Are you satisfied that the budget you have 
presented us will fund the crew rescue vehicle including all 
the other things that you have done and that--so you are 
satisfied where you are now?
    Mr. Bolden. Mr. Chairman, I am satisfied in one respect. I 
am cognizant of the difficulty of the fiscal environment in 
which we all live, and as you and I have said, as a responsible 
steward of the taxpayers' funds, I understand that I will have 
to find offsets that will enable us to speed up the development 
of a heavy-lift launch vehicle.

                     Funding a Crew Rescue Vehicle

    Chairman Gordon. Do you want to suggest some of those 
today?
    Mr. Bolden. Sir, I can tell you things that I am not going 
to take off the table, and you and I have discussed this. 
Aeronautics and science, they are not available for offsets.
    Chairman Gordon. But what does that leave?
    Mr. Bolden. It leaves commercial crew and it leaves some of 
my technology development, and I actually think that with 
prudent planning, we can plan what we need to take out of the 
funds that are available for--that the President has set aside 
for commercial crew and we can take some of the funds that I 
would like to spend up front for technology development, put 
money into those things that I absolutely have to have for 
heavy-lift launch vehicle.
    Chairman Gordon. And when do you plan to present to us--we 
would like to help you with an authorization but we have to see 
your plan, we have to see your numbers before we can do that. 
And we would like for them to add up.
    Mr. Bolden. And I assure you, Mr. Chairman, they will add 
up. The amount for the crew return vehicle, we actually have 
refined that and I think it is going to end up being about $4.5 
billion, so I am going to have to find a place within 
commercial crew and technology development where I can----
    Chairman Gordon. When do you expect to present that to us?
    Mr. Bolden. Mr. Chairman, I am hoping to refine my numbers 
by next week and I will get them to you as soon as I can, as I 
promised yesterday. I do not want to give you a date certain 
and disappoint you and me.
    Chairman Gordon. Well, again, I don't want to belabor this. 
As I have said before and I said to you, part of the problem, 
we are in this situation because the Constellation quite 
frankly for the last several years wasn't funded properly, and 
kept kicking those bills down the road. You inherited them. And 
so I do not want to start that process over again of just 
kicking it down the road until your successor or you have to 
then really bite the bullet and then we say, you know, we have 
wasted these additional dollars. We have been through this with 
National Polar-orbiting Operational Environmental Satellite 
System, we have been through this with the older Constellation 
program. So I won't belabor. I look forward to getting that 
from you and having a constructive discussion about it, and I 
yield to the ranking member, Mr. Hall.
    Mr. Hall. Mr. Chairman, I thank you.
    I don't mind belaboring it a little bit, and Charlie, you 
know my respect for you, but when I hear going to find 
something or maybe next week, you need to be a little more--you 
know, senior NASA program officials in an on-the-record meeting 
with Committee staff stated that the cost of developing an 
Orion-style crew rescue vehicle would be on the order of $5 
billion to $7 billion, and we discussed that figure yesterday. 
You were kind enough to talk to us and give us that 
information. But word from NASA's fiscal year 2011 budget, you 
plan to pay for the capability. Will it come from within the 
exploration program budget or will the science and aeronautics 
research directorates be taxed as well? And as a follow-up 
question, does NASA hope to have the--when do they hope to have 
the crew rescue vehicle ready for use as an emergency lifeboat 
on the International Space Station?
    Mr. Bolden. Representative Hall, my hope is to have the 
first version of Orion available by 2013 to 2015. It is a 
challenge but I think we can do that. The one thing that I can 
promise you and everybody on this Committee is that when we do 
bring you our budget numbers, you will not see bumps above the 
curve. Nineteen billion is my budget for this coming year, and 
what I do not want to do, as Chairman Gordon has said, I don't 
want to bring you an unexecutable budget and I will not bring 
you an unexecutable budget, so everything will be below the 
curve, and I can do that. My people can do that and we are 
going to do it. I admit, we are late. We started out late. But 
we are trying to catch up.
    I hate to quote--well, I don't hate to quote it, but I love 
quoting my predecessor, Mike Griffin. I read something that he 
wrote in a book that we are dedicating to the shuttle when he 
was talking about how, you know, you make decisions. He said, 
``Late is ugly until you launch. Wrong is ugly forever.'' And 
so I do not want to give you something that is wrong and I 
won't give you something that is wrong. I do apologize for it 
being late but it is going to be right so that we don't--you 
know, because we are going to have to live with it.
    Mr. Hall. The crew rescue vehicle, that fund, the $5 
billion to $7 billion, is not to be mixed nor funding the 
escape system. That is correct, isn't it?
    Mr. Bolden. Congressman, one of the ways that we are going 
to reduce the cost on what is called the crew rescue vehicle--
and I will be honest, I don't like that term. I wish we hadn't 
used it, but we did. The crew rescue vehicle initially, the 
phase-zero vehicle to which I refer, will not be rated for 
ascent for humans. We will take it to orbit without people in 
it, dock it to the International Space Station and so it takes 
away the requirement for a launch abort system, which is a----
    Mr. Hall. That answers a different question. Actually the 
crew escape system is not to be funded by this $5 to $7 
billion, is it?
    Mr. Bolden. Oh, I am sorry. You are correct, sir.
    Mr. Hall. And you say that you are going to be working and 
you are going to watch it, but as you watch it, you watch it 
with no people in it. It gives us little access, I think, to 
getting back to the success of the old days.
    Mr. Bolden. Congressman, we will have no people in it when 
it goes to orbit because that would increase the cost up front 
to human-rated for----
    Mr. Hall. Who would pay that cost?
    Mr. Bolden. I am sorry, sir?
    Mr. Hall. Who would pay that cost up front?
    Mr. Bolden. There will be no upfront cost for human rating 
because we are not going to do that initially. The phase-zero 
vehicle will not be human rated for ascent. It will be human 
rated for--it will comply with our visiting vehicle 
requirements in order to be docked to the International Space 
Station for a period of anywhere from six months to a year, and 
then it will be human rated for descent, entry and landing, so 
that is part of the incremental steps that I talk about.
    Mr. Hall. I have some more questions but I am about to run 
out of my time to even say I am about to run out of my time, 
but lack of a fallback option if the commercial crew fails is 
something that really concerns me, that anybody can take over 
something but we need some assurance that you are not just 
going to take it over but you are going to complete it, and if 
they fall down or falter they are not going to turn back and 
hand us a broken pattern to try to fill out where if we stay 
with where we are going and what Republicans and Democrats 
alike have voted for for the last five or six or seven years, 
it seems that would be the most likely and the best way to 
solve and keep our international partners, keep that great 
workforce that we have got in place right now that we are going 
to lose. I know you put all that into the computer. Maybe I 
will get to talk to you about it a little more. Thank you, 
Charlie.
    Mr. Bolden. Thank you very much.
    Chairman Gordon. Thank you, Mr. Chairman. I suspect you are 
going to have a chance to talk to him a lot more about that and 
other things.
    Ms. Fudge is recognized.

                         Glenn Research Center

    Ms. Fudge. Thank you, Mr. Chairman, and thank you, 
Administrator Bolden. It is nice to see you again. As you know, 
I represent northeast Ohio.
    Mr. Bolden. Yes, ma'am.
    Ms. Fudge. Which is home to NASA Glenn.
    Mr. Bolden. Yes, ma'am.
    Ms. Fudge. So of course, one of my main priorities is what 
is going to happen with NASA Glenn.
    Mr. Bolden. Yes, ma'am.
    Ms. Fudge. I feel that in much of the discussion around the 
future of human space exploration, research centers like Glenn 
have not received the same kind of consideration as other NASA 
centers. While I understand that spaceflight centers will be 
significantly impacted by the plan, the truth is that funding 
for research and technology development has been decreasing for 
years. Glenn Research Center has needs that should be addressed 
also and I will work obviously with the Ohio delegation to 
ensure that those needs are communicated to and understood by 
your administration.
    With regard to the new plan, on the surface it looks as 
though there will be some large or significant role for NASA 
Glenn, given Glenn's expertise in aeronautics and space 
research. However, I am concerned that as the plan changes, and 
it has since we started talking about it, Glenn and other 
research centers stand to lose the funding dedicated for 
technology and development. These concerns are already being 
validated as you stated in April that the revised plan to 
develop an ISS emergency return module would change the amounts 
requested for exploration technology programs. Now, how much do 
you see that these programs are going to be cut and what will 
be the impact on NASA Glenn? And further, should we be 
expecting more announcements of initiatives that will cut 
funding for technology development?
    Mr. Bolden. Congresswoman, as I mentioned before, the 
amount that I would spend on or that I would dedicated to 
technology development will probably go down by some amount but 
I just want to refer people to the latest Aviation Week and 
Space Technology because I want to make sure that NASA stays in 
trade magazines like this, and there is quite a bit about 
NASA's contribution to clean aviation and aeronautic 
development, and we are going to do more of that and that is 
why I told the chairman that one of the things that is not 
eligible to messed with, if I want to use that term, is 
aeronautics. We have an incredible facility in Plum Brook at 
Glenn that has the capability of bringing in large spaceflight. 
Orion, any of the commercial entities can bring them there. 
Foreign partners can bring large spaceflight there. We have got 
to get out and do some work, though, to let people know that we 
have these facilities, that we are credible when we have 
discussions about aeronautics, and we lost some of our 
credibility as we stopped spending money in research and 
development, and I want to restore credibility and respect to 
NASA and the aeronautics community. So as I have said to you 
and the Ohio delegation before, that is something that I 
promise and I am not backing down on that.
    Ms. Fudge. Secondly, what do you see as the role for NASA 
Glenn and other centers in working with the commercial space 
transportation industry to accomplish NASA's human spaceflight 
objectives?
    Mr. Bolden. Unless we work with the commercial entities and 
the commercial entities work with us, then everybody's worst 
fears will be realized. This is a partnership. The tighter we 
can make the partnership between NASA and the commercial 
entities, just as we have done on the International Space 
Station, it is a model for the way that I would love to see our 
NASA commercial partnership. We depend on each other. We can't 
survive without each other, and that is the way I want the NASA 
commercial partnership to be. They need us and we need them. We 
have facilities that they can use to buy down risk on their 
vehicles. These are development programs, and they can do it 
alone, so we are here to help them and we are going to do that, 
and we are going to put demands on them because there are 
certain criteria that they are going to have to meet. They are 
going to have to meet human rating standards. They are going to 
have to comply with safety standards. And so those things will 
not change. I am not putting a human being in a commercial 
spaceflight that does not meet the standards that we would do 
with a NASA vehicle.
    Ms. Fudge. Thank you, Administrator Bolden. I am warming a 
bit to the plan but I certainly am going to wait until I see 
the budget and hopefully answer some of the questions that have 
been asked today. Again, I thank you for being here.
    Mr. Chairman, I yield back.
    Mr. Bolden. Thank you, ma'am.
    Chairman Gordon. Mr. Smith is recognized.

              Maintaining the International Space Station

    Mr. Smith of Texas. Thank you, Mr. Chairman.
    Mr. Bolden, the current shuttle manifest was developed at a 
time where the prior Administration had established 2015 as a 
termination date for the International Space Station. Given 
that the Administration has now proposed extending its life 
through 2020, which I think is a good idea, what additional 
needs will the ISS have in terms of spare parts, cargo and 
crew, and how will those needs be met with Russian, European or 
U.S. commercial vehicles.
    Mr. Bolden. Sir, the biggest need for International Space 
Station post this last flight when we put the last big module, 
the Russian module, is for piece parts, small parts. One of the 
obligations or one of the requirements of the commercial 
entities is that they be able to carry 40 metric tons to orbit. 
We have a capability of delivering 85 percent of the volume--
not the volume but the up mass that we had on shuttle with both 
HGV, the Japanese carrier, and ATV, the European carrier. They 
were both demonstrated and performed flawlessly in the past 
year. So, you know, we won't have a shuttle to take huge pieces 
and parts up but there is no requirement for that. We have 
sufficiently outfitted the station that we can service it 
with----
    Mr. Smith of Texas. Let me ask you a related question, and 
that is, what will the Russian crew services cost and aren't 
they going to be a lot more expensive now than they were 
before, and I think that is in part because the Russians will 
have a captive market if the shuttle is retired as planned.
    Mr. Bolden. Congressman, we just----
    Mr. Smith of Texas. Aren't they going to corner the market 
and therefore the cost will be greater?
    Mr. Bolden. They will not have a corner on the market, and 
that is what I am trying to ensure for all of us. When we have 
commercial vehicles available, and I hope to have more than one 
carrier, contrary to what everybody thinks, if we stuck with 
the Constellation program, we would be down to one way to get 
to orbit with the Russians as a backup. When I am successful in 
facilitating the success of the commercial entities, we hope to 
have a minimum of two commercial carriers backed up by the 
Russians so we will have three ways to get people to orbit, 
which is one more than we would have had with the Constellation 
program and one more than we have today.

                 The Search for Extra-Terrestrial Life

    Mr. Smith of Texas. Mr. Bolden, the last question on a very 
different subject. What efforts is NASA making to detect life, 
perhaps sentient life, elsewhere in the universe and how 
important do you think that is?
    Mr. Bolden. That is critical. I am glad you asked that. 
NASA has a number of missions that are flying right now that 
are looking for Earth-like planets around other suns, the 
millions of suns in the universe as we know it. WISE [Wide-
Field Infrared Survey Explorer]--I forget what the acronym 
stands for--is an infrared imaging satellite that we just put 
on orbit the end of last year. It is imaging the entire 
universe as we know it and help us identify things like 
asteroids, Earth-like planets and the like. So we are making a 
serious effort to find out if there is other life out there.
    Mr. Smith of Texas. Any new proposed efforts that you are 
planning to suggest in the next couple of years?
    Mr. Bolden. Let me get back to you, Congressman Smith. I am 
certain there are, and my science friends are going to be angry 
that I can't tell you right away but I know there are.
    Mr. Smith of Texas. And there are some nodding heads behind 
you saying yes as well, so I will look forward to that.
    Mr. Bolden. They taught me to say I don't know.
    Mr. Smith of Texas. Thank you.
    Mr. Bolden. I don't know, but I will----
    Mr. Smith of Texas. I will look forward to hearing back 
from you in that regard.
    Thank you, Mr. Chairman. Yield back.
    Chairman Gordon. Thank you, Mr. Smith.
    And Mr. Matheson is recognized for five minutes.

                          Fixing Constellation

    Mr. Matheson. Thank you, Mr. Chairman.
    Mr. Bolden, thanks for coming today.
    Mr. Bolden. Thank you.
    Mr. Matheson. Given the many unanswered questions of the 
proposed fiscal year 2011 NASA plan, it seems to me that we 
ought to be careful about writing off all the hard work and 
investment made in the Constellation program, so what I would 
like to hear from you is, have you tasked your NASA team to 
take a close look at the Constellation program to see what 
changes, what streamlining, what alternative approaches to 
doing business could be taken to lower the cost and speed the 
development of the Ares and Orion and get us started on a 
heavy-lift launch vehicle sooner? Have you had folks tasked to 
look at that issue?
    Mr. Bolden. So we have a number of tiger teams that we have 
discussed in many panels in testimony before that are looking 
at identifying the nuggets in the Constellation program that we 
want to keep for programs going ahead. We have a group that is 
looking at insight and oversight, how do we streamline the 
amount of oversight that we exercise as we bring the commercial 
entities on board because they will come. Even with the 
Constellation program, we will be bringing commercial entities 
on board. That was started by my predecessor. I didn't--
President Obama and I didn't start that. This has been on the 
books for some time, just not very well funded. So we are 
looking at ways to decrease the amount that it costs us for 
oversight without losing emphasis on safety.
    Mr. Matheson. Maybe I will ask the question a different 
way, though. It sounds like the decision was made not to move 
ahead with this program, and I am suggesting, have we really 
looked at if there are ways to continue the program under a 
more cost-effective manner?
    Mr. Bolden. Congressman, the decision has not been made not 
to move ahead with this program. I am prohibited by law from 
taking that step. The President and I think the proper thing to 
do, the prudent thing to do is stop work on Constellation in 
2011, take the nuggets from it and proceed with a more viable 
program, but right now we continue to work with all deliberate 
speed on perfecting what we have in Constellation. You know, we 
will do all we can until the end of this fiscal year.
    Mr. Matheson. I just appreciate a concerted effort to make 
sure we examine all the options before we dismiss something 
that has had a lot of effort put into it.
    Mr. Bolden. Congressman, you may remember that two weeks 
ago we conducted an incredibly successful test that was called 
PA-1, Pad Abort 1. That was on a launch abort system for Orion 
in the Constellation program, and I thought, we all thought 
that was essential to get that test behind us because we think 
that is going to be valuable no matter what we go with.

                  Solid Rocket Industry and Workforce

    Mr. Matheson. Let me ask you another question. What do you 
think is going to happen to the unique workforce that our 
Nation's defense programs rely upon for the future needs in the 
solid rocket motor industry if the proposed cancellation of the 
Ares program is upheld?
    Mr. Bolden. Congressman, the leadership in the intelligence 
community, the leadership in the Department of Defense and I 
are working diligently together now to identify what the 
Nation's need is in terms of solid propellant. We are unique. 
NASA is unique in requiring large, segmented, solid rocket 
motors that right now mostly, I think most of the production is 
done in a facility called Baucus in Utah. That industry cannot, 
I think, afford the infrastructure that it currently has and we 
are working with them to try to entice them to make business 
decisions that will get that under control because I have not 
given up, you know, on the need for solid fuel yet. There is an 
incredible workforce there, an incredibly talented workforce 
that we cannot afford to lose so the intelligence community, 
DOD and NASA are working to try to find a way to transition 
from where we were grossly overcapitalized up until now to a 
more viable market there.
    Mr. Matheson. Well, I appreciate your acknowledgment of the 
talented workforce that is there. It is also one that is 
diminishing as we speak in terms of layoffs, and I would just 
ask that as all these items are put on the table, we should 
recognize that this workforce capability is not something that 
once it goes away you can just recreate instantaneously. Once 
it goes away, it will take years to put that back together 
again, and I think that that is an important criterion that 
ought to be front and center as you look at these decisions. I 
appreciate you coming today. Thank you so much.
    Chairman Gordon. Thank you, Mr. Matheson. And whatever the 
final decisions are, we need certainty so that that workforce 
will know what they are going to be doing or not doing.
    Mr. Rohrabacher is recognized for five minutes.

                     Savings From Ares Cancellation

    Mr. Rohrabacher. General, could you tell us how much money 
was saved that would have been expended for the Constellation 
Ares project had it not been canceled over a number of years?
    Mr. Bolden. Congressman, we have not saved any money 
because we continue to spend on the fiscal 2010 budget profile 
so the savings will come in fiscal 2011 and beyond if we are 
able to craft a budget that is agreeable to this Congress and 
the President. So we are still on the same funding profile with 
the Constellation program as we always have been.
    Mr. Rohrabacher. So the cancellation of the Ares rocket was 
not--I mean, I understand we spent almost $10 billion there.
    Mr. Bolden. Congressman, I have not canceled it. We have 
come to the point that we are still planning and looking at 
future tests for an Ares I rocket. I can't stop that. We did 
Ares I-X as a demonstration as we had promised, we would do it 
again. It was incredibly successful. My dilemma, to be quite 
honest, is, I am obligated to proceed with a program that I 
really think we need to stop in order to be able to fund the 
types of programs that are needed to take us into the 21st 
century and continue our leadership.
    Mr. Rohrabacher. Then let us approach this question in a 
different way then. If you were able to stop that program, 
which I was under the impression you were in the process of 
doing----
    Mr. Bolden. I can't do that.
    Mr. Rohrabacher. All right. Thank you for clarifying that 
for me. How much money are we talking about saving? And when we 
say saving, I am not talking about--we are talking about money 
that will be spent in other aerospace endeavors, not things 
that will take away from these jobs and America's capability 
but will add to it in a different place. How much money are we 
talking?
    Mr. Bolden. Congressman, let me get back to you because 
that is a much more complicated question than I am prepared to 
answer, and it is not simplistic. You know, when I talk about 
composite tanks and different propulsion systems, I think they 
represent a cost savings between what we now have with 
Constellation and what we would have with a new program with a 
different heavy-lift launch vehicle, a modified Orion. So I 
will get back to you.
    Mr. Rohrabacher. We are talking about considerable amounts 
of money. We are talking about----
    Mr. Bolden. Congressman, I don't like to use superlatives. 
I know there is a cost savings but let me get back to you.
    Mr. Rohrabacher. All right. I am looking forward to that.
    Mr. Chairman, when people are trying to spend money to do 
everything, they end up not being able to get anything done, 
and one thing I have noticed since I have been in Congress is 
this inability of Congress to prioritize, just total inability 
to prioritize, and when someone does, at that point they are 
always focused on saying well, we are eliminating something 
rather than realizing that the funds for that are now being 
used in other endeavors that could be very justifiable.

                     Cost of a Crew Rescue Vehicle

    Let me ask you in detail while I have the time here. The 
crew return vehicle, what is going to be the total cost for 
that?
    Mr. Bolden. Congressman----
    Mr. Rohrabacher. The crew rescue vehicle.
    Mr. Bolden. I will get you the entire numbers. The cost up 
front we estimate is $4.5 billion over five years, but let me 
get you----
    Mr. Rohrabacher. So almost $5 billion over five years, and 
then on top of that operational costs, and that will permit us 
to have a rescue system, a lifeboat at the station for how many 
years?
    Mr. Bolden. I have to get back to you on that also. That is 
an operational--that is an issue of operational concept. I 
would like to get out of that business as quick as possible and 
get the commercial entities to assume that responsibility.
    Mr. Rohrabacher. Let me get to the point because I only 
have a few seconds left. The money that would be spent for us 
developing that is $5 billion minimum, it looks like, how much 
would it cost us to rent that capability or to hire that 
capability from the Russians and thus freeing that money for us 
to use in other aerospace endeavors?
    Mr. Bolden. Congressman, that is one thing I can give you 
per seat, and it is cheaper. Right now, approximately, and this 
is a rough approximation, $50 million to $57 million per seat 
with the Russians. That includes training, transportation, 
everything. So we all need to understand that cheap is not what 
we are looking for. We are looking for domestic capability, 
and----
    Mr. Rohrabacher. Well, it seems to me that if we are 
developing a domestic capability at the cost of $5 billion that 
we could actually be doing for considerably cheaper. That means 
we are denying other aerospace projects that amount of money in 
order to have a crew rescue vehicle on the space station, which 
we know in a few years is going to be obsolete and we are going 
to fly away from that and it will be part of history. Maybe we 
should be, instead of investing those billions of dollars in 
something that will be history within a short time, maybe we 
should be investing in future-oriented technology that will 
make us competitive with the Russians in the future, in fact, 
more competitive than anybody else, rather than depending on 
the Russians in the future as well because we have managed to 
spend all of our money in the past.
    Chairman Gordon. Thank you, Mr. Rohrabacher. I don't mean 
to cut you off but we have a lot of witnesses and we are going 
to try to stick with our five minutes or, you know, shortly 
thereafter.
    Ms. Giffords, the chair of our Space and Aeronautics 
Subcommittee, is recognized for five minutes.

                    Continuing Work on Constellation

    Ms. Giffords. Thank you, Mr. Chairman, and Ranking Member 
Hall. Welcome back to our Committee, General Bolden.
    You earlier referenced the successful launch of that abort 
system test flight, and this was truly a significant milestone 
for the Constellation program to develop the systems that are 
going to take us back safely to the International Space System 
and beyond low-Earth orbit. It is a real testimonial to the 
success of NASA and our contractor team, who made it an 
incredible success. This was a three-year development. It cost 
approximately $220 million, again, a credible first step in 
ensuring the safety of future spacecraft crews, and it was 
really clear after the Challenger accident that in order to 
safely carry the crew, we had to be able to present an escape 
system that would not harm them during ascent, and again, this 
was an important requirement that was a critical part of the 
design for Orion and for Ares I and the inclusion of the launch 
abort system is projected to really make this the safest 
combination to get back to the ISS and beyond.
    I would like to actually show a short video clip if that, 
if we could cue that up, because about 3 weeks ago, and I am 
not sure all the members actually saw this, but NASA and its 
team of contractors showed us how it is done. So let us take a 
look here.
    [Video playback.]
    The Pad Abort-1, as NASA called it, was the first 
successful U.S.-designed abort system since Apollo, incredible 
feat, and congratulations to you and your team. But even before 
the test, Popular Science magazine honored the launch abort 
system with a Best of What Is New Award for 2009 in the 
aviation and space category, and as you just said, General 
Bolden, you said this was an incredibly successful program and 
you thought it was essential, a valuable tool to wherever we 
go. Sadly, that hard work and that dedication have not been 
rewarded. Space News reported on the eve of the test that one 
of the contractors warned its subcontractors supporting 
development of this that funding for the effort would cease as 
of April 30th.
    Administrator, Bolden, you and I both know that actions are 
being taken to make it hard for the team to accomplish their 
work during the remainder of this year. It is not a mystery to 
this Committee and to all of the industry folks out there. All 
of this is happening despite the efforts of Congress and us 
saying that work on Constellation needs to continue, and based 
on the lack of Congressional support for the President's 
proposed plan, I think it is clear that we are going to need 
the capabilities that we are developing under the Constellation 
program like this Pad Abort system in the future. I don't have 
a lot of time to spend talking about legal interpretations of 
termination liabilities and other issues. However, it is very 
clear that there is a lot of uncertainty within your agency and 
in the contractor community about what is going to be done to 
Constellation this year. There are a lot of rumors floating 
around about termination of high-ranking members of your 
administration that are working to really execute the will of 
the Congress. So I would like to--and I only have a minute 
left--but just a couple of yes-no answers to some simple, 
direct questions.
    Administrator Bolden, will you give this Committee your 
assurance that you will take all feasible measures to ensure 
that NASA makes as much progress as possible on Constellation 
in the remainder of the fiscal year 2010 and will you direct 
your workforce to do the same?
    Mr. Bolden. Yes, ma'am.
    Ms. Giffords. Will you direct your Constellation Orion 
workforce to give highest priority to carrying out activities 
that maximize progress on the Orion crew exploration vehicle 
program and not divert efforts in the fiscal year 2010 to the 
yet-approved crew rescue vehicle program?
    Mr. Bolden. Yes, ma'am.
    Ms. Giffords. And finally, will you ensure that your 
workforce complies with the intent of Congress that work 
continues on Constellation until such time as the Congress 
decides otherwise and that work on all aspects of the 
Constellation program over the past five years shall take 
precedence over the activities and the programs proposed by the 
President in his fiscal year 2011 request that may wind up 
never been approved by the United States Congress?
    Mr. Bolden. Yes, ma'am, and that is the direction I have 
given as late as last week. That was essential the guidance I 
provided to the Constellation program was to do those things 
that you just mentioned.
    Ms. Giffords. Thank you, Mr. Administrator, and thank you, 
Mr. Chair.
    Chairman Gordon. Mr. Olson, the ranking member of the Space 
and Aeronautics Subcommittee, is recognized for five minutes.
    Mr. Olson. Thank you, Mr. Chairman, and thank you, Mr. 
Administrator, for coming to testify today and thank you for 
your service to our Nation. Thanks again for your phone call 
yesterday. I greatly appreciate that. Please keep that up, 
because that is one of the things I think was lacking when this 
budget was rolled out, and I would like to sort of follow up on 
my chairwoman, some of her comments.
    In your opening statement, you referenced this week's GAO 
report on the use of study teams to develop plans for the 
President's fiscal year 2011 budget, and GAO documented 
thousands of hours devoted by NASA employees planning to 
implement the President's budget. I would like to caution you 
that this report was just the first response in ongoing GAO 
investigation. A full report is slated to be delivered this 
summer and will focus more on the more important question of 
NASA's compliance with budget impoundment laws. The report from 
this week clearly states that the agency, and I quote, ``must 
be mindful of the appropriations provision on canceling or 
altering contracts in the current program.'' I would like to 
reiterate that with you as well.
    And following up on my chairwoman's comments, I mean the 
Pad Abort was an incredibly successful launching test but there 
were rumors, if you recall, back in January and February that 
NASA was looking to cancel that. Again, NASA does not have that 
authority with the appropriations language. The President and 
the Administration have a voice in this process but they don't 
have the ultimate say. We, the United States Congress, has 
that, and I just again caution you not to read too much into 
that GAO report. We will get more details later on.

             Presidential Visit to the Johnson Space Center

    One question for you, and you live back in the District as 
well, and one question----
    Mr. Bolden. Not very much.
    Mr. Olson. I am similar to you. I am here today and I would 
much rather be back home with my family, but what we are doing 
here is important. But one question I get asked a lot, and I 
would like you to help me answer it, is when is the President 
going to come to the Johnson Space Center and see the home of 
human spaceflight? When is he going to give us some time? I 
mean, I know he went down to Florida and made the speech there 
and he took a tour of one of the commercial operators and gave 
them a half an hour. When is he going to come down and give us 
a couple of hours just to see what incredible things are being 
done there at Houston and what is at stake with some of the 
implications of the budget he has proposed?
    Mr. Bolden. Congressman, I am working on that, and 
unfortunately, I can't give you a date certain but I am hoping 
he will let my granddaughters come and meet him before he goes 
to the Johnson Space Center since they are going to be here in 
about a month.
    Mr. Olson. Anything you can do to get him down there, 
because again, I get asked that all the time. People don't 
understand why he won't come down and see us in Texas or the 
home of human spaceflight. I mean, we had a great mission, as 
you know, with Atlantis today. I was a little sad seeing her 
land, knowing that that is probably the last time that she is 
going to roll out and is going to become a museum piece.

                         NASA's Primary Mission

    One other question just sort of philosophical for you that 
is kind of on my mind. You know, NASA does many, many things, 
human exploration, robotic exploration, research development, 
technology development, climate monitoring, you know, 
aerospace, aeronautics, but we have a limited budget and we 
struggle, and that is the struggle we are facing today with 
what has happened here with the Constellation program. We 
haven't given you the resources you need to do what we have 
asked you to do as a Nation. But as the administrator, if you 
could pick one thing, one thing for NASA, what do you think 
their primary mission focus should be? Should it be human 
spaceflight exploration, robotic exploration, research and 
development? I know it is a tough question but I just kind of 
want to see what your thoughts are on that.
    Mr. Bolden. It is a pretty easy question for me because 
they are all intertwined. You can't--human exploration without 
research and development is unexecutable. Research and 
development without a human exploration program trying to pull 
that technology is useless, and that is really the--the debate 
we are having and the difficulty in my bringing you what I need 
to bring you is, it is really complex trying to determine--you 
know, human spaceflight is critical. We cannot do it without 
research and development and development of new technologies as 
Congressman Rohrabacher said. We tried that and it doesn't 
work. I don't have anything in NASA--we do STEM. We do science, 
technology, engineering and math whether people like it or not, 
and I know that is an educational term but education is also 
critical in what we do because if I am not allowed to do 
education and expend money and resources, people on that, I am 
going to have nobody that I can take from a college campus who 
is an engineer, so I would love to be able to tell you all that 
it is very simplistic. What I love about my job is, it is very 
complex, complicated and nuanced, and that represents an 
incredible challenge. The President is a person who does 
nuance, and I haven't seen one like that in a while and it is 
fun to sit and talk to somebody who understands that the world 
is nuanced, it is not black and white.
    Mr. Olson. Thank you, General, for that answer. I am 
running out of time here. I would just like to sum up that I 
think if you ask the American public what does NASA do, they 
would see those astronauts in those blue flight suits down the 
hall earlier today and they do human spaceflight, and that 
should be our priority.
    Mr. Bolden. Mr. Schweickart.
    Mr. Olson. Rusty Schweickart. We have got Neil Armstrong, 
Gene Cernan. I mean, that is what the American public thinks 
about when you say NASA.
    Mr. Bolden. I agree.
    Chairman Gordon. Thank you, Mr. Olson.
    And Mr. Miller, the chairman of the I&O Committee is 
recognized.

             Space Communications Networks Service Contract

    Mr. Miller. Thank you, Mr. Chairman, and my first question 
has to do with the work of the I&O Committee. We understand 
that NASA is on the verge of awarding the acquisitions contract 
for the space communications networking, SCNS, contract. It 
will be the third effort. The first two, there were complaints 
to GAO and the GAO found that there were organizational 
conflicts of interest that infected the award process and set 
the awards aside. We understand that in the early summer, and 
Monday is Memorial Day, NASA will try for a third time. Our 
subcommittee has been looking at the award of the contract, the 
contract acquisition process. They have interviewed 30 people. 
They have reviewed 20 boxes of documents. They will shortly 
issue a staff report that I understand will be very critical of 
NASA's failure to understand the importance of dealing with 
conflicts of interest rather than just something to kind of get 
through a process and make sure it doesn't get set aside, that 
there is actually a purpose behind the organizational conflict 
of interest. Since you are apparently on the verge, NASA is 
apparently on the verge of awarding the contract for the third 
time, we are apparently on the verge of issuing a staff report 
examining the contract, will you hold off on awarding the 
contract until you see the result of our staff committee 
report?
    Mr. Bolden. Congressman, as much as it pains me to say, I 
will have to get back to you on that because I am familiar with 
about what you speak but not familiar enough to give you an 
intelligent answer, so I will get back to you.
    Mr. Miller. If you could do it quickly because----
    Mr. Bolden. I will do it quickly, sir. I can get back to 
you this afternoon. I just don't--I don't have the information 
before me. Somebody just slipped me a note, but I always get in 
trouble when I read notes and I don't know what----
    Mr. Miller. I will look forward to your call.

                             Space Tourism

    Second, some part of the justification for commercial crews 
is that NASA would not be the only customer. It would make 
possible spaceflight for others, and I have got to say, the 
idea of taking a vacation of going to space does sound 
massively cool. But it also strikes me as probably pretty 
pricey, and Chairman Gordon asked back in February if you had 
done any kind of market survey to determine just exactly what 
the market was for space tourism, and your answer was that NASA 
had not but that there had been private industry surveys, and 
we found one. Futron Corporation estimated back in 2002-2003 
that the cost would be $20 billion to go. They seem to assume 
that----
    Mr. Bolden. Million.
    Mr. Miller. Million to go.
    Mr. Bolden. Yes, sir.
    Mr. Miller. And they estimated then that there might be 23 
people who would go on Soyuz flights at that price. They now 
estimate that the price might come down. If it did come down to 
$5 million per ticket, that might make it possible for people 
with net worth as low as $50 million to go by 2021. There is 
other information that $5 million per ticket is wildly 
optimistic, that it is probably going to say in the--probably 
an absolute or more likely price tag or ticket price would be 
$50 million. What part of the justification for commercial 
crews is space tourism? How much of the $6 billion, $7 billion 
a year we are spending for five years is directed at what is 
going to strike a lot of Americans as something that is beyond, 
probably will always be beyond their reach?
    Mr. Bolden. Congressman, none of our effort is directed at 
space tourism. Our effort is directed at a commercially 
available option to get to low-Earth orbit. What is important 
to me is to be able to get scientists and investigators from 
Earth to the International Space System. You know, that is--I 
know that we need to be able to get people there. If there is a 
commercial availability to get them there, then we can increase 
the numbers of people who can do research on the International 
Space System as an example. There are other examples that 
people can cite of hopes for other facilities in low-Earth 
orbit, you know, where a commercial entity to get them there 
would be very good.
    Mr. Miller. I am sorry. Say that again.
    Mr. Bolden. There are other examples that people can cite 
for you if you talk to a company like Bigelow, for example, who 
have inflatable structures. They have a couple that have been 
on orbit for some time now surviving with nobody in them but 
still surviving as a demonstration. There are entities out 
there who have a need for a way to get to space, and that is 
the commercial entity that I want to facilitate the success 
for.
    Mr. Miller. Not space tourism?
    Mr. Bolden. Space tourism is fine, but that is someone 
else's business model. That is not a NASA--that is not 
something that is in my purview. I think that is great.
    Mr. Miller. My time is expired.
    Chairman Gordon. Thank you, Mr. Miller.
    And Mr. Sensenbrenner is recognized for five minutes.

                        Modifying Constellation

    Mr. Sensenbrenner. Thank you very much.
    General Bolden, welcome. Let me say I am a little disturbed 
at the President's budget submission, and 49 years ago when I 
was still a high school student, I remember seeing President 
Kennedy on TV giving an inspirational speech which united 
Americans and talked about putting a man on the moon. And the 
President's speech at the Kennedy Space Center I think is a U-
turn from what President Kennedy had to say to us, and 
certainly has deflated the hopes of a lot of people in terms of 
America keeping its edge in space technology.
    Now, so far we have spent $10.3 billion on the 
Constellation program, and I guess if it is terminated that is 
$10.3 billion wasted or spent on something that was a dead end. 
Has NASA or the Administration given any consideration to 
modifying the program if they determine it to be too expensive 
rather than stopping it altogether?
    Mr. Bolden. You are referring to the Constellation program?
    Mr. Sensenbrenner. Yes, sir.
    Mr. Bolden. Sir, we are not looking at a way to modify the 
Constellation program because we feel that the amount of money 
that would be required to bring that program up to a point 
where it is viable is more than the Nation can afford.

                         Termination Liability

    Mr. Sensenbrenner. Okay. What termination liability does 
the Federal Government have if the Congress approves the 
President's recommendation? How much money?
    Mr. Bolden. The termination liability is a requirement on 
the part--that is a requirement that is laid on the contractor 
as a part of the contract, and we recently went through a lot 
of deliberation on that back and forth with attorneys, but the 
termination liability is something that is a responsibility of 
the individual contract.
    Mr. Sensenbrenner. Now, how is that? If the determination 
to terminate the program is made by the Federal Government, 
that seems to be a pretty bad contract.
    Mr. Bolden. Congressman, I am not an attorney and I do not 
know why we introduced that type of clause into contracts but 
it is in most of our NASA contracts----
    Mr. Sensenbrenner. Well, I am an attorney, with all due 
respect, and if all of a sudden if the Administration and the 
Congress agree to terminate the Constellation program and the 
contractors end up holding the bag, how do you ever expect them 
to sign another contract with NASA?
    Mr. Bolden. Congressman, what most businesses do from my 
very limited experience on the outside serving on corporate 
boards is that the board with the management structure of the 
company makes a risk decision that okay, we are going to go 
into this business because we are not sure that our client, our 
customer is reliable, we are going to hold back some money just 
in case he finks on us, and people who work with the U.S. 
government unfortunately are very accustomed to that.
    Mr. Sensenbrenner. Does NASA want to get a reputation of 
finking on contractors and big programs?
    Mr. Bolden. Mr. Chairman, we do not want to get that 
reputation but I would be lying to you if I didn't say we 
haven't. Everyone sitting in this room can line up, you know, 
we can line that wall up with NASA programs that have been 
canceled and it comes with changes of Administration, it comes 
with changes of mind. One of the problems that we have 
philosophically as a people is we can't see beyond a four-year 
horizon, and all of you sitting in this room are having a very 
difficult time seeing beyond a two-year horizon, which comes 
down to a one-year horizon when you have to run, and I don't--
--

                     Abdicating Leadership in Space

    Mr. Sensenbrenner. Sir, with all due respect, this 
Committee on a bipartisan basis has written and passed into law 
multiyear NASA authorization bills, which are much beyond a 
two-year horizon minus whatever part of our two-year terms has 
already elapsed. Now, I will be very honest with you, sir, this 
is a U-turn and I think that there are a lot of people who 
still have the vision of President Kennedy who think that the 
United States is abdicating its leadership in manned 
spaceflight as a result of the U-turn and they are really 
puzzled when they see the Administration asking for $23 billion 
to keep laid-off teachers on the payroll but they don't have 
enough money to follow the $10.3 billion that we have already 
spent in building the Constellation program. If you want to 
look at the future, I would suggest that if it is too 
expensive, let us modify it, because I have a real bad time 
justifying to my constituents that well, we spent over $10 
billion of your money and we decided we can't get anything out 
of it. And I am not going to do that, and I think that if the 
President and his NASA administrator want to do that, you are 
going to have a tough time convincing the American people you 
are right.
    My time is up. Thank you.
    Chairman Gordon. Do you want to give a quick reply?
    Mr. Bolden. A quick reply would be to say, I don't consider 
it a U-turn, I consider it, there are many ways to get where we 
all want to go. We all want to get to Mars. Constellation would 
not have gotten us there. The President's new program will get 
us there. It will take us--we will go in incremental steps 
where we were trying to go in one big chunk before and we 
just--we are not going to get there.
    Chairman Gordon. And Ms. Woolsey is recognized for five 
minutes.

             Safety Regulations for Commercial Spaceflight

    Ms. Woolsey. Thank you, Mr. Chairman.
    Administrator Bolden, hello. Thank you for being here.
    Mr. Bolden. Thank you.
    Ms. Woolsey. You said a couple of things that made me stop 
and sit up more than once today. One is, you have said in 
response to questions on different issues they won't be 
perfect. And then we talked about commercial crews and 
commercial vehicles. So boom, I started thinking, well, the 
safety of the crews, the safety of the workers, the safety of 
human flight being commercial and not under NASA as we know it, 
and as the chairwoman of the Workforce Protection Subcommittee 
in Labor, I really want to know how we are going to make sure 
that we have safety regulations for these commercial flights. 
We just keep experiencing private industry taking risks, 
cutting corners, having shortcuts, cost savings, timing and 
then what we have got? With this, we are particularly 
vulnerable, we get people up there in space. So what are you 
thinking in that regard for NASA?
    Mr. Bolden. Congresswoman, we are modifying, we are looking 
at the way that we exercise our oversight over the work that is 
done by the contractors. I think I spend too much time and 
effort and money on that oversight today, and that is a 
contributor to the increased cost of programs. I don't need to 
have 20 NASA people overseeing 20 contractors to ensure safety. 
I can do that in a much more streamlined manner. I would--going 
back to the video that Congresswoman Giffords showed, I am glad 
she showed it because I would remind those--I would remind some 
and I would inform others that the integration contractor for 
everything you saw was Orbital, a company out of Dulles, 
Virginia, and it happens to be the same Orbital that is one of 
the top producers. They are a reputable aerospace company that 
has produced very successful products in the past, and as I 
have said to other people, I refuse to accept the contention 
that an American company cannot do what the Russians do through 
Energia. I refuse to accept the fact or the belief that we 
can't help our American manufacturers produce an incredibly 
safe vehicle to get humans from Earth to low-Earth orbit and 
then beyond. Boeing is going to be working on--they worked on 
the International Space Station. They will be working on the 
low-Earth orbit vehicle, but Boeing is also probably going to 
be involved in the NASA production of a beyond-LEO vehicle. It 
is the same company, the same people, and I just cannot accept 
the fact that they will be less capable because they are making 
money running a commercial entity than they are going to be 
working for me taking people beyond low-Earth orbit.
    Ms. Woolsey. But working for you, NASA, is responsible for 
the oversight.
    Mr. Bolden. I am responsible no matter whether I procure 
their services by buying the vehicle or by leasing the vehicle. 
The only difference is the acquisition strategy. I am not 
relinquishing my responsibility for guaranteeing safety of crew 
and cargo just because I lease the vehicle. When I lease the 
vehicle, it belongs to me. You know, is it like going to a 
little airport on the way to Annapolis, and I don't own the 
airplane--I don't fly--but my friends don't own the airplane. 
They lease it and they go fly, but they are responsible for 
that airplane while they are flying it. That is the way I am 
going to be when I fly astronauts and cargo on a commercial 
entity. I lease it; I own it for the time being. The difference 
is, I don't have to pay the overhead, I don't have to pay the 
infrastructure, so there is--going back Congressman 
Rohrabacher's point, I reduce the amount of money that the 
taxpayer has to pay because the taxpayer is not strapped with 
infrastructure and operational costs when I am not flying that 
vehicle. It is $2 billion a year if I don't even launch the 
space shuttle. We can't afford that.
    Ms. Woolsey. So you will have the same safety procedures 
and processes----
    Mr. Bolden. Yes, ma'am. I will have the same effect when it 
comes to safety and oversight. What will be different, I can 
promise you, I will not have the same number of people, for 
example. I will not have the same number of boards at the 
Johnson Space Center that has to meet before we give a go to 
fly a vehicle. When I was in the space program, we had a 
program requirements control board and a CCB--I forget what 
they stand for. When I go to the Johnson Space Center today, 
they have grown to 10, 12, I don't know how many boards, and I 
have still got to get to the top for the decision to launch. I 
don't need all that.
    Ms. Woolsey. Thank you, Mr. Chairman.
    Chairman Gordon. Dr. Bartlett is recognized for five 
minutes.

                   Promoting STEM Fields Through NASA

    Mr. Bartlett. Thank you.
    I want to ask you about your commitment to what I think is 
the most important contribution that NASA can make, and I need 
to put this in context. As the school physiologist at the 
school of aviation medicine in Pensacola, Florida, in the late 
1950s, I was involved in the first suborbital primate flight, 
monkey Baker and monkey Able. Monkey Able was killed by the 
Army when they gave a general anesthetic to take the electrodes 
out. We didn't do that to our monkey Baker in Pensacola, so she 
was kind of a star for a long time. There were seven astronauts 
at that time, the first seven, and NASA had no facilities. So 
they were using military facilities. They came to Pensacola to 
use the human centrifuge and the slow rotation room and they 
came to the naval yard in Philadelphia where I had temporary 
additional duty to use the altitude chamber. Dino Mensanelli, 
obviously of Italian descent, was the director of that and they 
were testing one day, and I have heard Dino tell this story a 
number of times. He thought it was very funny. They were 
testing a pressure suit and it was making a noise. The air part 
was making a noise. And he asked the astronaut, I forget which 
one it was, what it sounded like, and he said well, if you will 
excuse me, it sounds like waff, waff, waff. And I heard Dino 
tell that story many times. What happened then, I was much 
older than Sensenbrenner and I was already working as a 
scientist in a career when he was in high school, but I 
remember that speech of the President, and I remember the 
enormous contribution that that made to our country in terms of 
capturing the imagination of our people and inspiring our young 
people to go into careers in science, math and engineering.
    Today we are the world's premier military power, and I 
think that is largely due to what NASA did during that slightly 
less than a decade that we spent putting a man on the moon 
because it really did capture the imagination of our people and 
inspired our young people to go into these careers, because I 
remember a cartoon, a bucktoothed, freckled-face kid and he 
said, you know, six months ago I couldn't even engineer and now 
I are one. Everybody wanted to go into science, math and 
engineering, and I think that our preeminence today in defense 
is largely due to that.
    Today we face a huge challenge, as you know, sir. This year 
the Chinese will graduate seven times as many engineers as we 
graduate. India will graduate three times as many engineers as 
we graduate. The best and brightest of the kids in our country 
are going into what I tell them are potentially destructive 
pursuits, if you will excuse me, that are wanting more and more 
to become lawyers and political scientists. Don't you think we 
have enough of both of those? We desperately need, sir, 
something that captures the imagination of our people and 
inspires our young people to go into science, math and 
engineering or we will not retain our premier position as the 
best, most powerful military force in the world, and to say 
nothing of technology and leading in that area. What is NASA 
going to do that is going to capture the imagination of our 
people and inspire our young people to go into these technical 
careers? Because, sir, I think that is the most important 
contribution that NASA can make. What are you going to do that 
is really sexy and catches on?
    Mr. Bolden. We are going to continue to do some of the work 
that we have been doing and expand it even more through some of 
the--again, I will have to go back to my educational 
initiatives. This summer, through a program called the Summer 
of Innovation, for example, we are going to allow--working with 
the Massachusetts Space Grant Consortium, we are going to allow 
middle-school kids to write programs that will allow three 
spheres on the International Space System to maneuver around 
inside the station, do intricate maneuvers that we need to be 
able to do if we are going to be able to rendezvous with a 
refueling base in space or something. That work is being done 
right now by doctoral students and post-docs at MIT. But this 
is something that they decided they wanted to take all the way 
down to the middle-school level. There is a program that is not 
a NASA program called First Robotics but NASA supports that 
with 312 teams that we provide mentors for. The Nation doesn't 
pay a dime for that. That is time that our engineers and 
scientists dedicate because they think it is important. And 
First Robotics, if you have not seen it, it is absolutely 
incredible, and that inspires the imagination of kids.
    There are kids--there are more stories from First Robotics 
about former gang leaders who had their lives turned around 
because they got involved in First Robotics, so I am not going 
to tell those stories because the chairman would shoot me for 
taking all that time, but I would recommend that we all take a 
look at some of the things that have been done through NASA, 
through the National Science Foundation, through other 
organizations that do inspire kids. You know, they don't need 
to see somebody go to the moon, it is helpful, but they all 
realize they can't go to the moon.
    Chairman Gordon. Thank you, Mr. Administrator.
    I just want to suggest that Mr. Armstrong, Mr. Cernan and 
Mr. Young are waiting on our second panel. Everyone certainly 
has the right for their full time, and we are going to continue 
to go forward, but if you don't feel like you need your full 
five minutes. don't feel like you have to take it, and Mr. 
Bolden, you can also, if you have got your message across, you 
can go to the next one also.
    So now, Mrs. Dahlkemper, I don't mean to put you under the 
spotlight here but you are our next speaker and I recognize you 
for five minutes.

                            Asteroid Mission

    Mrs. Dahlkemper. Thank you, Mr. Chairman, and I will try to 
be very quick.
    Thank you, General Bolden, for being with us, and I have 
been to some of those First Robotics competitions and they are 
exciting and really do inspire me as well as certainly the 
students.
    I just have a quick question. As the President announced a 
plan for a manned flight to an asteroid, that captures my 
imagination actually, and so I just would like you to maybe 
tell me what we have available to us right now to attain that 
goal. Are we starting from scratch on that? Just give me a 
little bit of background on this.
    Mr. Bolden. I can give you a quick example. The jet 
propulsion lab and the Johnson Space Center, the Glenn Space 
Research Center and Marshall, those centers are presently 
talking about an early visit to an asteroid using a lot of off-
the-shelf technology, electric engines that we call Hall 
Thrusters that will enable us to rendezvous with an asteroid 
perhaps as quickly as 2016 just as a demonstrator. It is a 
robotic precursor, not a human mission, but it gives us an 
opportunity to demonstrate that we do in fact know how to 
rendezvous with this thing that is orbiting the Sun. That is 
what makes asteroids so challenging. They are not--you know, we 
have ephemeral data on other stuff but we don't on asteroids.
    Mrs. Dahlkemper. So this is unmanned?
    Mr. Bolden. This is unmanned.
    Mrs. Dahlkemper. And when would you expect that we would be 
able to get manned?
    Mr. Bolden. I promised the President that if I get my act 
together, we will do it in 2025, and I think we can do that.
    Mrs. Dahlkemper. And that is pretty exciting. I am anxious 
to see that move forward. So I will end there and yield back.
    Mr. Bolden. When a kid sees----
    Chairman Gordon. Thank you, Mrs. Dahlkemper.
    Mr. Bolden. --a rendezvous with an asteroid in 2016, let me 
tell you, they are going to be excited.
    Chairman Gordon. And Mr. Smith is recognized for five 
minutes.

          Timeline for Human Rated Commercial Launch Vehicles

    Mr. Smith of Nebraska. Thank you, Mr. Chairman and 
Administrator. If you would lay out NASA's schedule for 
developing and finalizing a set of human rating requirements 
for commercial crew companies, and once requirements are 
established, how long do you anticipate it would take a company 
to design, develop and flight-test and certify a capsule and 
launch system?
    Mr. Bolden. Let me get back to you, because we have laid 
that schedule out and I will get back to you with what it is 
because we have a request for information on the street, and I 
talked about it in my opening remarks and we released it 
sometime this month, asking for commercial entities to look at 
our draft human rating requirements. Most of the commercial 
entities have told us that if you put an RFP on the street and 
we win, we think we can have a vehicle that is human rated in a 
three-year period of time from the time that the award is made. 
That is what they say. I am one who takes one at their word 
until they demonstrate otherwise.
    Mr. Smith of Nebraska. Can you give me a rough time on 
that?
    Mr. Bolden. Twenty fifteen, 2016 time frame is what we are 
looking at right now on our schedule.
    Mr. Smith of Nebraska. Thank you.
    Thank you, Mr. Chair.
    Chairman Gordon. Thank you, Mr. Smith.
    And Lt. Governor Garamendi is recognized for five minutes.

                        Constellation Variations

    Mr. Garamendi. Thank you very much, Mr. Chairman.
    By now you have probably figured out this Committee is not 
with you.
    Mr. Bolden. Yes, sir, I understand.
    Mr. Garamendi. And I am curious about several things that 
you have said. I am going to do this quickly. You said that you 
are not looking at Constellation Lite, that is, a revamping of 
the Constellation program. Is that correct?
    Mr. Bolden. That is correct, sir.
    Mr. Garamendi. Do you have any authorization to look at any 
other program besides Constellation?
    Mr. Bolden. In the 2010 budget, I don't have any 
authorization to look at anything, and that is why I am not 
looking at any modification or termination or anything on 
Constellation. We are working the existing program of record, 
Constellation----
    Mr. Garamendi. But yet your testimony here indicated 
substantial looking at other options.
    Mr. Bolden. I am doing planning for the President's 2011 
budget proposal which I feel is prudent to do.
    Mr. Garamendi. I will leave it to our lawyers to parse that 
out.
    Mr. Bolden. Yes, sir. They are doing that.

                  Potential Commercial Crew Providers

    Mr. Garamendi. I am sure they are, and they should. You 
mentioned earlier on the commercialization several companies. 
Could you explicitly tell us what companies you are looking at 
to do the commercial operations that are you are planning for 
next budget?
    Mr. Bolden. Sir, I don't have any companies that I can say 
I am looking at. I can tell you companies that I know are 
thinking about entering the----
    Mr. Garamendi. Who are they?
    Mr. Bolden. Boeing, Lockheed Martin, perhaps ATK Orbital, 
SpaceX, Bigelow.
    Mr. Garamendi. You mentioned a couple of Japanese and 
European companies that might be interested in this.
    Mr. Bolden. We are not--they are not eligible to compete as 
a prime contractor. They can be involved as a sub to an 
American firm under our present laws.

                          Infrastructure Costs

    Mr. Garamendi. Thank you. You also indicated that the 
private companies would not be burdened with overhead, 
operational costs, continuing operations and the like.
    Mr. Bolden. Sir, I did not. That is exactly opposite from 
what I said. I said I will no longer be burdened with the 
infrastructure costs, the overhead and everything else. Private 
companies will incur whatever overhead they normally incur for 
doing business.
    Mr. Garamendi. And you don't think you will have to pay for 
that?
    Mr. Bolden. We will pay something, as anybody does when 
they buy a service. There is always--the airlines charge me 
extra because they are inefficient.
    Mr. Garamendi. They are private, aren't they?
    Mr. Bolden. And that is what we are talking about. I am 
talking about purchasing a service from a public or private 
company that wants to compete to provide that service in terms 
of cargo to orbit and humans to low-Earth orbit.
    Mr. Garamendi. And if you think you are not going to pay 
for their inefficiencies, you are mistaken.
    Mr. Bolden. Congressman, I did not say I would not do that. 
That will be figured in--I am certain they will figure it in to 
their price.
    Mr. Garamendi. I am sorry. I don't want to be too 
argumentative here but it seems to me----
    Mr. Bolden. I am not arguing. I agree with you.
    Mr. Garamendi. I am, and I don't want to do that. Just 
finally, I think you are making a serious error in not looking 
at Constellation Lite. I think you are obligated to do so. I 
think you are making a big mistake in not looking at how that 
might be modified to achieve the goals that you and the 
President are stating, and to simply push it aside and not move 
forward with a significant modification or useful modification 
to meet the requirements of manned spaceflight, whether done by 
contractors or leasing the equipment. So I will let it go at 
that. Thank you very much.
    Mr. Bolden. Congressman, if you could get a relief from the 
2010 Joint Appropriations Act that would allow me to----
    Chairman Gordon. Thank you, Mr. Bolden. We have covered 
that topic a few times.
    Dr. Ehlers is recognized.
    Mr. Ehlers. Thank you, Mr. Chairman. It is my judgment that 
all the older and wiser people on this panel have already 
spoken and said everything I would say, so if you don't object, 
I will reserve my spot for the next panel.
    Chairman Gordon. You demonstrate your wisdom right there.
    Ms. Kosmas is recognized for five minutes.

                     Extending the Shuttle Program

    Ms. Kosmas. Thank you, Mr. Chairman.
    Thank you, Administrator Bolden, for being here. I do think 
it is appropriate to mention that we actually had a successful 
and flawless return of Atlantis this morning at 8:48 a.m. and I 
think it is a great opportunity for us to congratulate both the 
crew and the workforce once again for the great work done by 
those folks.
    I have a number of different questions. I am going to try 
to be as brief as I can. I want to talk to you a little bit 
about a comment that you made that said it is important for us 
to get scientists to the International Space Station. You also 
talked about spares and payloads. I want to make a comment. It 
is my understanding that NASA has completed all the 
requirements suggested by the Columbia Accident Investigation 
Board and then some, and that recertification of the orbiters 
for flights beyond 2010 is essential done. I believe that you 
would agree that NASA's implementation of the Columbia Accident 
Investigation Board recommendations on shuttle and human 
spaceflight has been successful and that the shuttle's current 
safety record and the efforts by the shuttle team ensure that 
all safety risks are addressed for each flight.
    Mr. Bolden. Yes, ma'am.
    Ms. Kosmas. So would you then agree that flying beyond 2010 
into 2011 and perhaps into 2012 is not a safety issue but 
rather a cost issue?
    Mr. Bolden. Congresswoman, it is not a safety issue. There 
are still safety considerations but it is not a safety concern.
    Ms. Kosmas. There would be safety issues with any----
    Mr. Bolden. There are safety issues with--any time I put a 
human in a vehicle----
    Ms. Kosmas. So if it is not a--I am sorry to interrupt you. 
If it is not a safety issue but a cost issue, and the reason I 
bring it up is, I believe that manifesting the Launch on Need 
mission, the STS-135, would provide a more manageable draw-down 
and may help to retain the skills that we need for a future 
program and it would also be extremely useful in our ability to 
deliver spares to the space station and to bring down parts 
that we could conduct engineering analyses on, and I am asking 
whether you would agree that this would be helpful to us since 
we have no other American vehicle----
    Mr. Bolden. I agree that that may be helpful.
    Ms. Kosmas. --to get there. And for the record, do you see 
any technical or logistical roadblocks to flying the space 
shuttle twice a year through 2012?
    Mr. Bolden. Yes, ma'am. There is----
    Ms. Kosmas. Besides the cost factor.
    Mr. Bolden. No, no, no. There is a significant logistics 
issue, and once I fly the Launch on the Need vehicle, then the 
closest I can fly another vehicle is two years after that 
because I don't have tank sets that are prepared. So there 
would be a two-year gap between----
    Ms. Kosmas. So you suggest that that is a technical or 
logistical roadblock?
    Mr. Bolden. It is a logistical roadblock.
    Ms. Kosmas. All right. As was stated by my colleague, I 
don't want to be argumentative either, but I do believe that we 
have the ability to make something happen if we have the 
decision in place to make it happen.

                      Maintaining Space Workforce

    I want to go on to another question, which has to do with 
the workforce. In my area, as you know, Kennedy Space Center, 
the President was there, which we appreciated and he stated in 
his speech that the Administration's proposal would mean 2,500 
more jobs than under the program of record for my community at 
the Space Coast in Florida, and despite repeated requests, we 
have not received any further and specific information related 
to the workforce and the skills that would be required that 
would be helpful to me at the Space Coast to properly plan for 
the transition, not me but me and the folks I am working with 
in the area to plan for transition. I know that there are 
efforts in the works to try to work with the Administration at 
the Cabinet level to implement the $40 million workforce and 
economic development initiative proposed by the President but 
again, we don't have any details as to the specifics of the 
jobs that are intended to be created and therefore we have no 
way to match skills with that workforce that we so desperately 
want to retain. Do you have any details on the transition 
strategy that would help me to look at that workforce 
transition?
    Mr. Bolden. Congresswoman, at this point I don't. As I sat 
down, we were having the third meeting of the taskforce or a 
sub piece of it, and the types of information that you want 
will probably not be available before mid-July when the 
taskforce starts to look at the draft report that we are going 
to give to the President.
    Ms. Kosmas. Okay. Thank you. Do you plan to relocate DOD or 
other Federal projects to Florida? Are you looking at 
opportunities to do that?
    Mr. Bolden. No, ma'am, and I don't think Secretary Gates 
would appreciate my intervening in his responsibility. I 
understand what you are saying.
    Ms. Kosmas. As part of the transition, however, working 
with----
    Mr. Bolden. In fact, DOD--every secretariat has 
representation on the task force that is being chaired by 
Secretary Locke and me, so we are looking across the board 
trying to see what we can do for the Space Coast.

                 Safety Record of Commercial Providers

    Ms. Kosmas. Okay. I think my time is about to expire, but I 
just wanted to ask you one question and it has to do with your 
reliance emphasis on commercial. We know that Falcon-9 is 
getting ready to undergo its first test launch, and of course 
we wish it success. There is a great deal of pressure on it. 
However, we should also remember that ULA has been flying 
reliably and safely from Florida 40 launches in 40 months. Do 
you agree that this represents a solid record upon which we 
could build a commercial capability for access to low-Earth 
orbit for crew and cargo from both a cost and schedule 
standpoint?
    Mr. Bolden. I agree that it represents a potential source 
of provision of commercial access to low-Earth orbit.
    Chairman Gordon. Thank you, Mr. Bolden, and Mr. Wu is 
recognized.

                 Timeline for Commercial Access to LEO

    Mr. Wu. Thank you very much, Mr. Chairman.
    Administrator Bolden, I heard you say in answer to Mr. 
Smith's question that you expect the new vehicle to be flying 
three years after it is put out to bid.
    Mr. Bolden. I made the statement that what the commercial 
providers have said to me is that once they get a contract, 
they will have a vehicle that can comply with the human rating 
standards and be ready to fly in three years. That is a--I just 
related a statement.
    Mr. Wu. Right, right, and that is a very, very important 
distinction, and I want to focus on that for a second. What is 
your confidence level that what they have said is accurate or 
true?
    Mr. Bolden. Based on the fact that I told the President 
that I can do the same thing with an Orion vehicle that I would 
have ready three years from now, I think my confidence in their 
ability to do that is pretty good.
    Mr. Wu. And what is your basis for that belief?
    Mr. Bolden. The basis for my belief is confidence in my 
workforce and confidence in the leadership of NASA that has 
worked this issue and has given me a draft timeline and 
schedule.
    Mr. Wu. Now, that is an existing workforce. Do the private 
companies which may bid have similar workforces in place today?
    Mr. Bolden. Every private entity that may bid, to my 
knowledge, has a viable, existing workforce, whether it is 
Boeing or SpaceX.
    Mr. Wu. Which can match NASA's?
    Mr. Bolden. My workforce is the commercial industry. That 
is my workforce.
    Mr. Wu. So do you----
    Mr. Bolden. I mean, I have 18,000 civil servants in NASA 
and hundreds of thousands of employees for whom I am 
responsible but I don't write their check. They work for 
Boeing, Lockheed, ATK, Orbital, Sierra Nevada, all these 
companies that say they can continue to do what they have been 
doing for us for 50 years. I am just asking them to do it and 
not make me buy the vehicle, let me lease it from them. It is a 
different in--I just have to go back. It is a difference in 
acquisition strategy that I want to try. Is it risky? Yes.
    Mr. Wu. So it is the same workforce that will transpose 
over, if you will, to whichever private bidder ultimately wins 
the contract. If that is the case, how does the Administration 
make the case that this will be done for less money or any less 
money that Orion could be done?
    Mr. Bolden. Because the private entities or the commercial 
entities are telling me that they have learned through the 
years ways to be more efficient in their operations. They have 
in place programs like LEAN and 6 Sigma and other kinds of 
programs that have proven to be effective in bringing down 
cost. That is the way they make money.
    Mr. Wu. Now, I am a little confused and maybe I didn't 
properly track the prior conversation about potential 
inefficiencies in the private sector. Can you reconcile that 
for me?
    Mr. Bolden. My comment about inefficiencies in the private 
sector? Congressman, I would have to go back and review what I 
said. I don't recall saying that. Everything has inefficiencies 
in it. We are trying to drive those inefficiencies by programs 
like LEAN, you know, 6 Sigma and other programs. So you may be 
referring to where I said is it going to be perfect, no, 
because we don't know how to do that yet.
    Mr. Wu. Very good. Thank you very much, Mr. Bolden. I 
appreciate it. I yield back the balance of my time.
    Chairman Gordon. Mr. Davis is recognized.

                        Ceding U.S. Preeminence

    Mr. Davis. Mr. Chairman, thank you very much. I have a 
brief comment, and then I will yield to Ms. Giffords.
    Thirty years ago, we endeavored, I think in, not in 
political visionary, but in the ideological politics, it has 
given us a debt increase of $1 trillion dollars, over $12 
trillion today. I look at the Gulf of Mexico, and I, it makes 
me feel like I live in a Third World country, when we cannot 
stop oil from oozing out into the Gulf.
    John Kennedy said we will send a man to the Moon and return 
him safely by the end of this decade. We had a decade to plan 
to go to the Moon, and we came back. I want to know your plans, 
you don't have to answer my question, I want to know the plans 
of NASA. How are we going to have a manned vehicle that will 
guarantee America will not be in a Third World category in 
space flight? That is all I am asking, and I will support the 
program.
    I yield to Ms. Giffords.

              Constellation Program Director Reassignment

    Ms. Giffords. Thank you, Mr. Davis, Mr. Chair, 
Administrator Bolden.
    Recently, we just received word that the Constellation 
program manager was removed from his position. Is that correct?
    Mr. Bolden. That is probably correct, ma'am.
    Ms. Giffords. Well, you would know. It is a pretty 
important position.
    Mr. Bolden. Well, I did not, it was not an action that I 
took or directed. It would be an action that would be taken by 
the Exploration Mission Directorate head, Doug Cooke, and the 
Johnson Space Center Director, Mike Coats. I have been in 
consultation with them about that, but, and my understanding 
was that they were going to get together with him this morning.
    Ms. Giffords. Mr. Bolden, my concern is, you know, 
particularly considering the news that we had last week, that 
the Program Manager was actually working hard to try to make 
the program work, given the constraints of the budget. But 
again, from where we sit, you know, his work to restructure and 
potentially save the parts of Constellation that need to be 
saved. By removing him from his position, I think it, again, it 
demonstrates to us that the question I asked you earlier, 
whether or not you would give this committee your assurance 
that you were doing everything that you can, as the NASA 
Administrator, to make progress with Constellation for the 
remainder of the fiscal year 2010, when the Constellation 
manager is removed from his position, it frankly makes me 
personally very dubious that that is, in fact, happening.
    So, you know, I am just, I am wondering, you know, again, 
the assurance that you can give to us in the United States 
Congress, that you are actually carrying this out, and whether 
or not the program will carry forward, and whether or not you 
were planning on replacing him with someone who is competent, 
and replacing him with someone expeditiously.
    Mr. Bolden. We would replace him with someone who is 
incredibly competent. I don't think I have anyone in the, you 
know, in the hierarchy of the Constellation Program or 
anywhere, that is not competent and has my confidence. And Jeff 
Hanley is not leaving NASA. Jeff Hanley is moving up to become 
the Deputy Director of the Johnson Space Center for Strategic 
Studies and Strategic Plans. He is an incredibly talented 
individual, and you know, Jeff and I have spoken for quite some 
time, since I became the NASA Administrator, about his future.
    Mr. Davis. Thank you, Mr. Bolden. And----
    Ms. Giffords. Thank you, Mr. Chairman. And again, because 
we have this very complex program, that demands a tremendous 
amount of oversight and management, again, it is of great 
concern to us that you take the manager out of his position and 
reassign him to another position. And I just want to let you 
know that I am very concerned by that.
    Chairman Gordon. Mr. Hill is recognized.
    Mr. Hill. Thank you, Mr. Chairman. Thank you, Mr. Bolden, 
for being here.
    I think by and large, most of us, or a lot of us believe 
that the image of NASA has been a success program. I mean, our 
second panel today is going to be, consist of men who have 
walked on the Moon. That is pretty impressive. And so, in the 
last, you know, 50 years or so, we have been very proud of the 
American efforts in outer space. And it has become a very 
patriotic thing.

                         Benefits of New Budget

    Now, you mentioned a few minutes ago that what you are 
wanting to do is risky. And of course, there is no risk, there 
is no rewards. Convince us, because I think a lot of us are 
skeptical. Even as we have listened to your testimony today, 
that the rewards to be derived because of this risky thing that 
you are talking about doing, can you tell us what those rewards 
are going to be?
    Mr. Bolden. Sir, it is going to be maintenance of American 
preeminence in space, continuance of our leadership as the 
acknowledged leader in human space flight and exploration.
    Mr. Hill. Well, I guess that is an answer. Perhaps a little 
bit simplistic. Why do you believe that we cannot do that under 
the present program?
    Mr. Bolden. Because it is unaffordable.
    Mr. Hill. And what you are wanting to do is affordable.
    Mr. Bolden. As I promised the chairman, I am going to bring 
him a budget and a program that will fit under a $19 billion 
budget for 2011, or I won't bring him a program. And I am going 
to bring that to him, to this committee.
    Mr. Hill. Okay. Thank you.
    Chairman Gordon. And Ms. Edwards is recognized.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you for 
your testimony, Administrator Bolden.

                         Termination Liability

    I just want to go back to the termination liability, and I 
know we have been over this, but a couple of things really just 
don't make sense to me. One is that the, these letters were 
asking for termination costs were sent, basically seven, eight 
months into the fiscal year. And that would mean about three 
quarters of the budget had been spent for that year, and so, 
you put the contractors in a position of being almost three 
quarters into a fiscal year, and then having to make 
adjustments to accommodate having to preserve the termination 
liability costs within their current contracts.
    How again is that fair to them, and didn't they have the 
benefit of a bargain at the outset, if that was going to be the 
requirement at the beginning of the year, to know that, so that 
they could accommodate their personnel and other costs 
accordingly? What I worry about is, so, for example, at one 
company, there is a young professional who is going to lose 
from the Constellation Program, is a 25 year old aerospace 
engineer, a graduate from the University of Michigan, 
transferred across the country to work on the program a year 
ago. And made the transfer, because he wanted to work on 
vehicles that would carry humans into low Earth orbit. Another 
young professional, a young Hispanic woman, a graduate from the 
University of Texas, degree in mechanical engineering, 
supported the program for two years, and she is assessing 
requirements and supporting development of test articles.
    These people and their capacity will be lost, because the 
only way for the contractors to whom you have sent these 
letters, the only choice that they have, really, is to let 
people go, because for them to eat the costs of, you know, a 
couple of hundred million dollars, on the off chance that 
somehow, they are going to end up competing successfully in 
commercial competition, and retain their talented workforce, I 
just think that is too much to expect of these contractors.
    We are going to lose these people. We are not going to lose 
them for a year or two years, or whatever it is down the line, 
when the competition finally comes into being and hiring 
starts. We will lose them permanently, because they will be off 
doing something else, someplace else. They may be in some other 
international space program, working, because they can't find 
that kind of work here. And so, or in some other sector of the 
industry entirely.
    And so, my concern is that it seems to me that you are 
operating really, one, outside of your authority. I mean, this 
Congress could not have been clearer in saying to the 
Administration, all breaks, hold, while we figure this out 
together. And the Administration, it seems to me, is going its 
own direction, irrespective of what the United States Congress 
wants, and that is just not acceptable.
    I want to add into the record a letter from Senator 
Mikulski to Peter Orzag, asking specifically about this, 
expecting a response, my understanding is by May 25. This 
committee deserves a response as well, because I think that the 
burden that you have now placed on your contractors is 
tremendous and cannot be met reasonably without, you know, at a 
time when we are actually struggling to create jobs in this 
country, and we are sending out these termination liability 
letters that inevitably result in the loss of highly skilled 
workers, a workforce that is completely demoralized. I mean, I 
am demoralized just looking at it.
    And I don't think that is really acceptable for the 
Administration that says that it cares about science and 
technology and research in the Twenty First Century. And if we 
are going to say to these young people like I described, sorry 
folks, go find something else to do for a couple of years, 
while we just figure it out, we will lose them. We will lose 
talent. This workforce will lose talent, and the United States 
will lose its preeminence, and I think that, I know I, for one, 
on this committee, don't intend to stand for it.
    And so, I look forward to a response from the 
Administration to Senator Mikulski's letter about these 
terminations, and I fully expect that NASA is going to comply 
with the law, and with the direction from this Congress to stop 
it. And I don't know that it can be said in any other plain 
language than that.
    Thank you very much.
    Chairman Gordon. Thank you, Ms. Edwards. And as our second 
panel starts to move along, Mr. Bishop, if you have one quick 
question, we will let you go for it.

                    Cost Estimates for Ares Program

    Mr. Bishop. Thank you, Mr. Chairman. I appreciate your 
courtesy, and even the ranking member, your fairness in this 
process. I appreciate that. I had just a couple of quick 
questions from----
    Chairman Gordon. You got one quick question here. And we 
got to get on to the next panel, sorry.
    Mr. Bishop. Okay. Let me go with the one quick question 
from General Bolden. And we have got to quit meeting like this, 
but there is only one way that is going to happen.
    There is almost an urban legend coming out of NASA and from 
press clippings as to the cost of the Ares rocket. You have 
received a letter from one of your fellow travelers, Charlie 
Precourt, that challenges that number, saying the actual cost 
is about half of what you are talking about, and subsequent 
flights would be in the range of $60 million.
    The question I have is, have you seen that letter, a 
response to it, and also, were you, when you came up with your 
calculations, realizing that in the Defense Authorization bill, 
the language will state that defense officials have estimated 
that the cost of propulsion systems could increase 40 to 100 
percent because of infrastructure costs currently shared by the 
Department of Defense and NASA, and they would be passed on to 
the Department of Defense.
    Finally, the committee believes that the health and long-
term viability of the solid rocket motor industrial base is a 
government-wide challenge. Am I correct on the assumption that 
the potential cost to Defense by the change in the program that 
NASA is recommending was not part of the original cost 
estimates for what Ares, Ares I or Ares V would be?
    So, have you seen the letter?
    Mr. Bolden. I think I have seen the letter to which you 
refer, from Charlie Precourt.
    Mr. Bishop. Has there been a response to his analysis?
    Mr. Bolden. I don't, I would have to find out, sir. I don't 
think we have responded to his letter yet. But I will----
    Mr. Bishop. Was cost to the Defense system that will be 
shared by taxpayers part of the original analysis of costs for 
running Ares?
    Mr. Bolden. Congressman, I will have to get back to you on 
that. I don't know the answer to that.
    Mr. Bishop. Can I help if I give you the answer?
    Mr. Bolden. You can.
    Mr. Bishop. No. All right.
    And with that, I do appreciate it. Some time, I just want 
to talk to you about this guy. This is the face of the people, 
who is celebrating his one week firing from this process, and I 
hope that at some time, I can tell him that the loss of his job 
was because either the government was going to save money, or 
come up with a program that was safer for astronauts, or it was 
in the public good, or the exigencies of the struggle, not 
simply because we decided to pick winners or losers within the 
free market system.
    Chairman Gordon. Thank you, Mr. Bishop.
    Mr. Bishop. I appreciate it.
    Chairman Gordon. And Mr. Bolden, thank you for your last 
two hours. We have enjoyed being with you. I hope you have 
enjoyed being with us.
    Mr. Bolden. Congressman, I have. I appreciate it. I 
appreciate the opportunity to address this committee and hear 
your concerns.
    Chairman Gordon. Well, you are going to get another 
opportunity.
    Mr. Bolden. Yes, sir.
    Chairman Gordon. And you are excused. And we will move now 
to our second panel.
    Mr. Bolden. Thank you, sir.
    Chairman Gordon. Our second panel has arrived, and I thank 
you for your patience. And I am sure you have had an 
opportunity to hear the earlier.
    So, at this time, I will introduce our witnesses. First of 
all is Mr. Neil Armstrong, who really needs no introduction to 
anyone in this room. Was the commander of the Apollo 11 
mission, and was the first person ever to set foot on the Moon. 
He also has a distinction, a distinguished career as an 
engineer, test pilot, professor, and is Vice President, or Vice 
Chairman of the Presidential Commission on the Space Shuttle 
Challenger accident.
    Next is Captain Eugene Cernan, who was the commander of 
Apollo 17 mission, and the last person to visit the Moon, 
almost 38 years ago--was it 38 years ago?--in 1972. He had a 
distinguished career at NASA, and also has had a significant 
leadership experience in the commercial sector.
    And finally, Mr. A. Thomas Young, who was the Executive 
Vice President of Lockheed Martin corporation, former President 
of Martin Marietta. Mr. Young has provided significant service 
to the Nation over the years, by leading independent reviews of 
major civil and military space programs, including most 
recently, the NPOESS Program. What a mess that was. We could 
do, if we could have that money back, we could do all these 
things.
    He has been an invaluable resource for this committee, and 
we look forward to hearing his testimony today.
    So welcome, and Mr. Armstrong, you may proceed.

       STATEMENTS OF NEIL ARMSTRONG, COMMANDER, APOLLO 11

    Mr. Armstrong. Thank you, Mr. Chairman and members. I very 
much appreciate your invitation to allow me to present my 
assessments of the new NASA plan based on the President's 2011 
budget submittal.
    If one of the goals of government is to motivate its 
citizenry, and to be the best it can be, few government 
agencies will surpass NASA in that function. I have met 
countless now middle-aged adults who credit NASA's human space 
programs for inspiring them to study hard in order to master 
and excel in their chosen field. And they are not just in 
aerospace, but in education, and astronomy, and computer 
science, and engineering, and medicine.
    Some question why America should return to the Moon. After 
all, they say, we have already been there. I find that 
mystifying. It is as if 16th century monarchs proclaimed that 
we need not go to the New World. We have already been there. Or 
if President Thomas Jefferson announced in 1808 that Americans 
not need, need not go west of the Mississippi, because Lewis 
and Clark have already been there.
    Americans have visited and examined six locations on Luna, 
varying in size from a suburban lot to a small township. That 
leaves more than 14 million square miles yet to be explored. 
And there is much to be learned on Luna. Learning to survive in 
the lunar environment, investigating many science 
opportunities, determining the practicality of extracting 
helium-3 from the lunar regolith, prospecting for platinum 
group metals, meeting challenges not yet identified.
    The lunar vicinity is an exceptional location to learn 
about traveling to different, difficult, distant places. 
Largely removed from Earth gravity and Earth's magnetosphere, 
it provides many of the challenges of flying far from Earth. 
But communication delays with Earth are less than two seconds, 
permitting mission control on Earth to play an important and 
timely role in flight operations.
    In the case of severe emergencies, such as Jim Lovell's 
Apollo 13, Earth is only three days travel time away. The long 
communication delays to destinations beyond the Moon may 
mandate new techniques and procedures for spacecraft 
operations. Mission control cannot provide a Mars crew their 
normal helpful advice if the landing trajectory is nine minutes 
long, but the time delay of radar, communications, and 
telemetry back to Earth is 19 minutes.
    Flight experience at lunar distance can provide valuable 
insights into practical solutions for handling such challenges. 
I am persuaded that a return to the Moon would be a most 
productive path to expanding the human presence in the Solar 
System.
    Mr. Chairman, you asked that I present my priorities for 
the human space program, and I suggest that first, we maintain 
American leadership. Second, we guarantee American access to 
space. And third, we continue to explore the Solar System. 
Leadership, access, exploration. Those are my priorities.
    The issue facing this meeting has produced substantial 
turmoil among space advocates, so many normally knowledgeable 
people were completely astounded by the President's proposal. 
Had the announcement been preceded by a more typical review, 
analysis, and discussion among the executive branch, the 
agency, this Congress, and all the other interested and 
knowledgeable parties, no Member of this Committee would have 
been surprised by the announcement of a new plan.
    In this case, a normally collegial sector of society was 
split in many fragments. Some focused on contracts and money, 
some on workforce and jobs, some on technical choices. All 
because a few planners, with little or no space operations 
experience, attempted an end-run on the normal planning 
process. And it has been painful to watch.
    Mr. Chairman, I sincerely hope that the Members of this 
Committee, and all others involved in this process, will work 
openly together to provide a plan which will be the best choice 
for our country.
    Thank you.
    [The prepared statement of Mr. Armstrong follows:]

                  Prepared Statement of Neil Armstrong

    Mr. Chairman and Members, I appreciate your invitation to present 
my assessments on the new NASA plan based on the President's 2011 
Budget Submittal.
    I am, admittedly, an aerospace enthusiast, having spent 17 years at 
NASA and its predecessor agency, NACA, prior to joining a university 
faculty to teach aerospace engineering. I was a member of the National 
Commission on Space and Vice Chairman of the Presidential Commission on 
the Space Shuttle Challenger Accident. I finished my active career in a 
company manufacturing a wide variety of highly engineered aerospace 
products and, more recently, served on the NASA Advisory Council. I 
still get excited about great new ideas.
    If one of the goals of government is to motivate its citizenry to 
`be the best that they can be', few government agencies will surpass 
NASA in that function. I have met countless now middle aged adults who 
credit NASA's human space programs for inspiring them to study hard in 
order to master and excel in their chosen field. And they are not just 
in aerospace, but in education, astronomy, computer science, medicine, 
and engineering.
    The motivating quality of NASA programs and people is, I believe, 
due to its success in achieving leadership status in space travel and 
exploration, and to its enduring tenacity in exploring the frontiers of 
the cosmos. That is one reason why maintaining that leadership position 
is so important to our country. But it is certainly not the only 
reason. Success in expanding our understanding of the universe that 
surrounds us, and sharing that information with others around the 
globe, engenders respect and admiration from people and governments 
around the world. Discoveries and developments at technology's edge 
produce new theories, new products, new systems, and ultimately, new 
ways of living. Who, at the time of Sputnik, would have suspected that, 
two generations later, golfers would be determining their distance to 
the flagstick using a Satellite based GPS? Or that we could measure the 
rate at which the moon is moving away from Earth (currently about 1.5 
inches/year)?
    Management gurus have written endless analyses of push versus pull 
strategies. The applications are ubiquitous: marketing, advertising, 
manufacturing, development, etc. The new NASA plan includes technology 
push funding for research and the hope of `breakthroughs' to hasten our 
success in developing craft to carry humans to distant cosmic 
destinations. Some have compared this approach to that of the National 
Advisory Committee for Aeronautics (NACA), the predecessor of NASA, 
whose only work was research and only product was reports. Some have 
assumed that NACA was completely a technology push agency.
    As one of the small and ever diminishing number of NACA alumni, I 
can confirm that NACA did, in fact, conduct some technology push 
projects, such as the NACA airfoil series, the NACA engine cowl and 
supersonic boundary layer heat transfer. On the other hand, most 
research efforts were `pull' projects, identified by the aeronautical 
industry and the military as problems that required solutions, and NACA 
help was requested. Examples are stability requirements for aircraft at 
supersonic speeds, understanding and solutions for transonic `tuck', 
pitch-up, and roll coupling, practical variable sweep wings, and 
supersonic drogue chute development.
    That work was exciting and fascinating. It was, day by day, perhaps 
the most genuinely satisfying work of my life. But it was not 
motivating to the general public. Rarely was the general public even 
aware of the remarkable research work that was going on in the NACA 
laboratories and flight tests. My experience in both pull and push 
operations leads me to conclude that pull research attached to an 
operational space exploration program would be substantially more 
likely to produce usable results in a timely manner.
    Project selection and budgeting in the new NASA plan appears to 
have been heavily dependent on the observations and options presented 
in Seeking a Human Spaceflight Program Worthy of a Great Nation (HSP), 
familiarly known as the Augustine Committee report. It is interesting 
to review the constraints under which the Augustine Committee operated, 
and the effects that those constraints imposed on their findings.
    The committee was ``asked to provide two options that fit within 
the 2010 budget profile'' (HSP p. 15). The two options selected were 
the ``Constellation Program of record'' and the ``ISS and Lunar 
Exploration''. The funding available for Constellation under the 2010 
Presidential Budget Submittal was more than $1.5 billion per year below 
the 2009 Budget and about $3 billion per year below the original 
funding plan based on the Exploration Systems Architecture Study The 
Committee quite properly concluded that the program would be delayed 
and cost more and Ares and Orion would be too late to serve the 
International Space Station, scheduled for termination in 2015. They 
found that ``human exploration beyond low Earth orbit is not viable 
under the FY 2010 budget guideline'' (HSP p. 96).
    It is improper to conclude that Constellation was beyond help. 
Constellation managers believe they would have been in reasonable shape 
had NASA been provided the funding of the 2009 President's Budget 
Submittal or even the 2011 Budget. Indeed, Mr. Augustine in his 
testimony to this committee last September said: ``. . . we believe 
that the existing program, given adequate funds, is executable and 
would carry out its objectives.''
    In determining the reasonableness of competing concepts to be 
compared, the Aerospace Corporation (Aerospace) was engaged by the 
Augustine Committee to provide estimates on cost and schedule. Your 
Subcommittee on Space and Aeronautics, thoughtfully, saw fit to ask 
Aerospace to provide details of that process.
    Aerospace projected the development costs for a 4 person commercial 
spacecraft with launch abort system at 12 billion 2009 dollars plus $8 
billion for the launch rocket. Similarly, costs for a 6 person 
spacecraft would be $17 billion (spacecraft + LAS) plus $10 billion 
(launcher) respectively. The Committee assumed NASA would contribute 3 
billion dollars to this project, which Aerospace, using historical 
growth and other factors, raised to 5 billion dollars (HSF, p. 70). The 
contribution remaining for the commercial provider is a very 
substantial investment and, if accurate, raises questions about the 
ability and willingness of a public or private company to accept that 
financial risk. Aerospace stated their assumption was that three 
competitors would bid and two would be selected. They further assumed 
that NASA would need two flights per year to the ISS. A reasonable 
business case supporting this proposal is elusive.
    Some question why America should return to the moon. ``After all'', 
they say, ``we have already been there.'' I find that mystifying. It 
would be as if 16th century monarchs proclaimed that ``we need not go 
to the New World, we have already been there.'' Or as if President 
Thomas Jefferson announced in 1808 that Americans ``need not go west of 
the Mississippi, the Lewis and Clark expedition has already been 
there.''
    Americans have visited and examined 6 locations on Luna, varying in 
size from a suburban lot to a small township. That leaves more than 14 
million square miles yet to explore. There is much to be learned on 
Luna, learning to survive in the lunar environment, investigating many 
science opportunities, determining the practicality of extracting 
Helium 3 from the lunar regolith, prospecting for palladium group 
metals, and meeting challenges not yet identified.
    The lunar vicinity is an exceptional location to learn about 
traveling to more distant places. Largely removed from Earth gravity, 
and Earth's magnetosphere, it provides many of the challenges of flying 
far from Earth. But communication delays with Earth are less than 2 
seconds permitting Mission Control on Earth to play an important and 
timely role in flight operations. In the case of a severe emergency, 
such as Jim Lovell's Apollo 13, Earth is only 3 days travel time away.
    Learning how to fly to, and remain at, Earth-Moon Lagrangian points 
would be a superb precursor to flying to and remaining at, the much 
farther distant Earth-Sun Lagrangian points.
    And flying to further away destinations from lunar orbit or Lunar 
Lagrangian points could have substantial advantages in flight time and/
or propellant requirements as compared with departures from Earth 
orbit. And flying in the lunar vicinity would typically provide lower 
radiation exposures than those expected in interplanetary flight.
    The long communication delays to destinations beyond the moon 
mandate new techniques and procedures for spacecraft operations. 
Mission Control cannot provide a Mars crew their normal helpful advice 
if the landing trajectory is 9 minutes long but the time delay of the 
radar, communication and telemetry back to Earth is 19 minutes. Flight 
experience at lunar distance can provide valuable insights into 
practical solutions for handling such challenges. I am persuaded that a 
return to the moon would be the most productive path to expanding the 
human presence in the Solar System.
    Mr. Chairman, you asked that I present my priorities for the human 
space program. I suggest that:

        1)  We maintain American leadership

        2)  We guarantee American access

        3)  We continue to explore the Solar System

    Leadership, access, and exploration are my priorities.
    This issue facing this meeting has produced substantial turmoil 
among space advocates. So many normally knowledgeable people were 
completely astounded by the President's proposal. Had the announcement 
been preceded by the typical review, analysis and discussion among the 
Executive branch, the agency, the congress, and all the other 
interested and knowledgeable parties, no Member of this Committee would 
have been surprised by the announcement of a new plan.
    In this case, a normally collegial sector of society was split in 
many fragments, some focused on contracts and money, some on work force 
and jobs, some on technical choices. All because a few planners, with 
little or no space operations experience, attempted an end run on the 
normal process. It has been painful to watch.
    Mr. Chairman, I sincerely hope the members of this Committee, and 
all the others involved in this process, will work openly together to 
provide a plan which will be the best choice for our country.

    Chairman Gordon. Thank you, Mr. Armstrong, and I hope you 
will be a part of that with us, as we have this transparency.
    Mr. Armstrong. Thank you, sir.
    Chairman Gordon. Mr. Cernan is recognized. You want to hit 
your microphone.

STATEMENTS OF CAPTAIN EUGENE A. CERNAN, USN (RET.), COMMANDER, 
                           APOLLO 17

    Captain Cernan. Excuse me. Thank you, Mr. Chairman. I also 
sincerely appreciate the opportunity to express my personal 
views concerning the Administration's ``game changing proposal 
for the future of America's role in human exploration of 
space.''
    In my written testimony, I have gone into significant 
detail in what I consider the most critical aspects of the 
President's proposal, so in the interest of time, I will focus 
primarily on those items that you had put in the invitation to 
be here today.
    Several weeks ago, we became aware of the Administration's 
plan for our Nation's role in the future of space exploration. 
Neil Armstrong, Jim Lovell, and myself felt compelled to voice 
our concern, and did so in an opinion paper signed by the three 
of us. We spent a great deal of time writing and refining our 
document, choosing our words very, very carefully. Words such 
as ``devastating,'' ``slide to mediocrity,'' and ``third-rate 
stature,'' so that the intent of our message would neither be 
misinterpreted nor our deep concern about the future direction 
of human space flight as outlined in the President's proposal, 
be misunderstood.
    We particularly wanted to avoid any political overtones, 
because since its beginning, America's role in space has 
traditionally transcended political and partisan differences. 
We have recently heard a lot of eloquent verbiage about 
exploration of space, landing on an asteroid, circling Mars, 
and at some time in the future, perhaps even landing on the Red 
Planet.
    There is talk about a decision yet to come of building a 
large booster, which might ultimately take us almost anywhere 
we want to go in the far reaches of the universe. There are, 
however, no details, no specific challenge, and no commitment 
as to where or, specifically, when this exploration might come 
to pass.
    And when one comes to examine the details of the 2011 
budget proposal, nowhere, nowhere can be found, not one penny, 
allocated to support space exploration. Yes, there has been 
much rhetoric about transformative technology, heavy lift 
propulsion research, robotic precursor missions, as well as 
other worthwhile endeavors in their own right. Yet nowhere do 
we find any mention of human exploration of space, and nowhere 
do we find a commitment in dollars to support this all 
important endeavor.
    We, Neil Armstrong, Jim Lovell, and myself, have come to 
the unanimous conclusion that this budget proposal presents no 
challenges, has no focus, and is, in fact, a blueprint for a 
mission to nowhere. In this proposal budget, we find several 
billions of dollars allocated and allotted to developing 
commercial human access to low Earth orbit, based upon the 
assumption, the sole assumptions and claims by those competing 
for this exclusive contract, who say they can achieve this goal 
in a little bit more than three years, and do it for something 
less than $5 billion.
    Even the Administration has shown some concern over these 
claims, by admitting a willingness, if necessary, to subsidize 
commercial, the commercial enterprise, until it ultimately, 
whenever that may be, becomes successful, calculated by some to 
be as long as a decade or more, with costs raising by at least 
a factor of three.
    This assumes they have the capability in hand to design, to 
build, to flight-test and develop, a man-rated, man-rated 
spacecraft and booster architecture meeting the stringent 
requirements for safety, along with the infrastructure that is 
required for such a venture.
    While I strongly support the goals and ideals of commercial 
access to space, the folks who proposed such a limited 
architecture do not yet know what they don't know, and that can 
lead to dangerous and costly consequences.
    Based upon my own personal background and experience, I 
submit to this committee and to the Congress of the United 
States, and I do support the view that it will take the private 
sector as long as ten years to access low Earth orbit safely 
and cost-effectively. A prominent Russian academician is quoted 
as saying: In order to bring a craft to the standard of quality 
and safety for piloted flight, the United States will be 
dependent upon Russia at least until 2020. Such a commercial 
venture, should such a commercial venture run into 
insurmountable technical problems, business venture concerns, 
or God forbid, a catastrophic failure, it would leave the 
United States without a fallback program, unable to access even 
low Earth orbit for some indeterminate time in the future.
    And without an extension of the Space Shuttle on the front 
end and viable access to low Earth orbit on the far end, the 
gap, as we call it, the period when America would be grounded, 
could extend indefinitely.
    The sole reliance on the commercial sector, without a 
concurrent or backup approach, could very well lead to the 
abandonment of our $100 billion Space Station, $100 billion and 
25 year investment in the Space Station, a default on our 
commitments to our international partners, and will ultimately 
close the, cost the American taxpayer billions of unallocated 
dollars, and surely lengthen the gap from Shuttle retirement 
until the day we can once again access low Earth orbit, leaving 
us hostage to foreign powers.
    Is this one of the potential grand challenges of the 21st 
century? The United States, through NASA, has spent half a 
century learning what we didn't know, finding answers to 
questions we weren't smart enough to ask at the time, 
developing technology that was needed to meet a challenge, to 
get the job done.
    We came from Alan Shepard's flight in 1961 to the Shuttle 
and Space Station today, with a side trip or two to the Moon 
along the way. The evolution of this learning process was not 
without its costs, not just in dollars, but in the lives of our 
friends and colleagues. It took the courage, the effort, the 
dedication, and the self-sacrifice of thousands of Americans to 
bring us this far this quickly. And although we paid dearly for 
our mistakes, it is a testimonial to their commitment, and to 
American ingenuity, that everyone who went to the Moon came 
home.
    Therein is a lesson we cannot afford to ignore. Mr. 
Chairman, is this the NASA we want to transform? Constellation 
is an architecture that, over a five year period, has gone 
through several detailed reviews, and has been vetted by every 
government agency from the OMB to the DoD, and certainly by 
NASA, by every agency that has an ownership interest in a 
technical scientific budget, or other benefit to be derived 
from human space exploration.
    In additional, an arsenal of the best engineers and 
scientists that you have to offer, Mr. Young, and management 
experts in the aerospace community added their knowledge and 
expertise to the review of the proposed Constellation 
architecture before it ever even was considered to be worthy of 
moving forward.
    Constellation follows the von Braun model of the evolution 
of the Saturn V. We are in the development of the Ares V, or 
excuse me, we are in the development of the Ares I, is the 
embryo for the development of the heavy lift Ares V. The shared 
DNA, with commonality of critical components throughout, leads 
to greater cost effectiveness, a higher degree of confidence 
and safety, and provides the first elements of a heavy lift 
booster now.
    It is not unlike the Boeing family of jetliners, where the 
technology built into the 787 evolved from that of the 707. 
Embedded in the Constellation architecture is a culture of a 
long range building block that can not only service the ISS, 
extend the life of the Hubble, meet other national security 
priorities in low Earth orbit, but additionally, can carry us 
back to the Moon and on to Mars.
    In doing so, it makes use of existing hardware and 
facilities, while developing new technologies with a purpose, 
with a direction. Exploration is what drives technology 
innovation, not the reverse. It is unknown how much time and 
thought was put into the existing budget for 2011, or by whom 
the proposal was generated, but it is common knowledge that 
very few, if any of those government agencies referred to above 
were asked to participate. Nor, significant note, was the DoD 
or the engineering management expertise that exists throughout 
NASA today, with no transparency, no transparency, one can only 
conclude that this proposal was most likely formulated in haste 
by a very few within the Offices of Management and Budget, or 
the Science and Technology Policy, with alleged involvement of 
the NASA Deputy Administrator and, by his own admission, with 
little or no support input from the NASA Administrator himself.
    Neither did NASA Center Directors, nor senior NASA 
management throughout the agency, nor program managers have any 
input. If that is, indeed, the case, the originators quite 
likely were promoting their own agenda, rather than that of 
NASA and America's commitment to human space exploration. And 
effectively leads NASA to becoming nothing more than a research 
facility.
    My personal belief is that this proposal, Mr. Chairman, is 
a travesty, which flows against the grain of over 200 years of 
our history, and today, against the will of the majority of 
Americans. The space program has never been an entitlement. It 
is an investment. It is an investment in the future, an 
investment in technology, in jobs, in international respect, in 
geopolitical leadership, and perhaps most importantly, which 
has been stated here very well by Neil, perhaps most 
importantly, the inspiration and the education of our youth.
    Those best and brightest minds at NASA and throughout the 
multitudes of the private contractors, large and small, did not 
join the team to design windmills or to redesign gas pedals, 
but to live their dreams of once again taking us where no man 
has gone before.
    If this budget proposal becomes the law of the land, these 
technicians, these engineers, scientists, and a generation 
removed from Apollo, yet re-inspired by the prospect of going 
back to the Moon and onto Mars, will be gone. Where, I don't 
know, but they will be gone.
    In conclusion, Mr. Chairman, history has shown that 
America's human space flight program has, for over half a 
century, risen above, excuse me, above partisan differences. 
From Eisenhower to Kennedy, to the present day, the challenges 
and accomplishments of the past were those of a Nation, never a 
political party, nor of any individual agenda.
    Those flags which fly today on the surface of the Moon are 
not blue flags and are not red flags. They are American flags. 
We are at a crossroad. If we abdicate our leadership in space 
today, not only is human space flight and space exploration at 
risk, but I believe the future of our country is at risk, and 
thus, the future of our children and our grandchildren, as 
well.
    Now is the time, Mr. Chairman, for wiser heads, in the 
Congress of the United States, to prevail. Now is the time to 
overrule this Administration's pledge to mediocrity. Now is the 
time to be bold, to be innovative and wise in how we invest in 
the future of America. Now is the time to reestablish our 
Nation's commitment to excellence.
    Thank you, Mr. Chairman, and the Members of this Committee, 
for allowing me to share my concern and my passion for the 
future of this country.
    [The prepared statement of Captain Cernan follows:]

                  Prepared Statement of Eugene Cernan

    Thank you, Mr. Chairman, for giving me the opportunity today to 
express my personal views concerning The Administration's ``game-
changing'' proposal for the future of America's role in Human 
Exploration in Space.
    Some weeks ago when we became aware of The Administration's plan 
for our nation's role in the future of space exploration, Neil 
Armstrong, Jim Lovell and I felt compelled to voice our concern and did 
so in an opinion paper signed by the three of us. We spent a great deal 
of time writing and refining our document, choosing our words very 
carefully, words such as ``devastating'', ``slide to mediocrity'', and 
``third rate stature'', so that the intent of our message would neither 
be misinterpreted nor would our deep concern about the future direction 
of human space flight as outlined in the President's proposal be 
misunderstood. We particularly wanted to avoid any political overtones 
because the support of America's role in space since its beginning has 
traditionally transcended partisan politics.
    It was determined after the Columbia accident that NASA should 
return to its core values, focusing its resources once again on space 
exploration while continuing its space exploitation through the Space 
Shuttle support of the International Space Station (ISS) and other 
national priorities of Low Earth Orbit (LEO). The Congress supported 
such a focus with a near-unanimous bipartisan approval in both the 2005 
and 2008 NASA Authorization Acts.
    We have recently heard a lot of eloquent verbage about the 
exploration of space--landing on an asteroid, circling Mars, and at 
some time in the future perhaps landing on the Red Planet. There is 
talk about a decision yet to come of building a large booster which 
might ultimately take us almost anywhere we want to go into the far 
reaches of the universe. There are, however, no details, no specific 
challenge, and no commitment as to where or specifically when this 
exploration might come to pass. My personal definition of space 
exploration, in contrast to exploitation, is ``going where no man has 
gone before, doing what has never been done before, doing what others 
couldn't do, wouldn't do, or perhaps were afraid to do.''
    And, when one examines details of the FY 2011 budget proposal, 
nowhere is there to be found one penny allocated to support space 
exploration. Yes, there has been much rhetoric on transformative 
technology, heavy lift propulsion research, robotic precursor missions, 
significant investment in commercial crew and cargo capabilities, 
pursuit of cross-cutting space technology capabilities, climate change 
research, aeronautics R&D, and education initiatives, all worthwhile 
endeavors in their own right. Yet nowhere do we find any mention of the 
Human Exploration of Space and nowhere do we find a commitment in 
dollars to support this all important national endeavor. We (Armstrong, 
Lovell and I) have come to the unanimous conclusion that this budget 
proposal presents no challenges, has no focus, and in fact is a 
blueprint for a mission to ``nowhere.''
    In this proposed budget we find several billions of dollars 
allotted to developing commercial human access to low Earth orbit, 
based upon the assumptions and claims by those competing for this 
exclusive contract who say that they can achieve this goal in little 
more than three years, and that it can be done for something less than 
5 billion dollars. Even The Administration has shown some concern over 
these claims by admitting a willingness to subsidize the commercial 
enterprise until it ultimately becomes successful, calculated by some 
to be as long as a decade or more with costs rising by a factor of 
three. (These are the same entrepreneurs who are well over a year late 
delivering the first unmanned cargo to LEO.) This assumes they have the 
capability in hand to design, build, flight test, and develop a man-
rated spacecraft and booster architecture meeting the stringent 
requirements for safety along with the infrastructure required for such 
a venture. Infrastructure such as redesigning the requirements of 
mission control, developing and supporting training simulators, writing 
technical manuals for ground and crew training including all onboard 
procedures, developing the synergy between a worldwide tracking network 
and the uniqueness of a newly designed space vehicle along with an 
emergency recovery force standing by to handle this new space 
architecture. These are only a few of the development and support 
requirements necessary to put any new manned system into space. 
Although I strongly support the goals and ideals of commercial access 
to space, the folks who propose such a limited architecture ``do not 
yet know what they don't know'', and that can lead to dangerous and 
costly consequences. There are a myriad of technical challenges in 
their future yet to be overcome, perhaps of greatest importance are 
safety considerations which cannot be, nor will be, compromised as well 
as a business plan and investors that will have to be satisfied. For 
example, it took over a year and a half of review and redesign of the 
Apollo I hatch prior to ever getting Apollo 7 off the ground, before 
operational and safety requirements were fully satisfied.
    Based upon my background and experience, I submit to this Committee 
and do support the view that it will take the private sector as long as 
ten years to access LEO safely and cost-effectively. A prominent 
Russian academician is quoted as saying in order to bring a craft to 
the standard of quality and safety for piloted flight, the United 
States will be dependent on Russia until at least 2020. The Aerospace 
Corporation, although directed not to examine the data submitted on 
cost and schedule by the commercial sector, estimates an initial cost 
of 10-12 billion dollars, plus the added cost of modifications required 
to launch vehicle ground systems. Should such a commercial venture run 
into insurmountable technical problems, business venture concerns, or--
God forbid--a catastrophic failure, it would leave the United States 
without a fallback program, unable to access even low Earth orbit for 
some indeterminate time in the future. Without an extension of the 
Shuttle on the front end and viable access to LEO on the far end, ``the 
gap'', or the period of time when America is grounded, could very well 
be extended indefinitely.
    The sole reliance on the commercial sector without a concurrent or 
back-up approach could very well lead to the abandonment of our 100 
billion dollar, 25 year investment in the ISS, default on our 
commitments to international partners, and will ultimately cost the 
American taxpayer billions of unallocated dollars and surely lengthen 
``the gap'' from Shuttle retirement until the day we can once again 
access low Earth orbit leaving our nation hostage to foreign powers. 
Moreover, for a variety of reasons, a ``Going Out of Business'' sign 
hanging on the door is always a possibility in any high dollar-high 
risk investment. Is this one of our ``Potential Grand Challenges'' of 
the 21st century?
    The United States, through NASA, has spent a half-century learning 
what we didn't know, finding answers to questions we weren't smart 
enough to ask at the time, developing technology that was needed to 
meet the challenge and get the job done. We came from Alan Shepard's 
flight in 1961 to the Shuttle and Space Station today with a side trip 
or two to the moon along the way. The evolution of this learning 
process was not without its cost--not just in dollars, but also in the 
lives of our friends and colleagues. It took the courage, effort, 
dedication and self-sacrifice of thousands of Americans who allowed us 
to come this far this quickly. And, although we paid dearly for our 
mistakes, it is a testimonial to their commitment and American 
ingenuity that everyone who went to the moon came home. Therein is a 
lesson we cannot afford to ignore. Is this the NASA we want to 
transform?
    Additionally, The President's proposal suggests we develop ``game-
changing'' technology for the future. The technology we enjoy today, 40 
years after Apollo, is technology that evolved from a purpose, from the 
acceptance of a challenge and from a commitment to a goal. It was 
technology with a focus, with a mission. To simply put the best and the 
brightest in a room and tell them to develop breakthrough technology 
that could or might or may be useful in the future is a naive 
proposition. Exploration drives technology innovation--not the reverse.
    Also in the proposal is the possibility that maybe, at some time, 
perhaps as far down the road as 2015, the United States might decide to 
develop a heavy lift booster. This is a very vague proposition, one 
that will likely never be funded to fruition. Coincidentally, 
Constellation has a heavy lift booster, Ares V, not only on the drawing 
boards but in component test today. Do we need a decision in 2015 for 
one already made today?
    A late addition to the Administration's proposal, and one very 
obviously not well thought out, was a provision to build an ``Orion 
Lite'' spacecraft as a rescue vehicle on the ISS. Although we have 
never had need for a rescue vehicle, we have today under contract with 
Russia two Soyuz continuously stationed on the ISS capable of carrying 
as many as six people to safety should the need arise, with a provision 
for a third Soyuz were the crew complement ever to increase to as many 
as nine--which is highly unlikely. An ``Orion Lite'', before it is 
qualified to transport human beings to safety from the ISS, certainly 
would have to be man-rated. To man-rate a spacecraft and its ride into 
orbit requires a great deal more than following a list of safety 
requirements and protocol instructions included in its development. The 
``Orion Lite'' would have to go through an extensive development, test 
and evaluation phase before being qualified to carry humans. It sounds 
very similar to what the existing Ares I/Orion development proposal is 
all about and would most likely cost as much, and require the same 
amount of time to bring it to man-rated flight status, yet leave us 
with half the capability of a full up Orion.
    Constellation itself is an architecture that over a five-year 
period has gone through several detailed reviews and has been vetted by 
every government agency from the OMB to the DOD, and certainly by 
NASA--by every agency that has an ownership interest in any technical, 
scientific, budget or benefit to be derived from Human Space 
Exploration. In addition, an arsenal of the best engineers, scientists 
and management experts in America's aerospace community added their 
knowledge and expertise to the review of the proposed Constellation 
architecture before it ever became an official program worthy of 
consideration. Constellation follows the Von Braun model in the 
evolution of the Saturn V, wherein the development of the Ares I is the 
embryo for the development of the heavy-lift Ares V. This shared DNA, 
with commonality of critical components throughout, leads to greater 
cost effectiveness, a higher degree of confidence and safety, and 
provides the first elements of a heavy lift booster. It is not unlike 
the Boeing family of jetliners wherein the technology built into the 
787 evolved from that of the original 707.
    Embedded in the Constellation architecture is the culture of a 
long-range building block that cannot only service the ISS, extend the 
life of the Hubble, meet other national priorities in LEO, but 
additionally can carry us back to the moon and on to Mars. In doing so, 
it makes use of existing hardware and facilities while developing new 
technologies with a purpose. Appropriately under the law, both Houses 
of the Congress of the United States with overwhelmingly bipartisan 
support, approved and agreed that Constellation should go forward.
    In contrast to the five-year review of the overall Constellation 
architecture plus the carefully monitored program development, the 
Augustine Committee was required to provide their report in 90 days. 
The report contained several suggestions and alternatives to 
Constellation, few of which were included in the FY 2011 budget, but 
ultimately the Committee came to the conclusion that Constellation's 
architecture had been well managed and is indeed executable, providing 
it has the appropriate funding that had been denied for several years. 
Important to note is that the Committee was directed to base their 
conclusions and recommendations not on the FY 2009 budget, but rather 
on the FY 2010 budget from which tens of billions of dollars had 
already been removed between 2010 and 2020. Additionally, their 
conclusions were based upon a 2015, not 2020, life span for the ISS and 
did not take into account ongoing requirements for access to LEO at 
other inclinations. Naturally, the Augustine Committee concluded that 
Constellation was not doable within the constraints of The 
Administration's mandated guidelines and budget restrictions. Under 
these constraints, one might have expected the conclusions to be 
predetermined. More importantly, however, the funding proposed for FY 
2011, if prudently administered, is more than adequate to continue the 
development of Constellation.
    It is unknown how much time and thought was put into the existing 
budget proposal for FY 2011, or by whom this proposal was generated, 
but it is common knowledge that few if any of those government agencies 
referred to above were asked to participate, nor, of significant note, 
was the DOD or the engineering or management expertise that exists 
throughout NASA today. With no transparency, one can only conclude that 
this proposal was most likely formulated in haste by a very few within 
the Offices of Management and Budget (OMB) and Science and Technology 
Policy (OSTP), with the alleged involvement of the NASA Deputy 
Administrator, and by his own admission, with little or no input from 
the NASA Administrator himself Neither did NASA's Center Directors, nor 
senior NASA management throughout the agency, nor program managers have 
any input. If that is indeed the case, the originators quite likely 
were promoting their own agenda rather than that of NASA and America's 
commitment to Human Space Exploration as directed by Congress in the 
Authorization Bills of 2005 and 2008.
    With the submission of FY 2011 budget, The Administration and the 
originators of this proposal were either misinformed or showing extreme 
naivete, or I can only conclude, are willing to take accountability for 
a calculated plan to dismantle America's leadership in the world of 
Human Space Exploration resulting in NASA becoming nothing more than a 
research facility. In either case, I believe this proposal is a 
travesty which flows against the grain of over 200 years of our history 
and, today, against the will of the majority of Americans.
    The space program has never been an entitlement, it's an investment 
in the future--an investment in technology, jobs, international respect 
and geo-political leadership, and perhaps most importantly in the 
inspiration and education of our youth. Those best and brightest minds 
at NASA and throughout the multitudes of private contractors, large and 
small, did not join the team to design windmills or redesign gas 
pedals, but to live their dreams of once again taking us where no man 
has gone before. If this budget proposal becomes the law of the land, 
these technicians, engineers, scientists, a generation removed from 
Apollo, yet re-inspired by the prospect of going back to the moon and 
on to Mars, will be gone--where I don't know--but gone.
    America's human space flight program has for a half century risen 
above partisan differences from Eisenhower to Kennedy to the present 
day. The challenges and accomplishments of the past were those of a 
nation--never of a political party or of any individual agenda. Those 
flags that fly on the moon today are neither blue flags nor are they 
red flags--they are American Flags. We are at a cross road. If we 
abdicate our leadership in space today, not only is human spaceflight 
and space exploration at risk, but I believe the future of this country 
and thus the future of our children and grandchildren as well. Now is 
the time for wiser heads in the Congress of the United States to 
prevail. Now is the time to overrule this Administration's pledge to 
mediocrity. Now is the time to be bold, innovative and wise in how we 
invest in the future of America. Now is the time to re-establish our 
nation's commitment to excellence.
    Thank you Mr. Chairman and members of the Committee for this 
opportunity to share my concern and passion for that which means most--
the future of our country!

Sincerely, and with respect,

Eugene A. Cernan
Commander, Apollo XVII

    Chairman Gordon. Thank you, Captain. I think you are ready 
to suit up again. Mr. Young, you are recognized.

     STATEMENTS OF A. THOMAS YOUNG, LOCKHEED MARTIN (RET.)

    Mr. Young. Chairman Gordon, Mr. Hall, and Committee 
members, I am pleased to have the opportunity to present my 
views on the proposed United States human space flight program.
    My judgment is that implementation of the proposed human 
space flight program will be devastating to NASA, human space 
flight, and the United States space program. For five decades, 
the United States robotic and human exploration program had 
remarkable successes that have filled our books of knowledge, 
explored new worlds, enhanced our international reputation, and 
given pride and inspiration to our fellow Americans.
    We have also had disappointing failures. We have developed 
a mission success methodology that maximizes the probability of 
success, a methodology that has evolved over the life of the 
space program, and continues to improve with the experience 
gained with the execution of each new project.
    A hallmark of the methodology is the recognition that space 
flight is a one strike and you are out business. Thousands of 
individuals can do everything perfectly, and one human error 
can result in mission catastrophe. While minimizing human 
errors is certainly an objective, human errors cannot be 
totally eliminated. The challenge is to prevent a human error 
from becoming a mission failure. Experience has shown that this 
is accomplished by test as you fly, and fly as you test, in 
combination with independent review and analysis, appropriate 
technical and management debate, and experienced leadership. 
For five decades, we have invested billions of dollars and the 
expertise of our best and brightest in NASA and industry, to 
evolve our current mission success methodology.
    NASA has the continuity of human space expertise that is 
unique in our country and competitive with the best that exists 
globally. Our space industry is second to none in the ability 
to implement complex projects. It is the marriage of NASA's 
continuity of expertise with the implementation capability of 
industry that results in our proven mission success 
methodology, which maximizes the probability of success.
    The Space Shuttle and International Space Station are 
products of this methodology. The Air Force and the Aerospace 
Corporation, in combination with their industrial partners, 
used this methodology to produce the highly successful EELV. 
NASA's Jet Propulsion Laboratory uses this methodology in 
implementing the Challenge and Planetary Exploration Program. 
And I might add that the video that you saw earlier is a 
product of this methodology being applied in the success that 
was demonstrated in the video.
    A fundamental flaw in the proposed human space flight 
program is a commercial crew initiative which abandons the 
proven methodology I have described. NASA's role is reduced to 
defining safety requirements and general oversight. An argument 
for pursuing this new human space flight approach is that the 
proven methodology is too expensive.
    The same rationale caused the Air Force and NASA to try 
similar approaches in the 1990s. The Air Force implemented a 
program called acquisition reform. System responsibility for 
national security space programs was ceded to industry. And Air 
Force and NRO project managers were told to step back, not to 
interfere, and let industry have total responsibility. 
Additionally, the Air Force and NRO essentially eliminated 
their systems engineering capabilities, since the 
responsibility would reside with industry.
    The results were devastating, and the adverse impact is 
still with us today. Good project managers and program 
management personnel left, and an exceptional systems 
engineering capability was eliminated. Projects were a 
disaster, and the approach was judged by all to be a total 
failure.
    Problems were not isolated to one project or to one 
company. The impact was systemic. As an example, Future Imagery 
Architecture, managed by Boeing, was canceled after the 
expenditure of about $10 billion. SIBRS High [Space-based 
Infrared System High], managed by Lockheed Martin, has been 
referred to as ``a case study in how not to execute a space 
program.'' National Polar-orbiting Operational Environmental 
Satellite System, managed by Northrop-Grumman, is a story that 
is still evolving.
    On average, programs implemented using this approach 
resulted in half the intended program for twice the cost, and 
they were six years late, on average. NASA implemented a 
similar approach, called faster, better, cheaper. Mars '98 is 
the most significant example of this approach. Mars '98 was a 
total failure, with the loss of an orbiter, a lander, and two 
probes. The orbiter, managed by Lockheed Martin under contract 
to JPL, failed because of a confusion between metric and 
English units. This confusion resulted in errors large enough, 
during Mars orbit insertion, to cause the spacecraft to enter 
the atmosphere and be destroyed.
    These same errors were prevalent during midcourse 
corrections implemented on the trip from Earth to Mars without 
a cause being determined. Had the JPL institutional navigation 
capability been applied to understand these midcourse errors, I 
believe they most likely would have found the cause, and 
implemented corrections to prevent the failure. They were 
excluded from the management of Mars '98 because of the give 
the contractor the responsibility concept. This is an example 
of how NASA's continuity of expertise could have been applied 
to an important and challenging project.
    I cannot conceive that the United States will abandon a 
methodology developed over decades, with enormous human and 
financial investment, for a concept that has been tried in the 
1990s, resulting in massive failure. Why would we put NASA 
human space flight at such risk by employing an unproven 
commercial crew concept?
    Commercial crew is a risk too high. It is not a responsible 
course, and it should not be approved. Continuation of the 
international space program is an area of apparent consensus. A 
launch vehicle and crew capsule for transportation to and from 
the Space Station are required. I believe the most appropriate 
option is Ares I and Orion.
    NASA should be directed to develop a plan for transporting 
humans to and from Earth orbit. Ares I and Orion elements of 
Constellation should not be canceled. The results of the NASA 
plan development may suggest changes to Constellation. A 
disappointing truth in the proposed NASA Fiscal Year 2011 
budget, in my opinion, is not adequate to support a credible, 
implementable Space Station program and a credible, 
implementable beyond Earth orbit exploration program. A 
credible Space Station program without commercial crew needs to 
be defined. An exploration program with a heavy lift launch 
capability and exploration capsule, a focused technology 
program, and an exploration concept with destinations and dates 
also needs to be determined.
    Cost estimates, with substantive, independent systems 
engineering, and end to end cost estimating need to be 
developed. Timely completion of these proposed actions is 
necessary to allow resolution of current human space flight 
uncertainties. Only then can credible decisions be made as to 
the future of human space flight.
    In summary, do not approve commercial crew. Continue the 
Ares I and Orion programs. And do the necessary in depth 
analysis and study that was absent from the proposed Fiscal 
Year 2011 budget, to define the human exploration program 
worthy of a great Nation. Only then can the value of the 
program be judged against credible plans and budget.
    Above all else, do not approve a human space flight program 
without adequate resources to assure success. We have traveled 
that road too many times with the same unsuccessful result.
    Thank you.
    [The prepared statement of Mr. Young follows:]

                 Prepared Statement of A. Thomas Young

    Chairman Gordon, Mr. Hall and Committee members, I am pleased to 
have the opportunity to present my views on the proposed U.S. human 
spaceflight program.
    My judgment is that implementation of the proposed human 
spaceflight program will be devastating to NASA, human spaceflight and 
the U.S. space program. For five decades the U.S. robotic and human 
spaceflight programs have had remarkable successes that have filled our 
books of knowledge, explored new worlds, enhanced our international 
reputation and given pride and inspiration to our fellow Americans. We 
have also had disappointing failures.
    We have developed a mission success methodology that maximizes the 
probability of success, a methodology that has evolved over the life of 
the space program and continues to improve with the experience gained 
with the execution of each new project. A hallmark of the methodology 
is the recognition that spaceflight is a ``one-strike-and-you-are-out'' 
business. Thousands of individuals can do everything perfectly and one 
human error can result in a mission catastrophe. While minimizing human 
errors is certainly an objective, human errors cannot be totally 
eliminated. The challenge is to prevent a human error from causing a 
mission failure. Experience has shown this is accomplished by test-as-
you-fly and flying-as-you-test in combination with independent review 
and analysis, appropate technical and management debate and experienced 
leadership. For five decades we have invested billions of dollars and 
the expertise of our best and brightest in NASA and industry to evolve 
our current mission success methodology. NASA has the continuity of 
human spaceflight expertise that is unique in our country and 
competitive with the best that exists globally. Our space industry is 
second to none in the ability to implement complex projects. It is the 
marriage of NASA's continuity of expertise with the implementation 
capability of industry that results in our proven mission success 
methodology which maximizes the probability of success. Space Shuttle 
and International Space Station are products of this methodology. The 
Air Force and the Aerospace Corporation in combination with their 
industrial partners use this methodology to produce the highly 
successful EELV. NASA's Jet Propulsion Laboratory uses this methodology 
in implementing the challenging planetary exploration program.
    A fundamental flaw in the proposed human spaceflight program is a 
commercial crew initiative which abandons the proven methodology I have 
described. NASA's role is reduced to defining safety requirements and 
general oversight. An argument for pursuing this new human spaceflight 
approach is that the proven methodology is too expensive.
    This same rationale caused the Air Force and NASA to try similar 
approaches in the 1990s.The Air force implemented a program called 
``Acquisition Reform.'' System responsibility for national security 
space programs was ceded to industry. Air Force and NRO project 
managers were told to step back, not to interfere and to let industry 
have total responsibility. Additionally, the Air Force and NRO 
essentially eliminated their systems engineering capabilities since the 
responsibility would reside with industry.
    The results were devastating and the adverse impact is still with 
us today. Good project managers and project management personnel left 
and an exceptional systems engineering capability was eliminated. 
Projects were a disaster and the approach was judged by all to be a 
total failure.
    Problems were not isolated to one project or to one company, the 
impact was systemic. As examples, FIA managed by Boeing was cancelled 
after the expenditure of about 10B$. SIBRS High, managed by Lockheed 
Martin, has been referred to as ``a case study in how not to execute a 
space program.'' NPOESS, managed by Northrop-Grumman, is a story that 
is still evolving. On average, programs implemented using this approach 
resulted in half the intended program for twice the cost and six were 
years late. NASA implemented a similar approach called ``Faster-Better-
Cheaper.'' Mars '98 is the most significant example of this approach. 
Mars '98 was a total failure with the loss of an orbiter, lander and 
two probes. The orbiter managed by Lockheed Martin, under contract to 
JPL, failed because of confusion between metric and English units. This 
confusion resulted in errors large enough during Mars orbit insertion 
to cause the spacecraft to enter the atmosphere and be destroyed. These 
same errors were prevalent during midcourse corrections implemented on 
the trip from Earth to Mars without a cause being determined. Had the 
JPL institutional navigation capability been applied to understand 
these midcourse errors, I believe they most likely would have found the 
cause and implemented corrections to prevent the failure. They were 
excluded from the management of Mars '98 because of the ``give the 
contractor the responsibility'' concept. This is an example of how 
NASA's continuity of expertise could have been applied to an important 
and challenging project.
    I cannot conceive that the U.S. will abandon a methodology 
developed over decades with enormous human and financial investment for 
a concept that when tried in the 1990s resulted in massive failure. Why 
would we put NASA human spaceflight at such risk by employing an 
unproven commercial crew concept?
    Commercial crew is a risk too high, not a responsible course and 
should not be approved.
    Continuation of the International Space Station is an area of 
apparent consensus. A launch vehicle and crew capsule for 
transportation to and from the Space Station are required. I believe 
the most appropriate option is Ares 1 and Orion. NASA should be 
directed to develop a plan for transporting humans to and from Earth 
orbit. The Ares 1 and Orion elements of Constellation should not be 
cancelled. The results of the NASA plan development may suggest changes 
to Constellation.
    A disappointing truth is the proposed NASA FY 2011 budget, in my 
opinion, is not adequate to support a credible, implementable Space 
Station Program and a credible, implementable beyond-Earth-orbit 
exploration program.
    A credible Space Station program, without commercial crew, needs to 
be defined. An exploration program with a heavy lift launch capability, 
an exploration capsule, a focused technology program and an exploration 
concept with destinations and dates also needs to be determined. Cost 
estimates, with substantive independent systems engineering and 
independent cost assessment, need to be developed. Timely completion of 
these proposed actions is necessary to allow resolution of current 
human spaceflight uncertainties. Only then can credible decisions be 
made as to the future of human spaceflight.
    In summary, do not approve commercial crew, continue the Ares 1 and 
Orion programs and do the necessary in depth analysis and study that 
was absent from the proposed FY 2011 budget to define the human 
exploration program worthy of a great nation. Only then can the value 
of the program be judged against credible plans and budget. Above all 
else, do not approve a human spaceflight program without adequate 
resources to assure success. We have traveled that road too many times 
with the same unsuccessful result.

    Chairman Gordon. Thank you, Mr. Young, for your usual 
bluntness. You got to the point there.
    I know that this panel, and I am sorry you had to wait so 
long to come forth. I know you have some back end commitments, 
so we will be limited. So, I am going to yield my time to Mr. 
Wu.

                 Durability of Private Sector Approach

    Mr. Wu. Thank you very much, Mr. Chairman. I very much 
appreciate that.
    We have a number of Members of this Committee who represent 
districts that have a lot of space activity, and quite frankly, 
they may be more knowledgeable than I, and they have a lot of 
questions to ask.
    Oregon has very little, if any space activity. I think that 
is a shame. My interest, my very strong interest in this topic 
is driven by my concern for the future of technology in this 
Nation, and the future of American leadership.
    My prior questions to Administrator Bolden brought forth 
some answers that the infrastructure currently used by NASA, 
the employees and so on, would be substantially transferred to 
the new effort, and I am concerned about whether that would be 
true or not, but for purposes of this question, if that is to 
occur, I have some, there is a significant doubt about what, 
where the cost savings would come from. Why would it be cheaper 
in the private sector?
    Now, I have been in this town long enough to kind of see a 
political process, or a policy process play out, which is you 
have program number one, it runs into tough territory, whether 
for timing or cost purposes, so you cancel program number one, 
and you kick the can down the road, by saying we are going to 
start program number two, in this case, kick it to the private 
sector. And if, indeed, there are not cost savings to be had, I 
am concerned that a future Administration and a future Congress 
would be faced with the prospect of either canceling human 
space flight by Americans or paying the same kind of cost 
increases, or maybe larger, because it is further on down the 
line.
    I would like to ask all three of you to comment on that 
concern about this potentially being a cancellation of American 
space flight in a two step process.
    Mr. Armstrong. Congressman Wu, I think that is an excellent 
point.
    There is always difficulty when programs are extended, and 
the motivation and the intensity and the passion for the 
project disintegrates with time, and they become, at the time 
they exceed their budget by substantial amounts, and then the 
budgets are cut, then usually, the programs are redefined into 
a less aggressive program, and perhaps eventually into an R&D 
program, and then, each step along the way, they are more 
subject to cancellation. So, it is kind of a self-fulfilling 
prophecy that such activities are swimming upstream.
    Mr. Wu. Mr. Armstrong, thank you. I have never been told by 
the first man to walk on the Moon that I have made an excellent 
point. Thank you. Captain Cernan.
    Chairman Gordon. You might not be again, either, David.
    Mr. Wu. I will take that one. Captain.
    Captain Cernan. My feeling, in support of what Tom Young, 
and I know what Neil believes, in support of the Constellation 
program, is we should take it in steps and bounds, leading 
ultimately to what I am a guru on, is space exploration. That 
is where I want to go. I want to see us go to Mars.
    But I think we first have to look at our problems today, 
and I think if we take a good, hard look, and review what Ares 
I, Constellation itself, and re-review it, perhaps, and figure 
out, can we really get airborne in 2015 or '16 or '17, and pick 
it. We know we can perform, and we know what funds we are going 
to have available. Hopefully, they will still be available. And 
say we can produce a program in 2015. We won't have to start, 
or 2016, we will have something that will access Earth orbit.
    Of course, we have a problem in the front end, as I said, 
and that is Shuttle. Quite frankly, I happen to be one of those 
believers who said how can we terminate the most phenomenal, 
capable flying machine the world has ever seen, that we have 
ever designed, built, and flown, and it is just getting into 
its state of maturity, being able to do the job well, and 
obviously, extremely safely at this point in time, from what we 
have learned. How could we terminate that? We ought to extend 
into that period of time that we think Constellation will come 
on board, and take Shuttle out to 2015, if that is what is 
necessary.
    Now, I don't have control of the funds, Mr. Chairman, so 
you know, I know there is a problem there. But to keep us in 
the space game, to keep us in the air, if you will, and then 
along the way, we can decide where we go from there with space 
exploration, the evolution of Ares V as it comes from the 
success of Ares I. And it is not, to me, it is not so important 
when we get there, but what is important is that we have, for 
future generations, a commitment. The direction we take is far 
more important, to me, than when we get there.
    Chairman Gordon. Mr. Wu's time has expired, but Mr. Young, 
did you want to add something?
    Mr. Young. Yeah, I would like just to add a little bit.
    First off, this is a people-intensive industry, enterprise, 
and if we save money in a particular area, you can only save 
money by eliminating people. I mean, that is where it comes 
from. And if, in our commercial crew focus, we fundamentally 
save the money that is talked about, we will eliminate NASA 
workforce, as well as some industry workforce. That workforce 
will never come back. You know, that will be gone forever.
    So, there are a lot of consequences that need to be 
carefully thought about, as your question suggests, and I would 
offer that.
    My only other comment is, early in my life, a previous NASA 
Administrator actually said to me: ``Be cautious. That green 
grass sometimes is poison ivy.''
    Chairman Gordon. Thank you, Mr. Young. Mr. Hall is 
recognized.

                           Return to the Moon

    Mr. Hall. Mr. Chairman, I won't take a lot of time. I am 
glad Lewis and Clark didn't stop at the Mississippi. Glad they 
went on to El Paso. I guess I am glad they went to Phoenix and 
maybe to well, I don't know about seeing the Pacific shore. 
That was on November 15, 1805, and my kids think I remember 
that day. But we wouldn't have had Rohrabacher if they hadn't 
gone on to the oceanside, though, so we have got a lot to be 
thankful for.
    I have one brief question here, and first, my opening 
statement, I adopt what all three of these gentlemen have said, 
every sentence, every dash, and every quote. It is the greatest 
testimony I have heard in the 30 years I have been up here, and 
I thank you for it.
    I want to ask, if I might, from Mr. Armstrong. During the, 
his appearance at the Kennedy Space Center, I am sure you heard 
that, or have observed it. The President discounted the idea of 
going back to the Moon, and instead, spoke about going to other 
destinations, but from your perspective, if the goal is to take 
a stepping stone approach to deep space, as both of you, as 
each of you have alluded to, is the Moon a nice to have, or a 
need to have?
    Mr. Armstrong. It is both. It is both, sir. It is hard to 
explain that there are good reasons to return the Moon, from a 
variety of perspectives. And it is a wonderful place to learn 
the elements of deep space, space flight with. It is a 
relatively safe and convenient place that uses, is able to use 
the best of the technologies we have developed over the last 
four or five decades, and I think that it should, indeed, be 
included in our plans for deep space exploration.
    Mr. Hall. Mr. Cernan, do you agree to that? Don't you? You 
have----
    Captain Cernan. Yes, sir. I adamantly agree with it, and 
there is a whole host of other good reasons we don't have time 
to talk about here today.
    Mr. Hall. Well, like the Administrator, you can send me a 
copy of those, can't you? I thank all three of you. I yield 
back my time, Mr. Chairman.
    Chairman Gordon. Governor Garamendi is recognized for five 
minutes.

                           Constellation Lite

    Mr. Garamendi. Thank you very much. Captain Cernan, you 
talked about Ares I, a progressive program. I would like you to 
expand on that. In the testimony we heard earlier from the 
administrator, he said no, he is not even going to think about 
Constellation Lite, or some sort of a progressive program, but 
I would like to have you to expand on your vision on how that 
might proceed so that the administrator might be informed about 
the potential possibilities.
    Captain Cernan. Well as I understand it, the entire 
Constellation was programmed with the idea that it could be 
built upon, step by step, ultimately reaching for the Moon. The 
initial requirement was to get into Earth orbit. Initial 
requirement was to service the space station. Initial 
requirement was to have American access, not dependent upon 
foreign powers to get us back up there, as quickly as humanly 
can. Orion was developed not as, you know, this Orion Lite is a 
whole different ballgame, and that would cost just as much 
money and take as much time, I am sure, as a full up Orion. But 
Orion was designed to evolve from the same vehicle. You 
reconfigure the interior and so forth, the navigation system, 
what was required to mature into a deep space vehicle from--one 
that could go into low Earth orbit. The Ares I was designed, 
and has been tested--the component testing on the Ares I, the 
solids that have already been tested on the first Ares I test 
flight, are part of the Ares V. The J-2X engine, by the way, is 
an upgrade, as best I understand it, from the J-2 that we used 
to go to the Moon. So it--we know what kind of hardware we are 
dealing with. We know what kind of facilities we got. The 
facilities that are being--already being set up on Pad B down 
at Kennedy are facilities that can support Orion and be--
correction, Ares I and be upgraded to support the larger Ares V 
vehicle. So it is a--there is an inherent culture in 
Constellation to take us from Earth orbit to the Moon, or to 
asteroids, or to Mars, or to anywhere we want to go.

                        Space Shuttle Extension

    Mr. Garamendi. I thank you for that. I assume that the men 
and women that are working for the administrator understand, or 
heard what you said. If not, I am sure they will get a tape of 
that. Secondly, you talked about the interim period before the 
Constellation Ares program is capable of delivering supplies to 
the Space Station. I think that really needs to be explored and 
expanded. I couldn't agree with you more, with regard to the 
shuttles and their longevity. Your use of the maturing is a 
valuable word, I think, for most of us here who have reached 
that point. If you could expand on that just a bit in the two 
minutes that I have left?
    Captain Cernan. Mature means you know a lot more than you 
used to know, I guess, and that is--we know----
    Mr. Garamendi. You are wiser about those things----
    Captain Cernan. You know, we have been through some tragic 
catastrophes with Shuttle. We have learned something. As I 
said, we spent 50 years learning that which we didn't even--
weren't even smart enough to ask the questions about. But it--
the shuttle was designed for 100 flights, with a factor of--
safety factor of four. And I don't know the exact number on the 
shuttle vehicles--the three shuttle vehicles left, but I know 
it is down in the 20s and 30s right now. So we have a fleet--we 
have the only real capability to get into Earth orbit. And 
compared to the Soviets and what the Chinese are putting in 
orbit, they don't hold a candle to what the shuttle can do. And 
why in the world do we want to just quit? Not only--if we had 
something sitting on the pad ready to take its place, that is 
one thing, but we don't. We are abdicating our role in space. 
We are abdicating our capability to go to the space station by 
not being able to get there. And commercial space is not going 
to get there I mean, I--give me ten years, and I want to see 
them mature, and then they can take over the program, but not 
until then. And I am not going to be around. What I am worried 
about is what happens in the near future. So I think we have 
got to close that gap with the shuttle, and the only way--it is 
just not extending the shuttle. We have got to--it is, you 
know, just not stretching out the flights. We have got to get 
some more shuttle flights. We have got to keep this thing 
flying--2015. Pick out a date. Pick out a date when you think 
Ares is going to be ready to take over.
    Mr. Garamendi. Captain, thank you very much for your 
knowledge and your passion, and I think Mr. Young would agree 
with at least part of what you said, if not all of what you 
said about--wait a minute, commercial has a history also, and 
not a good one. Thank you very much.
    Captain Cernan. Thank you, sir.
    Chairman Gordon. Dr. Ehlers is recognized for five minutes.

                            NASA Priorities

    Mr. Ehlers. Thank you, Mr. Chairman, and thank you, 
gentlemen, for being here. I listen with extreme interest 
because of the many times we have had hearings, we have rarely 
had people who had the conviction that you had, and also the 
background that you had. I might add that I am a scientist. I 
was horrified to be reminded once again about the error with 
the metric system and the English system. I tried to introduce 
a bill immediately after that happened to require the metric 
system on everything that NASA did. I was promised by the then 
administrator of NASA that if I would withdraw the bill he 
would take care of it, and, of course, didn't. So we are very 
slow to learn. That is just a side issue at this point. What I 
am really interested in is your--the reference made, repeated 
by each of you, is the need for exploration. And I happen to 
agree with that, as a scientist. We have much more to explore. 
I am not--it is not quite clear to me why--how we are to pick 
the topics to be explored. Clearly the moon is still of 
interest. Mars is of even greater interest, but extremely 
difficult, unless we find enough volunteers who want to make a 
one way trip. But the difficulty of landing, replenishing the 
fuel supply and coming back is very formidable. I am not saying 
it is impossible, but very formidable. But what--I guess I am 
most interested in the process. You know, I have never been 
involved in an experiment where we didn't know precisely ahead 
of time how we were going to proceed, what we were searching 
for, what we were exploring for. It is not that we didn't find 
surprises along the way, but you really have to decide very 
clearly ahead of time what you are trying to achieve. And that, 
to me, is what has been lacking here, and I appreciate, Mr. 
Armstrong, your delineation of why it is important to go to the 
moon. It is sad to say that that is the first time I really 
heard a good explanation from the hearing table about that 
point. So--I--it, you know, maybe one answer is to have a 
president who is a scientist. That would probably help. But--
and I am not applying for the job, although I am in the process 
of trying to renew my pilot's license, so maybe I can work on 
the other end. The--what are we really trying to achieve, and--
I--can you give me any clarification, any one of you? What are 
we trying to explore? What are we trying to achieve? What do we 
hope to get out of it? And I recognize you can't predict these 
things in advance, but I wonder if you could just quickly each 
run through what you would say in response to that question if 
the president called you in and asked you.
    Mr. Armstrong. Thank you. First, exploration is the 
principle ingredient in the charter of NASA.
    Mr. Ehlers. Yeah.
    Mr. Armstrong. Because I was--I remember because I was one 
of the few people around that was in NASA on its first day 
after the Act was passed. And as I said in responding to the 
Chairman's question, my priorities were leadership first, 
access second, and third, exploration. Leadership, I think, is 
critically important because it affects our nation, and--in so 
many ways. It affects the viewpoint of others--other citizens 
and other countries around the world about our country in a 
very meaningful way. I would just give one example, if I might? 
We were--Gene, Jim Lovell and myself were in a Mideast trip a 
couple of months ago, thanking the troops for their service, 
and while at Incirlik Base in Turkey, near the Syrian border, 
the State Department requested that we go over and visit a 
local university named Cukurova, the third largest university 
in Turkey, one that had continued to have been requesting 
information on NASA's space program but never had been able to 
get a speaker. So we were in the area, and they shanghaied us 
into that job. Unfortunately, the timing was imperfect. Two 
days before that resolution on the genocide matter of Turkey of 
a century ago was passed, and the day before we arrived, the 
Turkish ambassador was recalled to Turkey, and so now we are 
going into a big presentation with all the press looking at us, 
expecting us to explain this international crisis, from their 
point of view. As it happened, our welcome was remarkable. 
There were probably four or five times as many people came to 
hear our presentation than they had seats in the auditorium. 
They set up loudspeakers outside so they could hear. They gave 
us a marvelous welcome, warm reception, and asked a lot of 
questions, so rigorously that the journalists there never could 
ask--have the opportunity to ask their questions about the 
international disagreement. I would just point out that--by way 
of explaining, from the point of view of a foreign national, 
this--what we do in space seems to be far more important to 
them that it is--than matters about international differences. 
It just illustrates the importance of leadership. My second 
point was access, and, of course, we can't do anything in space 
without access. That is why the second point was what it was. 
And third was exploration, because our business is getting out 
to the boundaries of human knowledge and finding out new things 
which will inspire people to believe that the human race can do 
more than it is now doing, and they can do it better. And it 
will be important--it--not only to our own citizens, but to 
people around the world, and for that reason I pick exploration 
without saying specifically what, and in what order. 
Exploration, by nature, is what we should be doing.
    Chairman Gordon. Dr. Ehlers's time has expired, and Ms. 
Edwards is recognized.

                        NASA Technical Capacity

    Ms. Edwards. Thank you, Mr. Chairman, and thank you, 
gentlemen. It is so wonderful to see you here today. I mean, 
you, both in your testimony and in your life's work, just 
really continue to inspire me, and I think inspire this nation, 
and really are the best reflection of why it is that we make an 
investment in space. Not for what we know today, but what we 
might know tomorrow. I was just thinking back that--I know when 
I was in grade school, watching that black and white 
television, I thought then that a geek with glasses, horrible 
eyesight, that I could actually be an astronaut. Never 
happened, but I do think it speaks to the role that the agency 
and the work that goes on has played in inspiring young people 
to do all kinds of things that really don't have any--may not 
have anything to do with space. I wanted to focus particularly 
on a part of your testimony, Mr. Young, in which you say it is 
the marriage of NASA's continuity of expertise with the 
implementation capability of industry that results in our 
proven mission success methodology, which maximizes the 
probability of success. And the reason is because my 
recollection in my work at Goddard Space Flight Center is that, 
as skilled and capable engineers, systems engineers, software 
engineers, hardware engineers, internal to NASA, there were 
partners in--on the private sector side. And it was because of 
that kind of relationship and partnership and expertise 
internal to NASA that enabled, I think, our work to proceed in 
a much more professional and scientific way. And so I wonder if 
you would comment about what it means to NASA's internal 
capacity and expertise when you shunt the bulk--all--virtually 
all of the human space flight capacity to the commercial 
sector? Because, in my view, NASA's always worked alongside 
private industry, the question is what kind of relationship has 
there been between the agency and its contractor community with 
that internal expertise? And so I wonder if you would comment 
about what that will mean on--in the long run to NASA's 
internal technical and scientific capacity?
    Mr. Young. That is really a very thoughtful question. Let 
me comment. As you describe, we really have learned how to do 
these things. Not without risk, and not without an occasional 
failure, but we basically know how to do them. And we do them 
by integrating just an extraordinary capability, both in the 
government, or NASA, side and the--and in the industry side. If 
we decide what we are going to do is cede all of this 
responsibility basically to industry--and this is not a--
industry. It is just that they don't have the--what I call 
continuity of expertise capability that I am describing in 
NASA. What will happen, in my view, is the good people in NASA, 
and there really are good people, they are not going to be 
satisfied with sitting in the back of the room and not, you 
know, asking questions, or not participating. NASA's a value 
added organization. When I was a young engineer, it is why I 
went, because I could contribute when--it--was my belief. So 
good people are not going to go do that, they are going to go 
look for other opportunities. The one thing that I really 
underline is good people always have a choice. I mean, they 
always have an opportunity choice, so good people will go to 
other organizations. That will kind of be the beginning of what 
I would say will be the atrophy--atrophying of the NASA 
workforce. I think that what will happen, if I take Gene 
Cernan's scenario, which I personally subscribe to, I don't 
know exactly, when, but we will find out what I believe to be 
the deficiencies in the commercial crew somewhere downstream. 
They will manifest themselves either in some development 
failures, significant cost growth, significant delays, industry 
not willing to continue to invest, but they are in our future. 
Then, when we turn around for this workforce that you are 
talking about to bail us out, using that term, they won't be 
there. These good people will be off, I don't know doing 
exactly what, but they--you--this is not a capability that can 
respond to an off/on switch. I mean, we built this with a lot 
of investment, and so there are a lot of ramifications of the 
decisions that is facing you all, but one of which is the 
quality of this workforce as we go forward. And I don't think 
there is any question in my mind that, you know, if implemented 
as proposed, the workforce will atrophy to the point that we 
will not have the ability to come to the rescue when the rescue 
is called for.
    Ms. Edwards. Thank you, gentlemen. And I know we don't have 
time for it now, but at some point it well be helpful for you 
all also to reflect on the lessons learned, as I recall them, 
from both Challenger and Columbia, with regard to NASA's 
internal capability of providing the kind of oversight that is 
needed to head off catastrophes like that. Thank you.
    Chairman Gordon. Gentlelady's time has expired, and Mr. 
Rohrabacher is recognized for five minutes. Before Mr. 
Rohrabacher, let me say that I am being called to another 
committee, and I guess--I think Chairlady Giffords, who is the 
chairman of the space--are you able to----
    Ms. Giffords. Mr. Chair, I just have to leave in 30 
minutes, so if the meeting is going to go over, we should have 
someone else carry the meeting.
    Chairman Gordon. Okay. I think 30 minutes should--our 
friends on this panel have got to leave before that time 
anyway. So, with that, Mr.--and let me thank you very much. I 
know that you came here today not because it is fun, but 
because it was--you felt it was a part of your mission, and 
thank you for your--again, for your contribution, and for your 
patriotism.
    Mr. Rohrabacher. Mr. Chairman, before you leave, just one 
point I would like to make before you leave, because it 
concerns this hearing. This has been a great panel, and it has 
been a great hearing, but it is not--and--it has not been a 
balanced hearing. We have not received both sides of this issue 
at all from this presentation, and I would hope that before we 
go to an authorization that we would have a panel presented to 
us that could give both sides of the issue. And I am not 
complaining about their position at all, I am just saying there 
is another side--Rusty Schweickart was there.
    Chairman Gordon. Uh-huh.
    Mr. Rohrabacher. Buzz Aldrin, other people who are expert 
in this area, and they have not been given their chance to 
present an alternate point of view. And I would hope, before we 
go to an authorization, that we could at least have----
    Chairman Gordon. If the gentleman would yield, first of 
all, Mr. Bolden took two hours of--putting forth, you know, an 
opposition, or a different position. John Holdren was invited 
to enhance that. Unfortunately, he was not able to come. But 
you can be well assured that we are not one hearing away from 
an authorization.
    Mr. Rohrabacher. All right.
    Chairman Gordon. And there will be additional time. I 
talked to Governor Richardson yesterday. He would like to come 
also and----
    Mr. Rohrabacher. Good.
    Chairman Gordon. So we wouldn't--there will be 
transparency, there will be balance, and that is what it is 
going to take to get a good bipartisan authorization. That is 
what we want to do.
    Mr. Rohrabacher. Thank you.
    Chairman Gordon. I didn't say unanimous, but at least--I 
would like to see that, though.

                        Value of Return to Moon

    Mr. Rohrabacher. All right. Well, Mr. Chairman, thank you 
very much, and I will proceed now with my five minutes. It 
seems to me that what we have here are three major issues, and 
that--one is the viability of depending on commercial space 
companies versus government employees in providing access and 
transportation related to space. Another question is going back 
to the moon, whether or not that is worth the price that we 
will pay, and the funding of other space projects that will be 
de-funded because we no longer have the money for those space 
projects. And number three, what about the Constellation and 
the Ares rocket system? Was that system worth the price, and 
was that a right decision to move forward--or the 
administration's thinking about moving forward to cancel that. 
First of all, just one note. I certainly do not believe that 
keeping around a NASA workforce because it will disappear if a 
commercial company is given a contract is right thinking. I 
will have to suggest that people go to those private companies, 
and those private companies are developing workforces of their 
own. And I think that quite often the private sector has been 
able to do things in our history that government employees have 
not been able to do. I would--I will study up the history of 
NPOESS. I do not necessarily believe that all of the problems 
at NPOESS were caused by the private companies, namely Northrop 
Grumman. I cannot--I will go back and look at that to see if 
that was the genesis of the problems with NPOESS, instead of--
versus changing demands and goals by the government 
bureaucracies that were overseeing and micromanaging the NPOESS 
project. So I will take a look and see if you have got a point 
there, Mr. Young. And you are more of an expert on this than I 
am, you have spent more time at it, but I would like to look at 
that particular assertion a little closer. And that especially 
is magnified when I realize that what we are talking about here 
is, you know, not relying on private companies and moving 
forward with spending billions of dollars on a crew rescue 
vehicle, but it seems to me billions of dollars for a crew 
rescue vehicle that will be in place just prior to the space 
station being retired, spending billions of dollars when we 
could cut that cost dramatically by--and using those dollars 
elsewhere, and contract with the Russians in the meantime. 
Isn't--there are billions of dollars that we don't have for our 
space program. So when we have those kinds of decisions being 
made, it gives me a little bit more faith in the private sector 
to be rational, and commercial companies, rather than just 
government employees who don't have to prioritize about 
spending. So let us get to the first issue, returning to the 
moon in terms of--as a use of our--a better use of our space 
dollars. Mr. Cernan, let me ask you about that. Would not--and 
by the way, I am not opposed to going back to the moon. I think 
that we need to look at it and really study this to see if this 
is the wisest use of our money. But it will cost a lot of money 
for us to go back to the moon. Would it not be better, if we 
were aiming to deep space and Mars, to use that money 
developing, for example, a space refueling system that would 
permit us to refuel our rockets in space, and then go on to 
further exploration?
    Captain Cernan. Sir, when you go back far enough, when 
President Kennedy said, we are going to go to the moon, 50 
years ago, he was asking us to do the impossible. He was asking 
us to do what couldn't be done. Now, going to Mars today is not 
necessarily impossible, but it is one gigantic leap for 
mankind, if I may use Neil's words, beyond going to the moon. 
And there are so many ramifications with--about going that far 
for that long that we have no hint about, and the--the moon is 
a natural satellite. It--is it thereby coincidence--it is 
there. It is a useful tool for us to demonstrate our 
capabilities to, you know, you can go into the scientific side 
of it, put up telescopes and so forth. We can demonstrate our 
capabilities to able to go deeper into space, plus we can go, 
you know, is there water on the moon, and where did it come 
from?
    Mr. Rohrabacher. Right.
    Captain Cernan. South Pole, Helium 3.
    Mr. Rohrabacher. And getting to the moon, now, does this 
require . . .
    Ms. Giffords. [Presiding] Mr. Rohrabacher, I just want to 
also----
    Mr. Rohrabacher. Yeah.
    Ms. Giffords. --just let you know that we--because we are 
running out of time, and all members----
    Mr. Rohrabacher. Right.
    Ms. Giffords. --haven't had a chance to speak yet, and I 
hate to cut you----
    Mr. Rohrabacher. Yes. And--no, you are absolutely correct. 
There are many questions we should have. Thank you so much, and 
I really admire our panel, all of our panel, including Mr. 
Young.
    Ms. Giffords. Mr. Young?
    Mr. Young. Yeah, if I could--if--after that, I have got to 
say something. No, in all comments--the comment that we are 
talking about commercial companies versus the government is, 
with all due respect, is kind of missing the whole point we are 
trying to make. It is not commercial versus government. It is 
commercial versus a team of government and commercial. Second 
item is I did chair the NPOESS review, and I would be delighted 
to come by and tell you more about what we found, if you would 
like to----
    Mr. Rohrabacher. Thank you.

                            Workforce Morale

    Ms. Giffords. Thank you. Gentlemen, again, welcome. We are 
very honored to have the three of you before our committee 
today. I believe that you saw the video of the pad abort 
demonstration flight that I played during the first panel. And, 
again, it was extraordinarily successful, and a real test to 
the engineering--the capability of this country. All of you 
have decades of experience in very demanding aerospace 
undertakings, and I just--in continuity with the comments made 
by Mr. Rohrabacher, I would like to talk about the importance 
of program continuity and stability, since the three of you 
have tremendous experience in this area. What did it really 
take to make these successful flights possible? As you know, 
Congress has directed NASA to continue to work on 
Constellation. We heard that from Administrator Bolden himself 
this morning. Yet, at the same time, the workforce is being 
told that the--by the agency that Constellation is dead. So can 
you talk specifically, the three of you, about the morale and 
the motivation and what happens to the workforce when you hear 
those conflicting messages? And I would like to start with you, 
Mr. Armstrong.
    Mr. Armstrong. Thank you, Madam Chairman. My information in 
this subject is largely anecdotal. I have received e-mails from 
a variety of sources within NASA and different NASA centers 
talking about the problems that the uncertainty of current 
planning confirmation has engendered among the workforce there. 
And my sense from the number of such reports are universally on 
the side that morale has been degraded substantially, and 
indeed people are looking for jobs outside the NASA centers. I 
had the pleasure of talking with the recent shuttle crew this 
morning, and we asked them that question, and they seemed to 
think morale was reasonably good in the area. They--there are 
possibilities, from their perspective, in the months ahead 
where--that they could train to be on the space station, ISS, 
or they could go into some other managerial positions in NASA, 
or, if they were military, they could go back to the military. 
That probably is not the best choices they would like to have 
for their future, but I would yield to others who have maybe 
more definite information than I have available.
    Ms. Giffords. Thank you. Mr. Cernan?
    Captain Cernan. Well, I think they were being too kind if 
they said the morale is good. You know, you talk about the 
astronaut corps, and these guys are all--these are young men 
and young women. They are scientists, they are engineers. They 
are just not pilots. They are just not young men and women 
running around in blue suits. They get down and dirty with 
the--with Mr. Young's engineers out there, and helping design, 
develop, test 24/7 the spacecraft that they are eventually 
going to fly. And, you know, I asked a lady who works for NASA, 
who is an engineer, whose husband happens to be an astronaut. I 
said, you know, he just came back here a few months ago, and is 
he still on flight status? And she said, what flight status? 
You know, where does he go? Where does this young talent, the 
best of the best, where do they go and what do they do? So it 
is hard for me to--I put myself in their place, and, you know, 
I was sorted in a way after Apollo 17. We were going to wait 
five years for the shuttle to become operational. And I said--
well, I was fortunate. I had flown three times. I had done my 
thing, and I wasn't sure I wanted to wait five years, so I went 
somewhere else. And you are going to find all those non-
astronauts, all those engineers, all those technicians and 
support people, how can they not? I know Kennedy--the morale at 
Kennedy's not very good right now, and I can tell you Johnson 
is not much better. They are out looking to get ahead of the 
job hunting game, because if this proposal goes forward, they 
are out of business. They are out--at least they are out of the 
kind of work they would want to be into.
    Ms. Giffords. Mr. Young?
    Mr. Young. I think the comments you have heard really are 
right on. I will take a little different perspective. I have 
had the privilege of leading some large organizations, both 
within NASA and within the industry. The fundamental challenge 
of somebody leading such a large organization is providing, 
one, stability, and two, an honest appraisal of the situation 
to a workforce. People--and, you know, mostly it has been 
associated with technology, space, national security 
activities. People don't look at that as a, you know, a five 
day a week, eight hour a day job. You know, it is remarkable 
what people will do, but they need to have an understanding. 
They need to have stability, and most of all they need to have 
challenging work, where what they do makes a difference. When 
you are in a job where what you do makes a difference, there is 
no limit as to what you apply. But if you are in a job where 
what you do might have no benefit tomorrow, such as a program 
being cancelled, or you might not have a job tomorrow, that is 
when the time around the water fountain becomes the dominant 
time. So I can't overemphasize how important--I think the video 
that you showed, you know, probably is a demonstration of that. 
Probably--I mentioned it earlier, but I didn't really come 
back, knowing a little bit about how that came to be, that was 
the best of NASA and best of industry working together to make 
what happened in there successful.

                   Viability of the President's Plan

    Ms. Giffords. Just a quick follow up, just a yes or no 
answer from the three of you. I know that you have had a chance 
to testify in the Senate, and you have had a chance to hear our 
panel earlier asking questions to Administrator Bolden. At this 
point, do you believe that the President's plan as proposed is 
executable? Mr. Young?
    Mr. Young. No.
    Ms. Giffords. Mr. Cernan?
    Captain Cernan. Absolutely no, and--extremely----
    Ms. Giffords. Yeah. And Mr. Armstrong?
    Mr. Armstrong. If the question is would they be able to 
spend the money, my----
    Ms. Giffords. Your microphone, sir.
    Mr. Armstrong. If the question is would they be able to 
spend the money, the answer is yes. If the question is, could 
they receive value from it, I would say highly unlikely.
    Ms. Giffords. Thank you, gentlemen. Next up we are going to 
hear Mr. Olson, Ranking Member Olson.

                     Impact of the Augustine Report

    Mr. Olson. Thank you, Madam Chairwoman, and thank you Mr. 
Armstrong, Captain Cernan, Mr. Young, for coming here today, 
for giving us your expertise, and most importantly, for your 
service to our great nation. Again, we thank you very much. My 
first question is for Mr. Armstrong. I know, Mr. Armstrong, you 
have been--had some concerns about how the Augustine report has 
been utilized by the administration, and for those who believe 
that the Augustine report is--as the basis for calling the 
Constellation program unexecutable, I kind of want to get your 
thoughts on that, because I don't believe it is, and I want to 
get your thoughts.
    Mr. Armstrong. Thank you. I remember hearing that 
unexecutable very early, and so I looked at--I couldn't find it 
in any of my dictionaries, so I just tried to guess what it 
might mean, and--it mean no execute. That could be it can't be 
performed, or it could mean it can't be killed. I don't know 
which--it seems to me, in studying the report--which--and I 
think the report was a very good one, considering the fact that 
they had a small number of members on the committee, admittedly 
assisted by NASA people and others, and a very short time to 
judge new programs, which were largely undefined, against the--
what they called the program of record, I think. And that is--
was developed over--as this committee knows well, over a long 
time period of money--many years, with hundreds or thousands of 
people looking at it. So it is a very difficult for--job for 
them. The second part, that they were obliged to look at the 
program of record as limited by the 2010 budget, which was 
substantially below the 2009 budget, and indeed significantly 
below the 2011 budget. My expectation is, had the ground rules 
been different, they--their findings would have been different. 
So--they had a built-in barrier toward making a--what I would 
call an equitable judgment. Having said that, I do think they 
did a credible job with the report, and it is well written.

                Maintaining American Leadership in Space

    Mr. Olson. Thank you very much--my former boss, Phil 
Graham, might agree with you, with your deducting of non-
executable as something you can't kill. He believed that the 
hardest thing to kill in the world is a government program once 
it gets enacted into law. So thank you for your answers. 
Captain Cernan, real simple for you. Given where we are, what 
would you do going forward to keep us on that path and maintain 
our leadership in human space flight and keep our exploration 
capabilities the greatest in the world?
    Captain Cernan. Well, very quickly, I think I alluded to 
that in answer to an earlier question. I would find out what 
the real capability of getting Ares--the real timeframe for 
getting Ares, Orion--full up Orion into Earth orbit is, and I 
am just making an assumption it is 2015. And I would fill that 
gap with the shuttle for all the reasons I mentioned earlier. 
The gap is going to be so significant to us if we don't close 
it, and we need to close it from both the front end and the 
back end. And the only thing on the front end is what we have 
got flying today, which is the shuttle. What we have got on the 
back end, that can do it as quickly or quicker than anything 
else, is Ares I, Orion. And during that period of time, as Ares 
I evolves into a heavy lift booster, we can then decide and 
make plans for space exploration to follow. Now, if that means 
we can do a fly-by to an asteroid or a fly-by of the moon, why, 
we are then moving forward step by step to develop Altair a 
lunar landing capability, that is fine. But what I said 
earlier, we need to say from this point on is that is the 
destination. That is where we are going. Whether we get there 
in 2020, 2018, 2028, I don't care. And for all those kids out 
there, we--they need to know what their future has for store 
for them, in terms of, you know, let me just say this. Space 
and aviation has been a romance for over 100 years, and that is 
why we are here today, and that is why a lot of people perhaps 
are on this committee. And the legacy of the Wright Brothers is 
not the--we can higher, faster and further than anyone else has 
ever flown in the world before, but the legacy is the dreams 
that they inspired in the hearts of all of those who followed 
in their footsteps. And that is what I'm talking about when we 
need to provide a destination, a plan, a future for these young 
kids out there. My grandkids--I am selfish. I am concerned 
about them.
    Mr. Olson. Thank you very much, and I yield back the 
balance of my time. Thank you.
    Ms. Giffords. Ms. Kosmas.

                    Investing in Engine Development

    Ms. Kosmas. Thank you, Madam Chairman. Thank you all for 
being here. I represent the Kennedy Space Center, so obviously 
my concerns with regard to the workforce and the gap that you 
just described are great, but I would like to start by thanking 
you for what you all do. You exemplify and articulate, I think, 
the imagination, the inspiration, the innovation, the 
expertise, that we all want to maintain, and we want to ensure 
that America's future rests on that kind of inspiration. And so 
I thank you for your service, and also for being here today, 
and to describe to us your positions on these issues in a way 
that is very clear, and gives us a great deal of food for 
thought going forward. I had a couple of specific questions. 
Captain Cernan, first of all, your answer to the previous 
question was interesting to me, specifically because you talked 
about filling the gap with the shuttle, and I had a 
conversation earlier with Administrator Bolden about the 
feasibility of that. And while he accepted that the additional 
one flight was doable, he was not quite as clear on whether he 
thought additional flights to fill the gap could be done. 
Essentially he agreed that the shuttle is safe, that the re-
certification has been done, and that it is safe, but 
logistics, as he called it, were the difficulty. I think we can 
work around that, perhaps, if it is decided that the shuttle 
would be the vehicle, since it is the vehicle we have now that 
would give us the access to the International Space Station for 
payloads, for spare parts, and also, obviously, for crew, and 
the only vehicle that we have at the moment that will do that. 
So I appreciate your suggestion there very much. I wanted to 
ask a question about--to all of you about the President's 
proposal, as it calls for a significant investment in 
technology, specifically for the development of a heavy lift 
vehicle. And I guess the question begins with this, are any of 
you aware of a substantial technology gap or technical issue 
that warrants our spending this large investment, or do we 
already have this technology available to us? And the--to 
compound that question, NASA's RFI for heavy lift launch system 
and propulsion technology states that affordability--this is a 
quote ``affordability and load development and recurring costs 
are some of the guiding principles.'' And so I am asking what 
are the tradeoffs of investing in engine development to achieve 
lower costs versus saving time by using or modifying existing 
engines? That would be open to all of you. Mr. Armstrong?
    Mr. Armstrong. Thank you. We know an awful lot about rocket 
engines. I have flown on 13 different kinds. We know what the 
specific impulse is for almost any combination of propellants. 
We know what expansion ratios do. We know what material costs 
of case--and weights of material cases for liquid and solid 
rockets, and that doesn't mean there won't be advances, but--
because there will, and what--with additional research. 
Nonetheless, we know pretty well right now how to build a big 
rocket, or a middle sized rocket, or a little rocket, and we 
know what the tradeoffs are for different component 
configurations that we can choose from. So while I think there 
are small increments to be gained by additional research in 
rocketry, my guess is that we can today build a pretty decent 
rocket in almost any size range that you designate. So I 
suspect that the decisions that were made as a result of the--
choosing the Constellation program, which largely were based on 
schedule and affordability, would not be changed much by more 
research. We might find that certain other combinations have 
slight advantages and disadvantages, but I don't think there 
would be any game changing kinds of decisions from that.
    Ms. Kosmas. Mr. Young, did you want to comment?
    Mr. Young. Yeah, I would.
    Ms. Kosmas. Thank you.
    Mr. Young. I think, first off, NASA does need a focused 
space technology program, so my comment doesn't need to be--
answer that. But the only prerequisite we need to get in--heavy 
enough launch vehicle is funding. I mean, we have the ability 
today to proceed with a heavy lift launch capability. We will 
probably develop some technology work as we go along in the 
implement of the program, but getting on with it is not being 
paced, in my view, by our ability to do it or our need for 
technology. It is only paced by funding.
    Ms. Kosmas. Could you answer the question as to what kind 
of funding it would take to accelerate that?
    Mr. Young. I don't know that I can really answer your 
question. You know, what I would really like to say in response 
to that is that--that is why we have a NASA, and NASA has 
extraordinary capability to answer, you know, questions like 
that, if they are given the opportunity to do so. So I would, 
you know, I personally would be quite comfortable with NASA 
being given the assignment of what resources would it take to 
do a heavy lift, and how soon can we really get on with it?
    Ms. Kosmas. Okay. Thank you. I yield back.
    Ms. Giffords. Thank you, Ms. Kosmas. Mr. McCaul?

            More on Maintaining American Leadership in Space

    Mr. McCaul. Thank you, Madam Chair. I want to thank the 
distinguished panel. Mr. Armstrong, I must say, it is a real 
honor to be in your presence here today. I think we were 
talking before, 1,000 years from now, no one in this room will 
be remembered, no one in this town will be remembered, except 
for you. And that is--it is a great honor. On the wall behind 
me it says, ``Where there is no vision, the people perish.'' 
President Kennedy, I think, had that vision, and it landed you 
on the moon. I am concerned that this President doesn't have 
that vision in his decision to cut the Constellation program. I 
was compelled by your testimony that the priorities are 
American leadership in space, access to space, and exploration, 
and I agree with you on that, and also your comments that you 
were astounded by the President's proposal and that it was 
painful to watch. And then, finally, in response to the 
question, can the President's plan be executed, we had a no, 
no, and a highly unlikely. That is very powerful. I mean, you 
are the experts. And the morale is another issue, but my 
question is, by cutting the Constellation program, what damage 
will that do to our superiority in space, to our national 
security? And the idea that we can somehow hand this off to 
commercial space flight, which maybe down the road could 
happen, my concern is that the handoff, it is not an 
appropriate handoff. They can't pick up the ball and run with 
it right now. And my concern is what is going to happen is we 
are going to have a gap in our superiority in space, and we are 
going to lose to the Chinese and the Russians. And so, with 
that, Mr. Armstrong, can you give me your thoughts on that?
    Mr. Armstrong. Thank you, sir. I certainly agree that if, 
for the next decade, we have no access to space, we will be 
viewed by people around the world as being has-been, and that--
I would find that extremely uncomfortable with the enormous 
investment in resources and people's time over the past half 
century that we have expended in order to gain the position of 
leadership that we have enjoyed in recent years.
    Mr. McCaul. Gentlemen, you----
    Captain Cernan. May I add something very quick to that? If 
we are viewed by other nations, other people around the world, 
as being willing to give--to abdicate our leadership in space, 
what else do they believe we are willing to dismantle without 
reason?
    Mr. McCaul. That is very powerful, and I couldn't agree 
with you more. Mr. Young, do you have a response?
    Mr. Young. The only comment I would make is I think the 
reason all three of us advocate Ares I, Orion, the elements of 
Constellation, is that it is our view that, given where we are 
today, it is the best way to get an assured access to low Earth 
orbit. I mean, it is the fundamental underlying view for why we 
are advocates of that solution.

                      Impact on National Security

    Mr. McCaul. Captain Cernan, if I could just follow up? You 
had responded, what else would they be willing to give up? 
This--the backdrop to the space program has always been 
national security as well, and that is one of my main concerns 
with this decision by the President. Can you comment on that?
    Captain Cernan. I am sorry?
    Mr. McCaul. In--what impact will this have on our national 
security?
    Captain Cernan. Oh, I think it will have significant 
effect. We won't have for some--well, you know, if the 
shuttle--if we give up on the shuttle today--the shuttle 
doesn't just service the space station. It is an asset for 
national security. We can access any--probably almost anywhere 
in lower Earth orbit we need to be to do anything we want to 
do. Repair, recover, replace satellites. We can--scientific 
missions, like the Hubble. I think it affects our international 
security because we don't have access. We don't have the 
capability to be there when we need to be there. We are 
hostage--literally hostages, I say, to other nations. And it 
also implies, subjectively, that we no longer care. We no 
longer--we, you know, something happens in some other place in 
the world, don't worry about it, they don't care. They are not 
going to come to our rescue. They are not going to protect 
freedom around the world, which is something, I guess, for the 
last 200 and some odd years we have been destined to do. So 
there is--there are subjective reasons, as well as a physical 
capability to access a plateau that--it, you know, above the 
Earth, you know, to do things that could never have been done 
there before, from a national security point of view.
    Ms. Kosmas. Thank you, Mr. McCaul.
    Mr. McCaul. Thank you, Madam Chair.
    Ms. Kosmas. Gentleman's time has expired.
    Mr. McCaul. Thank you for your testimony.
    Ms. Kosmas. Mr. Grayson, you are recognized.

                       Astronaut Safety Concerns

    Mr. Grayson. Thank you. I want to thank you very much for 
the inspiration that you gave to me when I was younger. I want 
to thank you for inviting me to re-think what is capable for 
human beings to do. And I want to thank you both for what you 
have done not just for me, but for millions of people just like 
me. So, thank you. One of the pleasant parts of this job is the 
chance to meet people like you and to give you my thanks. I 
remember your mission. I remember your mission. I do remember a 
mission in between that didn't go as well, and I wanted to ask 
you a little bit about that. I told the NASA Administrator 
recently that my sense is that if a commercial enterprise, in 
running the space program at the time of Apollo 13, then all of 
those hundreds of engineers, mechanics and other astronauts who 
worked so hard to make sure the three men returned to Earth 
safely would have been replaced by one 20-year-old in a 
Grateful Dead t-shirt working on a laptop. I am concerned that 
replacing NASA at the head of the manned space program with 
some TBD commercial enterprise will, in fact, dramatically 
compromise the safety of the astronauts, and I would like you 
all to address that point, staring with Mr. Young.
    Mr. Young. The two gentlemen to my right are the most 
qualified to say that. I think it would go even well beyond 
that. I think it would jeopardize the safety of the United 
States human space flight program.
    Mr. Grayson. Because one failure would have such dramatic 
repercussions?
    Mr. Young. Well, yeah, but, see, my definition of failure 
is--it could be a flight failure, or it could be just a massive 
overrun, or it could be just a massive schedule delay, which we 
have seen a few of, or it could be the failure to be able to 
complete a program, which we have also seen. So I think failure 
can be any of those, you know, of those circumstances. And so 
either one of those, I think, would have just a devastating 
impact on not only NASA, but the United States human space--
United States space program.
    Mr. Grayson. Captain Cernan?
    Captain Cernan. Many years ago I worked on Apollo--we 
learned about the Russian program we never knew, and sometimes 
it is as important to know what they didn't know as much as 
what we didn't know. And the Russian cosmonauts would play 
volleyball and swim and had requirements to stay physically in 
shape and do a little homework on the physics and geometry of 
the world, and they would send them down to Baikonur and open 
up a hatch and put them in and off they would go. I said 
earlier, and I don't want to spend too much--we lived, 24/7, 
from the day we got involved with our spacecraft, whether it 
was Gemini program, Apollo or whatever it is, we lived, we 
owned, we knew the people who were building it. They dedicated 
their lives to putting the screws in the heat shield so that it 
wouldn't come apart when we re-entered the Earth. This is the 
kind of culture we grew up and we lived in. Now, if it went to 
the commercial sector, as an astronaut, I have got to believe 
we would have to--we would have to recreate that culture, or I 
am not getting in it. I mean, I didn't go to the moon not to 
come home. I mean, I planned to come home all along, but I knew 
I was coming home, because of those people, and because of the 
culture that we worked within at NASA.
    Mr. Grayson. And last, but for sure not least, Mr. 
Armstrong.
    Mr. Armstrong. I included in my written testimony some 
comments regarding commercial--first, I say I am very much in 
favor of the commercial activity and their--and I am very 
hopeful that they will have the progress that they hoped for. 
Nevertheless, they face a very difficult business case. It is--
the market is extremely thin, and they--the investor 
contribution to that project is going to be--must be 
substantially larger than the government contribution, by their 
business plan, and that business plan looks highly suspect. I 
recall recently reading an article by Brewster Shaw, former 
astronaut and now working a responsible position in space for 
Boeing, and he was trying to explain to the readers the 
difficulty he faced in convincing his boss to--that that was a 
good business to get--there is a good enough chance for that to 
be a business success that they should get in it. He said, it 
will be a hard sell, but, he said, I am hopeful. And it is 
going to be equally difficult for any other commercial space 
provider to make that case to their investors without the 
developed market. And I think that is a serious impediment that 
they just--we need to recognize, and they need to overcome. And 
I hope they can, and I hope that market develops, but right now 
it is very difficult to see that it will.
    Mr. Grayson. Thank you.
    Ms. Kosmas. Thank you.
    Mr. Grayson. Pleasure and an honor----
    Mr. Young. Could I just----
    Mr. Grayson. --meet you all.
    Mr. Young. Could I just add briefly to that?
    Ms. Kosmas. Okay. Yes.
    Mr. Young. Neil's comments and Gene's reminded me of this, 
but the, you know, there are extra steps that make these things 
successful. When Apollo was being developed, I was actually at 
NASA's Langley Research Center, and I was working on a program 
called Viking, where we land a couple spacecraft on Mars. 
Langley actually built something that looked like a big saw 
bench that a 1/6 G simulator. You could fly--flights at 1/6 G, 
equivalent to the moon. And I used to drive home late at night 
and ride by when the lights went on, and Neil Armstrong was in 
there flying that test vehicle, practicing for going to the 
moon. They are kind of--they are the extra things that make 
these things happen, Langley building that facility, you know, 
Neil coming up from JSC to fly it, the industry people being 
evolved. You know, it is just an example, but you reminded me 
of it. That is the kind of partnership that makes these things 
happen. You don't write that in a safety requirements document. 
You probably would never write in there, if you are not doing 
anything on Friday night, why don't you come up and fly the 1/6 
G simulator? So they are the--it is no special ingredients. 
That is why this business, which is a one strike and you are 
out business, has been as successful as it has been. Thank you.
    Ms. Kosmas. Thank you very much. Mr. Griffith, recognized 
for five minutes.

              Technical Share of the Constellation Program

    Mr. Griffith. Thank you, Madam Chair. I appreciate you all 
being here. I am from Marshall Space Flight, Huntsville, 
Alabama, retired physician who take care of many of the 
pioneers there, and I can say that, without a doubt, even in 
their most ill moments, their culture, manned space flight 
culture, always came through. And I think the culture, and 
seeing the Saturn, seeing and talking to people who hand 
soldered and who put it together and who gave their lives for 
it, when I hear someone say that these individuals can find a 
job somewhere else, this was never a job. This was a calling, 
and so we see that over and over again, those of us who were 
involved in communities with the space flight. The thing that I 
am concerned about, as the discussions are framed, is--I keep 
hearing budget, and I don't think we are talking about money 
here. I think we are talking about commitment. I think if 
America can do a $787 billion stimulus, bail out AIG, and other 
things that we have done in the last 18 months, and we can't 
find $12 billion to finish Ares I, our heavy lift vehicle, Ares 
V, which will eventually be the very soul of America to the 
rest of the world, is a lack of commitment, and it is alluring 
of the President's suggestion on April the 15th that we were 
not in competition globally for space and exploration and 
science, I think was a misstatement, either through naivete, or 
he is ill informed. We are, in fact, in a competition. And when 
I hear Mr. Augustine say over and over again all Ares--all the 
Constellation project needs is money, I believe he is right. 
And I don't think it is a budgetary concept. I think it is a 
commitment concept that we have not made, that we need to make, 
and I think that is why the Obama administration is running 
into a stone wall here. So I have listened to the comments, and 
I think my only question to you is do you agree with Mr. 
Augustine, that our technology is there, that our Ares I, our 
Ares V solutions are sound, and that, if we were--had committed 
the proper funding to it, we would not be having this 
discussion?
    Mr. Armstrong. I believe that to be true, sir.
    Mr. Griffith. Thank you.
    Captain Cernan. Yeah, I don't think there is a flaw in the 
program, except lack of funding.
    Mr. Griffith. Thank you.
    Mr. Young. There is no one I respect more than Norm 
Augustine, and I agree with that. There is also data that 
provides additional support and information, and for Ares I and 
for Orion we have completed preliminary design reviews, you 
know, that--the assessments that I have read, and have heard 
people actually testifying about, is, from a technical 
standpoint, this program has proceeded in a very successful 
manner. So I think that--I have not heard anyone who has said 
there is any issue with Ares I, Orion, other than insufficient 
funding to meet schedules.
    Mr. Griffith. Thanks. My other question would be that--it 
would appear to me that, with the successful completion of the 
Constellation project, that our ability to commercialize space 
would be--would have much more potential. It would be much 
safer, it would be much quicker, than the way--the suggestions 
are that we are going to put something out for competitive 
bids. We put out the tanker project for--in 2001. We don't have 
a tanker yet. We are not refueling anything. We put space out, 
which is a national security issue, for competitive bids, we 
are basically saying to China and Russia, we are walking off 
the court, the game is yours. And so I concur in that, and I 
appreciate so much you all being here. The soul of my district 
is--are the rocket scientists, so thank you so much.
    Mr. Young. If I might comment, we actually have an endeavor 
to pursue the commercialization of space, and that is 
commercial cargo, as you are well aware. And while I think 
commercial cargo is not without risk, it is an opportunity to 
grow and to demonstrate a capability. And on the other hand, if 
the unfortunate happens and it is not successful, in my view, 
it fails soft. There is other ways to do it. Commercial crew 
fails hard, and that is the fundamental difference. I guess the 
other comment I would make also is--and maybe I am not the 
right person to do this, but having spent a little bit of time 
in industry, we should not set up this commercial endeavor to 
fail. Don't make the bar so high. You know, have a responsible 
bar that can be achieved, and if achieved, then there is an 
opportunity to raise the bar. But don't try on the first jump, 
you know, to set a world's record.
    Mr. Griffith. Thanks.
    Ms. Kosmas. Thank you very much. Thank you, Mr. Griffith. 
Before we bring the hearing to a close, I want----
    Ms. Woolsey. Wait a minute.
    Ms. Kosmas. I am sorry.
    Ms. Woolsey. I asked to be on the--back on the list quite a 
while ago.
    Ms. Kosmas. Oh, I beg your pardon. I am sorry. The Chair--
--
    Ms. Woolsey. Okay.
    Ms. Kosmas. The Chair recognizes Representative Woolsey.
    Ms. Woolsey. Thank you. I stepped out of--I was the second 
person, and I thought, no, I am just going to listen. But, you 
know, your testimony brought up so many memories, and I am the 
perfect clean-up batter, besides our Chairwoman here. Commander 
Armstrong, my kids were, all four of them, four, six, seven and 
eight when you took that step on the moon, and we sat there 
spellbound, our entire family. It is a day that I can still 
remember the colors of their t-shirts. I mean, that--it is one 
of those days. I remember that one of my sons had a loose 
tooth. I mean, we don't forget that. And my career was wrapped 
totally around the technology that came from the space 
movement. I was part of a startup telecom company. So it was 
very clear to me that--and we all knew that that company would 
not have been able to spin off from Bell Labs without the 
science from the space industry. So I have been questioning, 
while we have been sitting here, why I--and my--well, there 
aren't enough of us here to--but my colleagues will tell you, I 
have been very nonplussed about the space program, and I am on 
this committee, and blah, blah, blah. That is because I see so 
many needs in this country and in this world that I--but there 
is another because. I never ever thought the space industry 
would not be vital in our country. I took it for granted, and I 
had to go do other things that I thought were important also, 
until it became clear to me that our leadership is willing to 
let other nations send--transport our astronauts out--into 
space. And all of my competitive juices just got going. It was, 
like, no way. We are not going to pay another country and 
depend on them to take care of what we need in the United 
States of America. So you have reminded me today of exactly how 
important the space industry has been, because you have been so 
important in the past. You are important today, and you will be 
important in our future. So your stories, your message, has to 
get out there. We will help you. You will help us. You really 
will. This has been a very important day, and when it woke me 
up, I realized we have got a lot of people in this country that 
think our space industry is there, it is solid, it will be 
there forever, we don't have to worry about it. So now we have 
got to remind people that we have got decisions to make, and we 
want to make the right ones. Thank you very much.
    Ms. Kosmas. Thank you, Ms. Woolsey. Before we bring the 
hearing to a close now, I want to thank our witnesses. I think 
you have been properly thanked by many of the members, but I 
personally would like to thank you as well for testifying 
before the committee today. And, for the record, the record 
will remain open for two weeks for additional statements from 
the members and for answers to any follow-up questions the 
committee may ask of the witnesses. So the witnesses are now 
excused, and the hearing is now adjourned. Thank you very much.
    [Whereupon, at 1:55 p.m., the Committee was adjourned.]

                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
